<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Kohl, Cochran, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. The hearing will come to order.
    The subcommittee meets this morning to receive testimony on 
the fiscal year 2011 budget request for the U.S. Navy and 
Marine Corps.
    And I'm pleased to welcome the Secretary of the Navy, Mr. 
Ray Mabus, the Chief of Naval Operations (CNO), Admiral Gary 
Roughead, and the Commandant of the Marine Corps, General James 
Conway. And I look forward to their testimony.
    The President's request includes $160.6 billion to pay for 
the personnel, operation and maintenance, and acquisition 
programs of the Navy and Marine Corps. The request also 
includes $18.5 billion to pay for operations in Iraq and 
Afghanistan in 2011, and $3.8 billion to cover the additional 
costs of the surge in Afghanistan this year. The subcommittee 
will hold a separate hearing on March 25 to examine the 2010 
surge supplemental request in more detail.
    The Navy and Marine Corps continue to be standard-bearers 
in this country's ability to project power and maintain 
regional stability. Today, sailors and marines are serving on 
the front lines in Iraq and Afghanistan. Every day, these men 
and women are working to support our troops in harm's way, 
train foreign security forces, and carry out dangerous combat 
missions.
    In addition, our forward presence in the Asia Pacific, the 
Middle East, and Caribbean and elsewhere, serves to assure our 
friends and our allies, as well as deter possible adversaries. 
Our forward bases and ships at sea keep trade routes secure, 
ease regional tensions, and respond to humanitarian 
emergencies.
    I particularly commend the lifesaving efforts of our 
military personnel after the devastating earthquake in Haiti.
    As the subcommittee reviews the fiscal year 2011 budget 
request, it is clear that the Navy and Marine Corps will 
continue to deal with a number of challenges, particularly with 
the expensive acquisition programs. Delays in programs like the 
Joint Strike Fighter (JSF), the CH-53K helicopter, and the 
expeditionary fighting vehicle can force modernization funds to 
be used for sustaining older capabilities, in addition to the 
increased development and procurement costs. Congress will 
continue to exercise close oversight on balancing the 
investment in future capabilities with the demand to sustain 
current equipment.
    The subcommittee will also have important questions about 
the plans for shipbuilding. The Navy has initiated work on the 
next-generation ballistic missile submarine, which includes a 
major research and development program and a per-ship cost of 
approximately $7 billion. But, long-range estimates of the 
shipbuilding budget expect it to average $16 billion over the 
next 30 years. Many are concerned about the pressure the 
submarine will place on shipbuilding budgets beginning 10 years 
from now.
    Also in shipbuilding, the Navy is committed to a new 
acquisition strategy for the littoral combat ship (LCS) that 
emphasizes competition to bring down costs while providing the 
best capability. With all the recent criticism of earmarks in 
the newspapers, it is important to know that the Navy would not 
be able to pursue the new acquisition strategy this year if the 
Appropriations Committee had not added $60 million in 
unauthorized funds to last year's budget. I believe, when the 
history of this program is written, these additional funds by 
Congress will result in substantial savings to the U.S. 
taxpayer.
    Finally, I'd like to commend the witnesses on their 
commitment to supporting the needs of sailors and marines who 
serve our country. Both the Navy and Marine Corps are 
experiencing very strong rates of recruiting and retention, and 
I would hope that our witnesses will elaborate, in their 
opening statement, on the initiatives to take care of our men 
and our women in uniform.
    And the full statements of each of the witnesses will be 
made part of the official record.
    And now, I am pleased and honored to turn to the vice 
chairman of the subcommittee, Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to join you in welcoming this distinguished 
panel of witnesses to discuss the budget request for the U.S. 
Navy and Marine Corps in the next fiscal year.
    It's particularly good to see my friend Secretary Ray 
Mabus, Secretary of the Navy, who is serving with distinction 
in that capacity and served as our Governor of Mississippi and 
is a good friend. We're glad to see him in this very important 
position.
    And we look forward to hearing your testimony and assure 
you that we want to do what we need to do here to provide the 
funding so that we maintain a strong, mobile, and effective 
Navy and Marine Corps team to protect the security interests of 
our great country.
    Chairman Inouye. Senator Bond, would you care to read a 
statement?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman, Senator 
Cochran.
    And thank you, Mr. Chairman, for your concise description 
of how this subcommittee has provided vitally needed assistance 
to all branches of the service; and without it we'd have had 
many shortfalls.
    But, we welcome Secretary Mabus, Admiral Roughead, General 
Conway, for appearing before this subcommittee today.
    I'm particularly interested in our Nation's carrier fleet, 
the backbone of our military's ability to project power and 
peace around the world. As we all know, the F/A-18 Hornets and 
Super Hornets are the backbone of the carrier-based strike 
fighter aviation fleet. These aircraft are providing support 
for our warfighters, to close air-support mission, to ground 
forces, with an unmatched deterrent capability. The F/A-18 
continues to be the Navy's only strike fighter with advanced 
air-to-ground and air-to-air operational capability; and the 
continued procurement of these aircraft is, I believe, very 
necessary to address the Navy shortfall.
    In other words, to apply Secretary Gates's statement, I 
think procuring F/A-18s is absolutely necessary. Secretary 
Gates said that he was ``advocating a shift away from 99 
percent exclusive service-centric platforms that are so costly 
and so complex that they take forever to build, and only then, 
in very limited quantities. With the pace of technological and 
geopolitical change and the range of possible contingencies, we 
must look more to the 80 percent solution, a multiservice 
solution that can be produced in time, on budget, and in 
significant numbers. As Stalin once said, `quantity has a 
quality all of its own' ''.
    I think Secretary Gates has hit it on the head. Keeping 
Americans, whether our troops fighting overseas or our families 
at home, safe from current and emerging threats is a difficult 
challenge in an uncertain and dangerous world. America must 
have the right tools to meet this challenge. And I believe 
having a Super Hornet in our arsenal is an important part of 
the strategy.
    I applaud the efforts of the Department of the Navy for 
considering a multiyear procurement. This prudent move would 
prevent the Navy from having empty carrier decks, save hundreds 
of millions of valuable taxpayer dollars, and maintain the 
strength of the United States industrial defense base, a very 
important objective for the Navy, for the marines, and for the 
peace and security that this Nation advocates and promotes, 
here and abroad.
    Thank you, Mr. Chairman.
    Chairman Inouye. I thank you very much.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll be brief.
    I ask that my written statement be made part of the record.
    Chairman Inouye. Without----
    Senator Shelby. And, Secretary----
    Chairman Inouye [continuing]. Objection.
    Senator Shelby. Thank you.
    Secretary Mabus, General Conway, Admiral Roughead, we look 
forward to being with you this morning and hearing your 
testimony and also have a chance to question you on some very 
important issues.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Kohl. No statement.
    Chairman Inouye. Then I'll begin with the questioning, if I 
may.
    But, first, we'll call upon the Secretary.

                  SUMMARY STATEMENT OF HON. RAY MABUS

    Mr. Mabus. Mr. Chairman, Mr. Vice Chairman, members of the 
subcommittee, it's a real pleasure to be here with you today. 
The CNO, the Commandant, and I are particularly grateful to the 
commitment that the members of this subcommittee have shown to 
our men and women in uniform in the Navy and the Marine Corps. 
We're exceptionally proud to be representing the sailors, 
marines, civilians, and their families that are with the 
Department of the Navy.
    The Navy and the Marine Corps remain the most formidable 
expeditionary fighting force in the world, capable of global 
operations across the entire spectrum of warfare. Today, 40 
percent of our forces are deployed and over one-half of our 
fleet is at sea.
    In Helmand Province, Afghanistan, more the 16,000 marines 
are engaged in major combat, counterinsurgency, and engagement 
operations. They're supported there by naval aircraft flying 
close air support from Eisenhower and from our forward-deployed 
expeditionary aviation assets. A total of 12,000 sailors are on 
the ground in Iraq, Afghanistan, and across the greater Middle 
East, and another 9,000 sailors and marines are embarked on our 
ships at sea.
    Off the coast of Africa, our ships are protecting 
international commerce and operating as a partnership station 
with regional allies. Off the coast of South America, other 
ships are stemming the flow of illegal narcotics into the 
United States.
    Our ballistic missile defense forces are ready to defend 
against any threat to international peace in Europe, the Middle 
East, and the Pacific Rim. Our forward-deployed forces continue 
their role as a strategic buffer and deterrent against rogue 
regimes and potential competitors, alike. In Haiti, as the 
chairman mentioned, the Bataan and 1,000 marines from the 22d 
Marine Expeditionary Unit continue to provide humanitarian aid, 
medical assistance, and disaster relief.
    The Navy and Marine Corps are flexible, responsive, and 
everywhere our Nation's interests are at stake. Our global 
presence reduces instability, deters aggression, and allows us 
to rapidly respond to any crisis that borders the sea.
    I believe that the President's fiscal year 2011 budget for 
the Department of the Navy is a carefully considered request 
that gives us the resources we need to conduct effective 
operations and meet all the missions we have been assigned.
    Our shipbuilding and aviation requests concur with the 
findings of the Quadrennial Defense Review (QDR) and its 
objective of prevailing in today's wars, preventing conflict, 
preparing for future wars, and preserving the force. With this 
budget, the Navy and Marine Corps will continue to maintain the 
maritime superiority of our forces, sustain a strong American 
shipbuilding industrial base, and ensure our capacity for rapid 
global response.
    Across the Future Years Defense Program (FYDP), we've 
requested funds to build an average of 10 ships per year, 
including 1 carrier, 1 big deck amphibious ship, 10 Virginia-
class submarines, and 17 littoral combat ships.
    We'll leverage the technologies captured from canceled 
programs like the CG(X) and the truncated DDG 1000 program into 
what will become our Flight III Burke-class DDGs. These 
technologies include SPY-3 and the air and missile defense 
radar. Through the submitted shipbuilding plan, we will 
increase the size of our fleet to approximately 320 ships by 
2024.
    In our shipbuilding program, I think we've made the most 
cost-effective decisions to achieve the most capable force, one 
that achieves equal flexibility to confront missions, across 
the spectrum of conflict, from the technologically complex, 
like ballistic missile defense and integrated air defense, to 
low-intensity humanitarian response and regional engagement.
    In aircraft procurement, we've requested just over 1,000 
aircraft across the FYDP, including both fixed and rotary wing.
    Over the next year, the Navy and Marine Corps will continue 
to move ahead with changes to our acquisitions process. In 
compliance with the Weapons Systems Acquisitions Reform Act, we 
are aggressively developing our acquisition strategies to 
ensure that on-time and on-budget is the standard for Navy and 
Marine Corps programs.
    I'm grateful for the support of this subcommittee for the 
decision to recompete the LCS Program when it failed to meet 
program standards. I assure you that we will not hesitate to 
recompete or cancel other programs whenever substandard 
performance demands change.
    Change is also required to address the way in which the 
Navy and Marine Corps use and produce energy. Energy reform is 
an issue of national security, and it's essential to 
maintaining our strategic advantage, warfighting readiness, and 
tactical edge. By 2020, I've committed the Navy to generate 
over one-half the energy we use from alternative sources. This 
is an ambitious goal, but one which can be met.
    Forty years ago, I stood watch on the deck of the U.S.S. 
Little Rock as a young junior officer. Today, I have the solemn 
privilege of standing watch on behalf of our Navy and Marine 
Corps in a time of war. I am honored by the trust the President 
and the Congress have placed in me, and fully recognize the 
solemn obligation I have to those who defend us.
    I, along with the CNO and the Commandant, look forward to 
hearing your thoughts and answering any questions you may have 
concerning this budget, any specific programs or policies.

                           PREPARED STATEMENT

    I also look forward to working with you as we move forward 
to sustain the Navy and Marine Corps as the most formidable 
expeditionary fighting force in the world.
    Thank you.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]

                  Prepared Statement of Hon. Ray Mabus

    Chairman Inouye and Senator Cochran, it is a pleasure to be here 
today with the House Armed Services Committee as the representative of 
the nearly 900,000 Sailors, Marines, and civilians that make up the 
Department of the Navy. The Chief of Naval Operations, the Commandant 
of the Marine Corps and I are privileged to lead some of the best men 
and women in the country, who are selflessly serving the United States 
all around the world in support of our safety, our security, and our 
national interests.
    The Navy and Marine Corps remain the most formidable expeditionary 
fighting force in the world. We are America's ``Away Team''. The 
mission and experience of our team is well matched to the multiple and 
varied challenges that threaten our nation's security and global 
stability.
    Today the Navy and Marine Corps are conducting operations across 
the spectrum of military operations, from major combat and ballistic 
missile defense to humanitarian assistance and disaster relief.
    Fifteen thousand Marines are at the forefront of our nation's 
defense, serving in and around Helmand Province, Afghanistan. By spring 
this number will grow to almost 20,000. It is a testament to the 
responsiveness and combat capability of the Marine Corps that the first 
troops to depart for Afghanistan in the wake of the President's 
December 1 announcement were 1,500 Marines from Camp Lejuene, North 
Carolina. The new arrivals, who deployed before the end of last year, 
joined the Second Marine Expeditionary Brigade already in place. 
Together they are taking the fight to the Taliban and al-Qaeda in their 
sector and assisting the Afghan Provincial Government in reestablishing 
control. General Conway describes their capability as a ``two-fisted 
fighter,'' capable of simultaneously combating an adaptive and 
insidious insurgency among the Afghan civilians while maintaining the 
skill set to conduct major combat operations.
    The Navy in Afghanistan is contributing Special Operations Forces, 
Explosive Ordnance Disposal Teams, Seabee civil engineering assets, all 
of the airborne expeditionary tactical Electronic Warfare capability, 
medical and intelligence professionals, and logistical support. From 
our carriers operating in the Indian Ocean, we are launching a 
significant percentage of the close air support that watches over our 
Marines and Soldiers on the ground. The Navy has over 12,000 Sailors on 
the ground in Central Command supporting joint and coalition efforts in 
both Iraq and Afghanistan and another 9,000 Sailors at sea supporting 
combat operations.
    The Navy and Marine Corps today are globally engaged in a host of 
other security and stability operations. In our cruisers and 
destroyers, the Navy has built a strong ballistic missile defense 
force. These multi-mission ships routinely deploy to the Mediterranean, 
the Arabian Gulf, and the Western Pacific and extend an umbrella of 
deterrence. Across the Future Years' Defense Program we will expand 
this mission and operationally implement the President's decision in 
September 2009 to focus on sea-based ballistic missile defense.
    That capability is complemented by the continued preeminence of the 
ballistic missile submarines in our strategic deterrent force, who 
operate quietly and stealthily on station every day of the year.
    In the Gulf of Aden and Western Indian Ocean, Combined Task Force 
151 is leading the international effort to combat piracy in the Gulf of 
Aden. They are coordinating their operations with forces from the 
European Union, NATO, and a total of 24 nations contributing ships, 
aircraft, and staff personnel as well as operational and intelligence 
support.
    Our ships and maritime patrol aircraft in the Caribbean and off 
South America are working with the Coast Guard-led Joint Interagency 
Task Force--South, which ties together information and forces from 13 
nations to stem the flow of illegal narcotics into the United States. 
In 2009 alone they contributed to the seizure or disruption of almost 
220,000 kilograms of cocaine with a street value of over $4 billion.
    Both the Navy and Marine Corps routinely conduct training exercises 
and multi-lateral operations with nations all around the world to 
solidify our relationships with traditional allies and forge 
partnerships with new friends. Global Partnership Stations in Africa, 
South America, and the Pacific are training hundreds of Sailors, 
Marines, and Coast Guardsmen from dozens of nations and are supporting 
regional diplomatic and humanitarian engagement efforts, like those of 
the hospital ship USNS Comfort and the Fleet Auxiliary USNS Richard E. 
Byrd in the summer of 2009. The two ships together treated over 110,000 
patients in the Caribbean, South America, and Oceania, and the USNS 
Comfort furthered an existing partnership with numerous civilian aid 
organizations.
    The Navy-Marine Corps team remains on the front-line of response to 
natural disasters. In 2009 we provided humanitarian assistance to 
Indonesia, the Philippines, and American Samoa, and delivered thousands 
of tons of food, water, and medical supplies to those affected by 
devastation. After the January 12 earthquake in Haiti, the Navy and 
Marine Corps responded immediately. Within a week of the earthquake, 11 
Navy ships, including the carrier U.S.S. Carl Vinson, the big-deck 
amphibious ship U.S.S. Bataan, and the hospital ship USNS Comfort were 
on station off the coast of Haiti. These ships embarked 41 Navy and 
Marine Corps helicopters and approximately 2,000 Marines of the 22nd 
Marine Expeditionary Unit. On station, our units treated patients, 
provided helicopter lift capability, and delivered hundreds of tons of 
relief aid. Additional personnel and capabilities continued to flow in 
over the next weeks. Our mission there will continue as long as 
required.
    The Navy and Marine Corps are flexible, responsive, and everywhere 
that our nation's interests are at stake. The Navy and Marine Corps' 
global presence reduces instability, deters aggression, and allows for 
rapid response to a wide range of contingencies.
    In order to ensure our continued global mobility, the Department of 
the Navy strongly supports accession to the Law of the Sea Convention 
(UNCLOS). The United States must continue to take maximum advantage of 
the navigational rights contained in the Convention. Ratification would 
enhance stability for international maritime rules and ensure our 
access to critical air and sea lines of communication.
    I have now been the Secretary of the Navy for 9 months, and in that 
short period of time I have met thousands of our Sailors and Marines 
serving on the front lines at sea and ashore. I have been constantly 
inspired by the high morale, courage, and commitment to serving our 
country displayed by every one of them as they conduct our missions. In 
return, I have continually expressed to them the appreciation of the 
American people for the sacrifices they and their families are making 
every day.
    I have met our operational commanders and seen first-hand the 
warfighting readiness of our Fleet and our Marine Forces. I have 
inspected the facilities of our industry partners who are building the 
Navy and Marine Corps of tomorrow. With the advice and support of my 
leadership team, I have made some initial decisions to better prepare 
the Navy and Marine Corps for the challenges of the future. These 
observations and our initial actions have given me a good picture of 
the Navy and Marine Corps, and from this vantage I can report to 
Congress and the President the current state of the Services, the 
budgetary requirements we need to successfully perform our mission, and 
the future direction I believe we must take.
    The Department of the Navy's fiscal year 2011 budget request 
reflects the President's priorities, Secretary Gates' strategic and 
fiscal guidance, and fundamentally aligns with the 2010 Quadrennial 
Defense Review (QDR) priorities: Prevailing in today's wars; preventing 
and deterring conflict; preparing for a wide range of future 
contingencies; and preserving and enhancing the All-Volunteer Force.
    This budget request of $160.7 billion will maintain across the 
Future Years' Defense Program our commitment to a strong industrial 
base. The fiscal year 2011 request of $18.5 billion for contingency 
operations includes incremental costs to sustain operations, manpower, 
equipment and infrastructure repair as well as equipment replacement to 
support our focus on increasing threats in Afghanistan and elsewhere.
    In the fiscal year 2011 budget request, we have included funds for 
9 ships, including 2 additional Virginia class submarines, 2 destroyers 
in the restarted Arleigh Burke line, a lower-cost commercial variant of 
the Mobile Landing Platform, the multi-role Landing Helicopter Assault 
Replacement, a Joint High Speed Vessel and 2 Littoral Combat Ships, 
which will be constructed under the terms of the down-select we will 
conduct this fiscal year. In aviation, we have requested 206 aircraft 
in fiscal year 2011, including 20 F-35 Joint Strike Fighters for both 
the Navy and Marine Corps, 24 MH-60R and 7 P-8As to begin replacing our 
aging ASW and maritime patrol squadrons, 18 MH-60S for logistics 
support, 28 H-1 variant helicopters and 30 MV-22 for the Marine Corps, 
22 F/A-18E/F and 12 F/A-18G to continue replacing the EA-6B. For Marine 
Corps ground operations, we have requested funding for an additional 
564 LVSR and HMMWV tactical vehicles. The fiscal year 2011 budget 
request also contains development funding for the Navy Unmanned Combat 
Aerial System and continues development of the Broad Area Maritime 
Surveillance UAV. And we have continued our support of the Naval 
Expeditionary Combat Command, including funding for a fourth Riverine 
Squadron.
    The Department's long-range shipbuilding and aviation intentions 
are designed to sustain our naval superiority and they achieve a 
balance of capability and affordability that both wins today's wars 
even while preparing for the challenges of the future.
    There are four strategic, tactical, and personnel management 
imperatives I believe the Department of the Navy must also address to 
maintain preeminence as a fighting force and successfully address 
whatever comes in the future. These four areas reinforce the strategic 
framework of the QDR and address the areas of risk it identifies. They 
are: Taking care of our Sailors, Marines, Civilians, and their 
Families; treating energy in the Department of the Navy as an issue of 
national security; creating acquisitions excellence; and optimizing 
unmanned systems.
    They underpin the development of our fiscal year 2011 budget 
request, execute Presidential policy, and comply with and respond to 
Congressional direction.

     TAKING CARE OF SAILORS, MARINES, CIVILIANS, AND THEIR FAMILIES

    Sailors and Marines are the fundamental source of our success. They 
are our most important asset, and they must always come first in our 
minds and in our actions. One of my most important responsibilities as 
Secretary is to ensure adequate compensation, medical care, and family 
support services are provided to our Sailors, Marines, civilians, and 
their families.
    The Navy and Marine Corps will continue to recruit and retain the 
same high quality individuals we brought into and kept in the service 
in 2009. We remain committed to providing a competitive pay and 
benefits package to aid recruiting. The package includes not only basic 
pay and housing allowances, but also provides incentives for critical 
specialties in healthcare, explosive ordnance disposal, and nuclear 
propulsion.
    Beyond compensation, we recognize that quality of life programs are 
crucial to retention and the military mission. We are providing 
expanded career opportunities, opportunities for life-long learning, 
and a continuum of care and family support. The Department continues to 
support a wide array of readiness programs, including deployment 
support services, morale and welfare services, and child and teen 
programs. Our innovative personnel management and human resource 
programs were in fact recognized by civilian experts as among the best 
in the country when, in October 2009, the Navy was named by Workforce 
Management Magazine as the winner of the Optimas Award for General 
Excellence.
    Since the attacks of September 11, 2001, over 10,000 Marines and 
Sailors have been wounded in action. Their service has been exemplary 
and unselfish, and in their sacrifice they have given so much of 
themselves for our country. The Department of the Navy, through the 
Wounded Warrior Regiment and the Navy Safe Harbor Program, provides 
support and assistance to our wounded, ill, and injured service members 
and their families throughout recovery, rehabilitation, and 
reintegration. And we continue to provide encouragement and support for 
wounded Sailors and Marines, in partnership with the Department of 
Veterans Affairs, long after they have left the Service.
    Our medical community has continued to strive for excellence in the 
care of our Sailors and Marines. Navy Medicine has reached out to its 
civilian colleagues, and we have established partnerships with civilian 
hospitals to improve our understanding and care for those affected by 
traumatic brain injuries, mental health issues, amputation, and 
disfiguring injuries. I had the opportunity last fall to see this 
first-hand, when I witnessed groundbreaking pro-bono work in 
reconstructive surgery on behalf of Wounded Warriors at the UCLA 
Medical Center.
    We will continue to aggressively address the issues of sexual 
assault prevention and response. Sexual assault is a criminal act that 
is corrosive to the readiness and morale of a professional military 
organization. In the fiscal year 2011 budget request, we have requested 
funds to support a reinvigorated program under the supervision of a new 
Office of Sexual Assault Prevention and Response, which I created 
within the Secretariat to focus attention on the issue, develop 
effective training, and coordinate prevention and response programs 
across the Navy and Marine Corps.
    In 2010, the Department will move forward on expanding the 
opportunities for women in the Navy. We will establish a process to 
integrate women into the submarine force, beginning with nuclear-
trained and Supply Corps officers on our ballistic and guided missile 
submarines.
    After 8 years of continuous combat operations, the Navy and Marine 
Corps' people remain strong, and the CNO, CMC, and I are very focused 
on maintaining the overall health of the force. The fiscal year 2011 
budget request reinforces these goals and is designed to provide the 
fiscal support necessary to sustain the force. The visible support of 
Congress to our personnel programs is deeply appreciated and has been 
vital in maintaining overall readiness.

                             ENERGY REFORM

    The way in which we use and produce energy is an issue of national 
security and is essential to maintaining our warfighting capabilities. 
At present, we simply rely too much on fossil fuels, which are 
susceptible to both price and supply shocks caused by events in 
volatile areas of the world largely outside the scope of our control. 
Those potential shocks have, in turn, strategic, operational, and 
tactical effects upon our forces. In addition, fossil fuel emissions 
are the root cause of many of the impending security challenges of 
tomorrow, and the QDR has correctly identified that climate change and 
its effects: rising sea levels, pressure on natural resources, and 
changes to the polar regions, will increasingly affect our force 
structure and the global security environment as the 21st century 
progresses. In order to improve our long-term strategic and fiscal 
position, I have set the Navy and Marine Corps on a path to change the 
way in which we use and produce energy.
    In October 2009, I issued five energy targets. They are ambitious 
in their scope, but I firmly believe that little will be accomplished 
without bold, innovative, and timely action. The most important of the 
targets commits the Navy and Marine Corps to generating half of all the 
energy we use, including that used by the operational fleet, from 
alternative sources by 2020. I have also committed the Navy and Marine 
Corps to consider energy as a mandatory evaluation factor in 
contracting, and to consider as an additional factor in our business 
dealings, the energy footprint of the companies that sell to the Navy 
and Marine Corps.
    America is a world leader precisely because of our willingness to 
not just embrace change, but to create it. The U.S. Navy has always 
been a technological leader. We moved from wind to coal in the 19th 
century, coal to oil early in the 20th century, and to nuclear power in 
mid-century. In every transition there were opponents to change, but in 
every case the strategic and tactical position of naval forces 
improved. In this century, I have asked the Navy to lead again by 
pioneering technological change through use of alternative energy. But 
I want to reiterate that every action and program we undertake must and 
will have as an effect improved warfighting capability. And we will 
strive in every case to improve energy efficiency and reach cost-
neutrality over the life of the program.
    Many of our initiatives are already doing this. We conducted a 
ground test of an F/A-18 Hornet jet engine this fall running on a 
biofuel blend and we intend to conduct an airborne test of the ``Green 
Hornet'' later this year. In late 2010, the Navy will also conduct 
tests of a more efficient F/A-18 engine, which will increase the 
aircraft's range. Afloat, the U.S.S. Makin Island, the first ship 
constructed with a hybrid-electric drive that dramatically lowers fuel 
consumption at lower speeds, saved approximately $2 million in a single 
transit to her new homeport in San Diego. Over the life of the ship, we 
estimate the savings will be up to $250 million using today's fuel 
prices. Writ large across the Navy, as we begin to retrofit our DDG 
fleet with similar propulsion systems, the potential fuel savings will 
only grow.
    In addition to these tactical applications, we have implemented a 
number of energy projects at our facilities ashore, and numerous other 
efficiency initiatives throughout the Fleet. As the President clearly 
stated in Copenhagen, changing the way we use and produce energy is a 
national security imperative.

                         ACQUISITION EXCELLENCE

    The ships and aircraft of the Navy and Marine Corps are unmatched 
at sea and over land. Our precision munitions, networked targeting 
systems, armored vehicles, stealth technology, and unmanned vehicles 
are advanced systems that define the leading edge of warfare in all 
domains.
    These truths have been brought home to me during my visits with the 
defense industry. I have had the opportunity to visit shipyards, 
aircraft manufacturers, factories, and depots; and I applaud the hard 
work and dedication of this country's skilled workforce--Americans who 
take as much pride in their patriotism as they do in their 
craftsmanship.
    The issue before us all, however, is affordability. Acquisition 
costs are rising faster than our budget's top-line, and without 
deliberate, sustained action to reverse this trend, we put the size and 
capability of the future force at risk. In accordance with the Weapons 
System Acquisition Reform Act passed by Congress in 2009, the Navy and 
Marine Corps will aggressively pursue additional ways to make the 
acquisitions process more rigorous; we will prudently safeguard the 
resources entrusted to us by the American taxpayer, and we will fully 
meet the obligation we hold to our Sailors and Marines.
    This requires close examination of the way we do business in our 
policies, practices, priorities, and organization, with a clear focus 
on controlling cost. The Navy and Marine Corps will continue 
initiatives to raise standards, to improve processes, to instill 
discipline in procurement, and to strengthen the professional corps 
that manages our major defense acquisition programs.
    We are pressing forward with key initiatives that promise to 
improve our ability to affordably deliver combat capability to the 
fleet.
    We are improving the quality of our cost estimates, which underpin 
our investment decisions. We are strengthening our cost estimating 
group, requiring independent cost estimates, and incorporating 
Departmental best practices in the formulation of our Service Cost 
Position for all major programs. We are using these realistic cost and 
schedule estimates to drive difficult decisions at the front end of the 
requirements process.
    We are developing our acquisition strategies with the intent of 
expanding the use of fixed price contracts, leveraging competition, and 
tightening up on the use of incentive and award fees to ensure quality 
systems are delivered consistently on budget and on time to our Sailors 
and Marines. When we could not achieve these objectives this past year 
on the Littoral Combat Ship program, we rewrote the program's 
acquisition strategy to improve performance through competition. I 
thank the Committee for its strong support of this revised strategy, 
and I assure you that I will not hesitate to re-compete or cancel 
programs when sub-standard performance demands change.
    We are demanding strict discipline in the execution of our 
contracts. Before commencing production on new start ship programs, I 
have reported to you the results of reviews conducted to ensure that 
designs are mature. We are specifically clamping down on contract 
changes, the most-often cited reason for cost growth, through improved 
policies and increased oversight.
    Our goals for modernizing today's force and recapitalizing the 
fleet affordably cannot be accomplished without a healthy industrial 
base and strong performance by our industry partners. We have worked 
hard to procure our ships, aircraft, and weapon systems at a rate 
intended to bring stability to the industrial base and enable efficient 
production. The Navy's long-range shipbuilding plan was developed with 
particular regard for maintaining the unique characteristics and 
strength of the base and our efforts support the QDR's emphasis on 
maintaining the defense industrial base with appropriate levels of 
competition, innovation, and capacity. The Future Years' Defense 
Program outlines construction of a balanced force of 50 ships, an 
average of 10 ships per year, which requires the full breadth of 
capabilities and services provided by our major shipbuilders and 
vendors.
    In the end, industry must perform. We will work with our shipyards, 
aircraft manufacturers, and weapon systems providers to benchmark 
performance, to identify where improvements are necessary, to provide 
the proper incentives for capital investments where warranted, and to 
reward strong performance with terms and conditions that reflect our 
desire for a strong government-industry partnership.
    To meet our objectives, we must be smart buyers. The acquisition 
workforce has been downsized over the past 15 years and in truth our 
professional acquisition corps has been stretched too thin. 
Accordingly, and with your strong support, we are rebuilding the 
acquisition workforce through a number of parallel efforts. We must 
both increase the number of acquisition workers and restore to the 
government the core competencies inherent to their profession. The 
Department has added 800 acquisition professionals in the last year 
towards the goal of increasing the community by 5,000 over the Future 
Years' Defense Program. This represents a 12 percent growth in our 
workforce.

                            UNMANNED SYSTEMS

    The complex nature of today's security environment, as well as 
current and future anti-access threats faced by the United States 
require that the Navy and Marine Corps investigate the contributions 
unmanned systems can make to warfighting capability. Unmanned systems 
are unobtrusive, versatile, persistent, and they reduce the exposure of 
our Sailors and Marines to unnecessary threats. They perform a vast 
array of tasks such as intelligence collection, precision target 
designation, oceanographic reconnaissance, and mine detection, and that 
array will grow exponentially year to year.
    Navy and Marine Corps unmanned systems have already made key 
contributions to operations in Afghanistan, Iraq, and in the counter-
piracy effort off the coast of Africa. Unmanned aircraft systems have 
flown thousands of flight hours in support of Operation Iraqi Freedom 
and Operation Enduring Freedom. Unmanned ground vehicles employed by 
the Marine Corps have conducted thousands of missions detecting and/or 
neutralizing improvised explosive devices. And unmanned maritime 
systems have provided improved port security.
    We continue to support research and development activities to 
improve these capabilities and increase the level of autonomy in 
unmanned systems. Over the Future Years' Defense Program we will 
continue to focus on transitioning from research and development and 
limited deployments, through test and evaluation, to full fleet 
integration and operations. In order to best direct our research and 
harness the capabilities of unmanned systems, I am tasking the 
Department to develop a comprehensive roadmap for unmanned system 
development, to include a coordinated strategy for air, ground, 
surface, and subsurface systems focused on integration and 
interoperability with our existing platforms and capabilities.
    The initiatives and investments contained in the fiscal year 2011 
budget request will move us onto this path. I look forward to reporting 
continued progress throughout the year.

                                CLOSING

    In this statement, I have discussed the strategic and tactical 
imperatives that guide the Department and influence the future 
decisions we will make. Specific programmatic requests are reflected in 
the fiscal year 2011 budget request, which I believe incorporates the 
difficult trade-offs and disciplined decisionmaking that you and the 
American taxpayer expect of us. We have carefully weighed risks and 
made proposals to you that will ensure we retain a ready and agile 
force capable of conducting the full range of military operations. And 
we will continue to work hard to be effective stewards of the resources 
you allocate to us.
    Forty years ago I stood watch on the deck of the U.S.S. Little Rock 
as a young junior officer. Today I have the solemn privilege of 
standing watch on behalf of our Navy and Marine Corps in a time of war 
and national challenge. I am honored by the trust the President and 
Congress have placed in me and I fully recognize the solemn obligation 
I have to those who defend us.
    That obligation fueled my desire to observe our people up close in 
their varied and often dangerous jobs. I've seen first hand the courage 
of our young Marines in Helmand, the determination of a wounded SEAL to 
walk despite losing two legs, the pride of a young Sailor in a hot 
engine room, the selfless dedication of corpsmen, nurses and doctors 
caring for the fallen.
    Sacrifice and service created and preserve the freedom and 
opportunity that we enjoy as Americans. Although we aspire to create a 
world in which violence and aggression have been eliminated, we 
understand that peace and stability are often secured only when strong 
nations and good people are willing and prepared to use decisive force 
against those who threaten it. The Navy and Marine Corps stand ready to 
do so.
    Your commitment to the service of our country and your recognition 
of the sacrifice of our Sailors, Marines, civilians and their families 
has been steadfast and is fully reflected in the support of this 
Committee for our key programs and our people.
    I, along with my partners, the Chief of Naval Operations, Admiral 
Roughead, and the Commandant of the Marine Corps, General Conway, look 
forward to hearing your thoughts and answering any questions you may 
have about our budget request or specific programs of interest. I also 
look forward to working closely with Congress as we move forward to 
sustain the Navy and Marine Corps as the most formidable expeditionary 
fighting force in the world.
    Thank you and Godspeed.

    Chairman Inouye. And now, may I call upon the Chief of 
Naval Operations, Admiral Roughead?

STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Roughead. Chairman Inouye, Senator Cochran, and 
members of the subcommittee, it's my honor to appear before you 
again today, representing more than 600,000 sailors and Navy 
civilians and our families. Sixty-five thousand of them are 
deployed, 12,000 on land in the Central Command area of 
operations, and 55 percent of our fleet is underway, carrying 
out our maritime strategy, a prescient precursor to the 2010 
Quadrennial Defense Review. They are projecting power into 
Afghanistan, building partnerships in Africa, delivering relief 
in Haiti, and providing ballistic missile defense in the 
Arabian Gulf and the eastern Mediterranean, with pride and 
determination.
    They're even deployed in the first littoral combat ship, 2 
years ahead of schedule. And in the first weeks of that ship's 
deployment, they've already seized approximately 4 tons of 
cocaine with a street value of $89 million.
    It is our sailors and Navy civilians who make all things 
possible; and thanks to your support, we've made important 
progress in building tomorrow's Navy, remaining ready to fight 
today, and supporting our sailors, Navy civilians, and families 
this year. This year's budget submission will take us even 
further.
    As the high demand for our Navy continues apace, we have 
stabilized end strength, and the tone of the force remains 
positive. We will continue to aggressively improve wellness 
programs and medical and social services for our wounded 
warriors; indeed, all who serve.
    Our fleet, unlike other services, is a continuously 
deployed force that we reset in stride. Conducting routine, 
indeed regular, maintenance and training is how our ships and 
aircraft reach their expected service lives. We increased our 
base budget and overseas contingency operation, or OCO, funding 
requests for operation and maintenance in fiscal year 2011 over 
our levels of last year. Our operation and maintenance requests 
are focused tightly on meeting increased OPTEMPO requirements, 
sustaining ships and aircraft to reach expected service lives, 
sustaining flying-hour readiness requirements, and funding 
price increases. I strongly request your support for full 
funding of our operation and maintenance accounts.
    While we reset, we must also procure ships and aircraft to 
reach our requirement of more the 313 ships. Last year, we 
commissioned 9 ships, and over the next decade our plan 
procures an average of 10 ships per year; significant growth 
for the near term. For aviation, I remain committed to bringing 
new capabilities online--the Joint Strike Fighter and unmanned 
aircraft--and to maintaining the readiness of our current Naval 
Air Force, all of which give our Nation flexibility and 
response unencumbered by overseas basing.
    Affordability for all our plans will remain fundamental to 
our decisions. The effectiveness of our unmanned systems, 
ships, and aircraft is a feature of the systems which connect 
them. Last year, I brought information capabilities and 
resources under a single information dominance directorate 
within the Navy staff, and commissioned Fleet Cyber Command/
10th Fleet. I see the benefits of this already.
    I'm proud of our Navy's accomplishments last year, and I'm 
confident we can achieve even more with this year's budget 
submission. Our risk continues to trend toward significant, and 
achieving the right balance within and across my priorities 
remains critical to mitigating it. But, I remain optimistic 
because of our outstanding sailors and Navy civilians and the 
spirit of our Nation. We have seen more challenging times, and 
have emerged prosperous, secure, and free.

                           PREPARED STATEMENT

    I ask that you support our fiscal year 2011 budget request, 
and I thank you for all you do to make the United States Navy a 
global force for good, today and into the future.
    Thank you, sir.
    Chairman Inouye. I thank you very much, Admiral Roughead.
    [The statement follows:]

              Prepared Statement of Admiral Gary Roughead

    Chairman Inouye, Senator Cochran, and members of the Committee, it 
is my honor and pleasure to appear before you, once again, representing 
the more than 600,000 Sailors and civilians of the United States Navy. 
Every day, our dedicated Navy men and women are forward deployed 
protecting the global commons in every domain: sea, land, air, space, 
and cyberspace. I appreciate your continued support for them as our 
Navy protects our Nation and our national interests.
    When I signed our Maritime Strategy with General Conway and Admiral 
Allen more than 2 years ago, I was confident that the strategy would 
prepare us well for the current and future security environments. Since 
then, it has guided our operations and investments, and I am further 
convinced of its relevance to our operations today and of its enduring 
attributes. The 2010 Quadrennial Defense Review (QDR) validated the 
underlying principle articulated in the Maritime Strategy that 
preventing wars is as important as winning wars. The QDR also declared 
that U.S. security and prosperity are connected to that of the 
international system, that deterrence is a fundamental military 
function, and that partnerships are key to U.S. strategy and essential 
to the stability of global systems. These themes reinforce the tenets 
of our Maritime Strategy and the six core capabilities it identified 
for our maritime Services: forward presence, deterrence, sea control, 
power projection, maritime security, and humanitarian assistance and 
disaster response (HA/DR).
    My priorities for the Navy remain unchanged: to build tomorrow's 
Navy, to remain ready to fight today, and to develop and support our 
Sailors, Navy civilians, and their families. We are making progress in 
these areas thanks to your continued support. Some highlights follow.
    We added nine new ships to our Fleet in 2009, including U.S.S. 
Freedom (LCS 1), currently on its first deployment, and U.S.S. 
Independence (LCS 2), our second Littoral Combat Ship. We delivered 
three DDG 51 destroyers and restarted the DDG 51 line to increase 
surface combatant capacity for maritime security, deterrence, and anti-
submarine warfare. We are adapting our force to meet the President's 
demand for sea-based ballistic missile defense (BMD) of Europe while 
sustaining our current BMD missions in the Arabian Gulf and Western 
Pacific. Our Virginia class submarine program continues to excel with 
the delivery of U.S.S. New Mexico (SSN 779) 4 months ahead of schedule. 
We rolled out our first carrier variant of Joint Strike Fighter (F-35C) 
aircraft, the timely delivery of which remains essential to fulfilling 
our strike fighter requirements. We are conducting the first deployment 
of our Vertical Take Off and Landing Unmanned Aerial Vehicle (VTUAV) 
and we expect the first test flight of our Navy Unmanned Combat Aerial 
System demonstrator this year.
    In the information and cyberspace domain, I established Fleet Cyber 
Command/U.S. Tenth Fleet as the global operator of Navy's cyber, 
networks, cryptology/signals intelligence, information, electronic 
warfare, and space operations. I restructured the Navy staff to bring 
all Navy information capabilities and resources under our new 
Information Dominance Deputy Chief of Naval Operations and created the 
Navy Information Dominance Corps, integrating more than 45,000 Sailors 
and civilians from our existing intelligence, information professional, 
information warfare, meteorology/oceanography, and space communities. 
About 1,400 of these Sailors are deployed globally as individual 
augmentees (IAs) today, most supporting operations in the Central 
Command (CENTCOM) area of responsibility.
    More than 40 percent of our Fleet is underway daily, globally 
present and persistently engaged. Our forward presence enabled the 
rapid response of our aircraft carrier U.S.S. Carl Vinson and numerous 
other surface and USNS ships, helicopters, and personnel to Haiti to 
provide humanitarian aid after the devastating earthquake in January. 
We remain engaged in operations in Afghanistan and in the drawdown of 
U.S. forces in Iraq. Navy has more than 21,000 active and reserve 
Sailors on the ground and at sea in CENTCOM. This includes a doubling 
of our construction battalion (SEABEE) presence in Afghanistan and 
ongoing IA support to both operations. I recently issued our Navy 
Vision for Confronting Irregular Challenges to shape how our Navy will 
plan for, resource, and deliver a wide range of capabilities to 
confront irregular challenges associated with regional instability, 
insurgency, crime, and violent extremism at sea, in the littorals, and 
on shore.
    Our Navy continues to support our people and their families. We are 
in the process of expanding opportunities for service at sea to women 
in the Navy by opening to them assignments on submarines for the first 
time in history. Our Navy has received 19 national awards in the past 
18 months for its workforce planning, life-work integration, diversity, 
and training initiatives. Most notably, Workforce Management magazine 
awarded Navy the 2009 Optimas Award for General Excellence, which 
recognized the U.S. Navy as an employer of choice among the ranks of 
previous distinguished recipients such as Google, Intel, and Hewlett-
Packard. We have met or exceeded overall officer and enlisted (active 
and reserve) recruiting goals for 2009 and we are on track to achieve 
similar success in 2010. I appreciate the support of Congress for our 
Fleet and its dedicated Sailors, Navy civilians, and their families 
that serve our nation every day.
    I continue to focus on ensuring our Navy is properly balanced to 
answer the call now and in the decades to come. Last year, I stated our 
risk was moderate trending toward significant because of the challenges 
associated with Fleet capacity, increasing operational requirements, 
and growing manpower, maintenance, and infrastructure costs. This risk 
has increased over the last year as trends in each of these areas have 
continued. We are able to meet the most critical Combatant Commander 
demands today, but I am increasingly concerned about our ability to 
meet any additional demands while sustaining the health of the force, 
conducting essential maintenance and modernization to ensure units 
reach full service life, and procuring our future Navy so we are 
prepared to meet the challenges of tomorrow.
    The costs to own and operate our Fleet continue to rise due to 
increasing operational demands, higher maintenance requirements, and 
growing manpower costs. Over the last decade, the overall size of our 
active Fleet decreased by more than 30 ships, about 10 percent, and our 
active duty end strength decreased by about 13 percent, while 
operational demands globally have grown. Our Navy's high tempo of 
operations has placed additional stress on our smaller Fleet of 
Sailors, ships, and aircraft and we are consuming the service life of 
our Fleet at a higher than expected rate. We are implementing force 
management measures in the near term to stretch the capacity of our 
286-ship force to meet increasing global requirements. Through our 
Fleet Response Plan, we are tailoring our training and maintenance 
cycles to generate ready forces, allowing us to meet the most critical 
Combatant Commander requirements today. The impact of these measures on 
our Fleet has been felt in longer deployments and shorter dwell times, 
which increase stress on our Sailors and drive up maintenance 
requirements and costs for our ships and aircraft. Regular maintenance 
of our ships and aircraft, and training and certification of our crews 
between deployments, is essential to our ability to sustain our force. 
It is how we reset. This ``reset in stride'' is different from other 
Services. It ensures our ships and aircraft maintain the required 
continuous forward presence whether supporting coalition troops in 
Afghanistan, deterring North Korea and Iran, or providing humanitarian 
aid in Haiti. For our Navy, continuous reset translates into decades of 
service for each ship and aircraft, a significant return on investment.
    Our reset and readiness are tied directly to our operations and 
maintenance (O&M) funding. Over the last decade, we have relied upon a 
combination of base budget and overseas contingency operations (OCO) 
funding to operate and maintain our Navy. Our fiscal year 2011 OCO 
request for O&M is tightly focused on supporting our ongoing and 
increased operations in CENTCOM. Our fiscal year 2011 base budget 
request for O&M is focused on properly sustaining our ships and 
aircraft so they reach their expected service life; funding enduring 
readiness requirements, particularly in aviation; and funding price 
increases, most notably in fuel, to support our enduring operations. 
Together, our OCO and base budget O&M requests reflect our commitment 
to resource current operations while preserving our Fleet for future 
operations. I ask for your full support of this year's O&M request.
    Our fiscal year 2011 budget request achieves the optimal balance 
among my priorities to build tomorrow's Navy, to remain ready to fight 
today, and to develop and support our Sailors, Navy civilians, and 
their families. It supports our Maritime Strategy and the 2010 QDR and 
continues us on the path we started in fiscal year 2010 to support our 
forces forward, take care of our people, continue rebalancing our force 
to meet current and future challenges, and reform how and what we buy. 
Highlights follow.

                         BUILD TOMORROW'S NAVY

    Since the release of our Maritime Strategy, I have stated that our 
Navy requires a minimum of 313 ships to meet operational requirements 
globally. This minimum, a product of our 2005 force structure analysis, 
remains valid. We are adjusting our requirement to address increased 
operational demands and expanding requirements, as outlined in the QDR, 
for ballistic missile defense, intra-theater lift, and forces capable 
of confronting irregular challenges. Our shipbuilding plan addresses 
these operational needs by growing our Fleet to 315 ships in 2020 and 
peaking at 320 ships in 2024. Per the President's direction, we will 
improve our capacity to conduct sea-based ballistic missile defense of 
Europe by increasing our inventory of Aegis-capable ships through our 
restarted DDG 51 production line and modernization of our existing 
cruisers and destroyers. The funding for these upgrades will deliver 
the capability and capacity of ships required to perform this mission 
while maintaining sustainable deployment ratios for our Sailors. To 
fulfill Combatant Commander requirements for intra-theater lift, we 
will increase the number of Joint High Speed Vessels (JHSV) in our 
Fleet; the large payload bays, speed, and shallow draft of these 
versatile ships make them capable of supporting a wide range of naval 
missions, including security cooperation, security force assistance, 
and logistics support. To provide forces capable of confronting 
irregular challenges, we will continue to pursue the planned number of 
Littoral Combat Ships, providing a flexible and modular ship optimized 
for operations close to shore. We are moving from developing a Maritime 
Prepositioning Force (Future) squadron optimized for high-end, forcible 
entry operations to augmenting our three existing Maritime 
Prepositioning Squadrons (MPS) with enhanced sea basing capabilities 
that are useful across a wide range of military operations. The 
augmented MPS will support our amphibious warfare force, which we will 
build to a minimum of 33 ships to increase our capacity to conduct 
theater security cooperation, sustain combat and assistance operations 
from the sea, and hedge against future conflict.
    We have improved the balance among capability, capacity, 
affordability, and executabilty in our procurement plans by developing 
a shipbuilding plan that procures our most needed capabilities, 
increases Fleet capacity in the near-to-mid-term, and is fiscally 
executable within the FYDP. It carefully manages increasing levels of 
operational and institutional risk, recognizing that, for as much as 
our Navy does to protect our national security and prosperity, the 
overall economy of our nation undoubtedly does more. I am confident our 
near-term plan provides the capability and capacity we need to conduct 
contingency operations and build partner capacity while retaining our 
ability to deter aggressors, assure allies, and defeat adversaries. 
Beyond 2024, I am concerned about the decrease in Fleet capacity that 
will occur as our legacy cruisers, destroyers, submarines, and 
amphibious ships reach the end of their service lives. Many of these 
ships were brought into service during the 1980s, when we procured some 
ship classes at a rate of four to five ships per year. While economic 
and security conditions are sure to change between now and then, it 
takes 10 to 15 years to design and build our ships, which then remain 
in service for 20 to 50 years. A long view is necessary to ensure our 
Navy has sufficient capacity to protect America's global national 
interests in the future.
    As directed by the QDR, we are working with the Air Force and 
Marine Corps on an Air Sea Battle concept that will identify the 
doctrine, procedures, training, organization, and equipment needed for 
our Navy to counter growing military threats to our freedom of action. 
This joint effort will help us inform investments and identify future 
opportunities to better integrate naval and air forces across the 
entire range of operations. We are already moving forward with the Air 
Force to streamline capabilities, manpower, and resources related to 
our unmanned aviation systems. We continue to pursue our unique 
maritime aviation capabilities in carrier-based strike, anti-submarine 
warfare, and naval special warfare missions.
    Underpinning the capacity and capability of our Fleet is a highly 
technical and specialized industrial base. A strategic national asset, 
our shipbuilding and aviation industrial base is essential to 
sustaining our global Fleet and remains a significant contributor to 
our nation's economic prosperity. Our shipbuilding industrial base 
directly supports more than 97,000 uniquely-skilled American jobs and 
indirectly supports thousands more through second and third tier 
suppliers. The highly specialized skills in our shipbuilding base take 
years to develop and, if lost, cannot be easily or quickly replaced. 
Level loading and predictable ship procurement allow industry to 
stabilize its workforce and retain the critical skills essential to our 
national security.
    I am committed to reducing the total ownership cost of our Fleet so 
that what we buy today does not pressurize our ability to operate 
tomorrow. Significant cost drivers for our Fleet include increasing 
technical and design complexity, changes in requirements, reductions in 
the number of ships procured, and higher labor costs. To reduce these 
costs, we are pursuing common hull forms and components, open 
architecture for hardware and software, and increased modularity. 
Moreover, we are considering total ownership costs in procurement 
decisions. We are exploring new ways to design our ships with greater 
affordability throughout their lives, including reducing costs of fuel 
consumption, maintenance, and manpower and by increasing the efficiency 
of our maintenance and support processes and organizations. We are 
leveraging open production lines to deliver proven and required 
capabilities, such as in our DDG 51 and EA-18G programs. We are 
promoting longer production runs with our Virginia class SSNs, EA-18G 
and F/A-18E/F, P-8A, BAMS, and DDG 51 programs. We are capitalizing on 
repeat builds to control requirements creep and increase predictability 
with our aircraft carrier, destroyer, and submarine programs. Finally, 
we are pursuing evolutionary instead of revolutionary designs to 
deliver required future capabilities. Our future missile defense 
capable ship, for example, will be developed by spiraling capability 
into our DDG 51 class ships, instead of designing and building a new 
cruiser from the keel up.
    I remain committed to delivering a balanced and capable Fleet that 
will meet our national security requirements. I seek your support for 
the following initiatives and programs:

                           AVIATION PROGRAMS

Aircraft Carrier Force Structure
    The Navy remains firmly committed to maintaining a force of 11 
carriers for the next three decades. With the commissioning of U.S.S. 
George H.W. Bush (CVN 77) and inactivation of the 48-year-old U.S.S. 
Kitty Hawk (CV 63), our last conventionally powered aircraft carrier, 
we now have an all nuclear-powered carrier force. Our carriers enable 
our nation to respond rapidly, decisively, and globally to project 
power, as we have done in Iraq and Afghanistan, or to deliver 
humanitarian assistance, as we have done in Haiti, while operating from 
a small, yet persistent, footprint that does not impose unnecessary 
political or logistic burdens on other nations. Our carriers remain a 
great investment for our nation.
    Our eleven-carrier force structure is based on worldwide presence 
and surge requirements, while also taking into account training and 
maintenance needs. I thank Congress for granting us a waiver to 
temporarily reduce our force to ten carriers for the period between the 
inactivation of U.S.S. Enterprise (CVN 65) and the delivery of Gerald 
R. Ford (CVN 78). We will continue to meet operational commitments 
during this 33-month period by managing carefully carrier deployment 
and maintenance cycles. After the delivery of CVN 78, we will maintain 
an eleven-carrier force through the continued refueling program for 
Nimitz class ships and the delivery of our Ford class carriers at 5-
year intervals starting in 2020.
    CVN 78 is the lead ship of our first new class of aircraft carriers 
in nearly 40 years. Ford class carriers will be our nation's premier 
forward-deployed asset capable of responding to crises or delivering 
early decisive striking power in a major combat operation. These new 
carriers incorporate an innovative new flight deck design that provides 
greater operational flexibility, reduced manning requirements, and the 
ability to operate current and future naval aircraft from its deck. 
Among the new technologies being integrated in these ships is the 
Electromagnetic Aircraft Launch System (EMALS), which will enable the 
carrier's increased sortie generation rate and lower total ownership 
costs. EMALS is on track for an aircraft demonstration later this year 
and is on schedule to support delivery of CVN 78 in September 2015.
Strike Fighter Capacity: Joint Strike Fighter and F/A-18 E/F
    Our Navy remains committed to the Joint Strike Fighter (JSF) 
program. The timely delivery of the F-35C carrier variant remains 
critical to our future carrier airwing strike fighter capacity. Our 
Navy has the necessary tactical aircraft capacity in the near term to 
support our nation's strategic demands; however, a January 2010 
assessment forecasts a decrease in our carrier-based strike fighter 
capacity that peaks in 2018. We have a plan to address this capacity 
decrease that involves several management and investment measures.
    Our force management measures are targeted at preserving the 
service life of our existing legacy strike fighter aircraft (F/A-18A-
D). We will reduce the number of aircraft available in our squadrons 
during non-deployed phases to the minimum required. We will reduce our 
Unit Deployed squadrons (UDP) from twelve aircraft to ten aircraft per 
squadron to match the corresponding decrease in Marine Corps 
expeditionary squadrons. We are accelerating the transition of five 
legacy F/A-18C squadrons to F/A-18 E/F Super Hornets using available F/
A-18E/F aircraft and will transition two additional legacy squadrons 
using Super Hornet attrition reserve aircraft. These measures make our 
legacy strike fighter aircraft available for High Flight Hour (HFH) 
inspections and our Service Life Extension Program, which together will 
extend their service life and manage to some extent the decrease in our 
carrier-based strike fighter capacity through 2018. These measures 
expend the service life of our Super Hornets earlier than programmed, 
so we are refining our depot level production processes to maximize 
throughput and return legacy strike fighter aircraft to the Fleet 
expeditiously. Our fiscal year 2011 budget procures 22 additional F/A-
18E/F aircraft.
    Our investment measures are targeted at extending the service life 
of our F/A-18A-D aircraft and procuring Joint Strike Fighter (JSF). HFH 
inspections, which have been in place for 2 years, provide the ability 
to extend the service life of our legacy F/A-18A-D aircraft to 8,600 
flight hours, while engineering analysis is underway to determine the 
SLEP requirements necessary to reach the service life extension goal of 
10,000 flight hours. The HFH and SLEP programs increase our 
institutional risk by diverting investment and maintenance funds from 
other accounts, but they are necessary measures to address our strike 
fighter decrease while preserving our investment in JSF.
    I remain committed to the JSF program because of the advanced 
sensor, precision strike, firepower, and stealth capabilities JSF will 
bring to our Fleet. While the overall system demonstration and 
development schedule for JSF has slipped, we still plan for our 
squadrons to receive their first JSF airplanes in 2014 and we have not 
reduced the total number of airplanes we plan to buy. We are monitoring 
the JSF program closely and managing our existing strike fighter 
capacity to meet power projection demands until JSF is delivered. 
Procurement of an alternate engine for JSF increases our risk in this 
program. The Navy does not have a requirement for an alternate engine, 
and its additional costs threaten our ability to fund currently planned 
aircraft procurement quantities, which would exacerbate our anticipated 
decrease in strike fighter capacity. Our fiscal year 2011 budget 
request procures seven F-35C aircraft.
EA-18G Growler
    The proliferation of technology has allowed state and non-state 
actors to use the electromagnetic spectrum with increasing 
sophistication. Airborne Electronic Attack (AEA) provides one of the 
most flexible offensive capabilities available to the joint warfighter 
and it remains in high demand in traditional, irregular, and hybrid 
conflicts. The Navy continues to provide extensive AEA support from our 
carriers afloat and from our expeditionary EA-6B Prowler squadrons 
deployed currently to Iraq and Afghanistan.
    We are leveraging the mature and proven F/A-18E/F airframe 
production line to recapitalize our aging EA-6B aircraft with the EA-
18G Growler. As directed in the QDR, we are planning to procure an 
additional 26 EA-18G Growler aircraft across the FYDP to increase joint 
force capacity to conduct expeditionary electronic attack. Our program 
of record will buy 114 total EA-18G aircraft, recapitalizing 10 Fleet 
EA-6B squadrons and four expeditionary squadrons. The program continues 
to deliver as scheduled. In September, our first EA-18G transition 
squadron, based at NAS Whidbey Island, reached Initial Operational 
Capability and it will deploy as an expeditionary squadron later this 
year. Our fiscal year 2011 budget requests funding for 12 EA-18Gs.
P-3 Orion and P-8A Poseidon Multi-Mission Maritime Aircraft
    Your continued support of the P-3 and P-8A force remains essential 
and is appreciated greatly. Our P-3 Orion roadmap focuses on 
sustainment and selected modernization until it is replaced by the P-8A 
Poseidon. These aircraft provide capabilities ideally suited for 
regional and littoral crises and conflict, and are our pre-eminent 
airborne capability against submarine threats. Our P-3s are in high 
demand today for the time-critical intelligence, surveillance and 
reconnaissance they provide to the joint force on the ground in CENTCOM 
and for their direct contributions to our maritime domain awareness in 
key regions across the globe.
    P-3 Zone 5 wing fatigue has resulted in the unplanned grounding of 
49 aircraft between 2007 and 2009, with more expected. Mitigation 
measures include a combination of targeted Zone 5 modifications and 
outer wing replacements. As of December, we have returned 12 aircraft 
to service after completing Zone 5 modification and 32 aircraft are 
currently being repaired. As part of our sustainment program, we have 
included $39.6 million in our fiscal year 2011 budget request to 
conduct outer wing installations on nine of our P-3 aircraft. P-3 
sustainment and modernization programs are critical to ensuring 
successful transition to the P-8A, while preserving essential maritime 
and overland battle space awareness.
    The P-8A completed it's first Navy test flight this past October 
and will resume integrated flight testing in March of this year. The P-
8A will achieve initial operating capability and begin replacing our 
aging P-3 aircraft in 2013. Our fiscal year 2011 budget request 
procures seven P-8A aircraft.
MH-60R/S Multi-Mission Helicopter
    The MH-60R and MH-60S successfully completed their first deployment 
together this past summer with the U.S.S. John C. Stennis carrier 
strike group. The MH-60R multi-mission helicopter replaces the surface 
combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. With these systems, 
the MH-60R provides focused surface warfare and anti-submarine warfare 
capabilities for our strike groups and individual ships. Our fiscal 
year 2011 budget request procures 24 MH-60R helicopters. The MH-60S 
supports surface warfare, combat logistics, vertical replenishment, 
search and rescue, air ambulance, airborne mine counter-measures, and 
naval special warfare mission areas. Our fiscal year 2011 budget 
request procures 18 MH-60S helicopters.

                         SURFACE SHIP PROGRAMS

Littoral Combat Ship (LCS)
    LCS is a fast, agile, networked surface combatant that is optimized 
to support naval and joint force operations in the littorals and 
capable of supporting open-ocean operations. It will operate with 
tailored-mission packages to counter quiet diesel submarines, mines, 
and fast surface craft. The modular and open architecture design of the 
seaframe and mission modules provides the inherent flexibility to adapt 
or add capabilities beyond the current Anti-Submarine, Mine 
Countermeasures, and Surface Warfare missions. These ships will employ 
a combination of manned helicopters and unmanned aerial, surface, and 
undersea vehicles.
    U.S.S. Freedom (LCS 1) has completed her post-delivery testing, 
trial, and shakedown periods and commenced her maiden deployment in 
February to Southern Command and Pacific Command. Her deployment 2 
years ahead of schedule will allow us to incorporate operational 
lessons more quickly and effectively as we integrate these ships into 
our Fleet. U.S.S. Independence (LCS 2) completed builder's trials in 
October 2009 and acceptance trials in November 2009. We accepted 
delivery of Independence on December 18, 2009, and commissioned her 
January 16, 2010. In March 2009, fixed price contracts were awarded for 
U.S.S. Fort Worth (LCS 3) and U.S.S. Coronado (LCS 4) which are now 
under construction by Lockheed Martin and General Dynamics 
respectively.
    I am impressed and satisfied with the capabilities of both LCS 
designs and am committed to procuring 55 of these ships. Affordability 
remains the key factor in acquiring LCS in the quantities we require. 
After careful review of the fiscal year 2010 industry proposals, 
consideration of total program costs, and ongoing discussions with 
Congress, we made the decision to cancel for affordability reasons the 
Phase II requests for proposals for three fiscal year 2010 LCS ships 
and adjust our acquisition strategy. In fiscal year 2010, we will 
conduct a competition among the existing LCS industry participants to 
down-select to a single LCS design. The winner of the down-select will 
be awarded a block buy contract for up to 10 ships, to be procured from 
fiscal year 2010 through fiscal year 2014 at a rate of two ships per 
year, built in one shipyard. To sustain competition and increase 
capacity, the winner of the down-select will be required to deliver a 
Technical Data Package to the Navy to support competition for a second 
contract source. We plan to award up to five ships to a second source 
beginning in fiscal year 2012 with one ship and continuing with an 
additional two ships per year through fiscal year 2014. The winner of 
the down-select will provide combat systems equipment, up to 15 ship 
sets, for the ships built by the two contract sources: 10 sets for the 
10 ships under contract with the winner of the down-select and up to 
five additional sets for the five ships being procured by the second 
contract source. The five additional sets will later be provided as 
government-furnished equipment to support the second source LCS 
contract. We intend to procure all future LCS ships within the fiscal 
year 2010 National Defense Authorization Act (NDAA) revised cost cap. 
Our down-select strategy leverages competition to the maximum extent 
practical, provides for economic procurement quantities, improves 
learning curve and commonality opportunities, and ultimately provides 
for program stability. We recently issued the requests for proposals 
for this contract and expect industry bids in March of this year.
    Consistent with our new strategy, our fiscal year 2011 budget 
requests two LCS seaframes and an additional $278 million to secure an 
LCS block buy, which is essential to lowering unit costs. I request 
your support as we acquire LCS in the most cost-effective manner and 
deliver its innovative capability in sufficient capacity to our Fleet.
Integrated Air and Missile Defense (IAMD)
    Integrated Air and Missile Defense (IAMD) incorporates all aspects 
of air defense against ballistic, anti-ship, and overland cruise 
missiles. IAMD is vital to the protection of our force, and it is an 
integral part of our core capability to deter aggression through 
conventional means. The demand for sea-based ballistic missile defense 
(BMD) is increasing significantly. The Navy's mature and successfully 
demonstrated maritime BMD capability will play a primary role in the 
first phase of our nation's plan to provide for the missile defense of 
Europe. Aegis BMD counters short, medium, and some intermediate range 
ballistic missiles through active defense and is able to pass target 
information to other BMD systems, thereby expanding the BMD battlespace 
and support of homeland defense. Currently, 20 ships (four cruisers and 
16 destroyers) have this capability and are being used to perform 
maritime BMD. All of the Arleigh Burke class destroyers and nine of the 
Ticonderoga class cruisers are planned to receive BMD capability 
through our modernization program.
DDG 51 Restart and Future Surface Combatant
    To address the rapid proliferation of ballistic and anti-ship 
missiles and deep-water submarine threats, as well as increase the 
capacity of our multipurpose surface ships, we restarted production of 
our DDG 51 Arleigh Burke class destroyers (Flight IIA series). These 
ships will be the first constructed with IAMD, providing much-needed 
Ballistic Missile Defense (BMD) capacity to the Fleet, and they will 
incorporate the hull, mechanical, and electrical alterations associated 
with our mature DDG modernization program. We will spiral DDG 51 
production to incorporate future integrated air and missile defense 
capabilities.
    We are well underway with restarting DDG 51 production. We awarded 
advance procurement (AP) contracts for DDG 113 and 114, and expect to 
award an AP contract for DDG 115 in the coming months, to support the 
long lead items necessary for production of these ships. I thank 
Congress for supporting our fiscal year 2010 budget, which funded 
construction of DDG 113. We anticipate a contract award for DDG 113 
production this Spring. Our fiscal year 2011 budget requests funding 
for the construction of DDG 114 and DDG 115 as part of our plan to 
build a total of eight DDG 51 ships through the FYDP.
    The Navy, in consultation with the Office of the Secretary of 
Defense, conducted a Radar/Hull Study for future surface combatants 
that analyzed the total ship system solution necessary to meet our IAMD 
requirements while balancing affordability and capacity in our surface 
Fleet. The study concluded that Navy should integrate the Air and 
Missile Defense Radar program S Band radar (AMDR-S), SPY-3 (X Band 
radar), and Aegis Advanced Capability Build (ACB) combat system into a 
DDG 51 hull. While our Radar/Hull Study indicated that both DDG 51 and 
DDG 1000 were able to support our preferred radar systems, leveraging 
the DDG 51 hull was the most affordable option. Accordingly, our fiscal 
year 2011 budget cancels the next generation cruiser program due to 
projected high cost and risk in technology and design of this ship. I 
request your support as we invest in spiraling the capabilities of our 
DDG 51 class from our Flight IIA Arleigh Burke ships to Flight III 
ships, which will be our future IAMD-capable surface combatant. We will 
procure the first Flight III ship in fiscal year 2016.
Modernization
    As threats evolve, we must modernize our existing ships with 
updated capabilities that sustain our combat effectiveness and enable 
our ships to reach their expected service life, which in the case of 
our destroyers and cruisers, is more than three decades. Our destroyer 
and cruiser modernization program includes advances in standard 
missiles, integrated air and missile defense, open architecture, and 
essential hull, mechanical and electrical (HM&E) upgrades. Maintaining 
the stability of the cruiser and destroyer modernization program is 
critical to achieving relevant future Navy capability and capacity.
    Our Navy plans to conduct DDG modernization in two 6-month 
availabilities. The first availability is focused on HM&E 
modifications, while the second availability, conducted 2 years later, 
is focused on combat systems modernization. The program will commence 
in fiscal year 2010 and focuses on the Flight I and II DDG 51 ships 
(hulls 51-78). All ships of the class will be modernized at midlife. 
Key tenets of the DDG modernization program include: an upgrade of the 
Aegis Weapons System to include an Open Architecture (OA) computing 
environment, an upgrade of the SPY radar signal processor, the addition 
of Ballistic Missile Defense capability, installation of the Evolved 
Sea Sparrow Missile (ESSM), an upgraded SQQ-89A(V)15 anti-submarine 
warfare system, integration with the SM-6 Missile, and improved air 
dominance with processing upgrades and Naval Integrated Fire Control-
Counter Air capability.
    The Cruiser Modernization Program will modernize all remaining 
cruisers (Baseline 2, 3, and 4). The first fully modernized cruiser, 
U.S.S. Bunker Hill (CG 52), was completed in June 2009. The key aspects 
of the CG modernization program include: an upgrade to the Aegis 
weapons system to include an OA computing environment, installation of 
an SPQ-9B radar, addition of the Evolved Sea Sparrow Missile (ESSM), an 
upgrade to Close In Weapon System (CIWS) Block 1B, an upgraded SQQ-
89A(V)15 anti-submarine warfare system, and improved air dominance with 
processing upgrades and Naval Integrated Fire Control-Counter Air 
capability. Six Baseline 4 cruisers will receive the Ballistic Missile 
Defense upgrade.
    Our fiscal year 2011 budget requests funding for the modernization 
of three cruisers and three destroyers.
DDG 1000
    The DDG 1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant designed to fulfill long-range 
precision land attack requirements. In addition to providing offensive, 
distributed and precision fires in support of forces ashore, these 
ships will serve as test-beds for advanced technology, such as 
integrated power systems, dual band radars, and advanced survivability 
features, which can be incorporated into our other ship classes. The 
first DDG 1000 is under construction and approximately 20 percent 
complete. We recently notified Congress of a Nunn-McCurdy breach in 
this program as a result of our decision to reduce the number of DDG 
1000s in the original program. DDG 1000 will be a three-ship class. It 
is scheduled to deliver in fiscal year 2013 with an initial operating 
capability in fiscal year 2015.
Joint High Speed Vessel (JHSV)
    Intra-theater lift is key to enabling the United States to rapidly 
project, maneuver, and sustain military forces in distant, overseas 
operations. The Joint High Speed Vessel (JHSV) program is an Army and 
Navy joint program that will deliver a high-speed, shallow draft 
surface ship capable of rapid transport of medium payloads of cargo and 
personnel within a theater to austere ports without reliance on port 
infrastructure for load/offload. In addition, the Navy JHSV will be 
capable of supporting extensive Security Force Assistance and Theater 
Security Cooperation operations, including the hosting of small craft 
for training. A JHSV Production Readiness Review was completed in 
October 2009 and the first vessel construction began this past December 
with an anticipated delivery to the Army in fiscal year 2012. The 
second ship, a Navy vessel, is scheduled to be delivered in 2013. Our 
fiscal year 2011 budget includes funds for the construction of Navy's 
third JHSV. Navy continues oversight of JHSV procurement for the five 
Army-funded vessels in this program. The Army assumes full 
responsibility for these five vessels following acquisition.

                           SUBMARINE PROGRAMS

Virginia Class SSN
    The Virginia class submarine is a multi-mission submarine that 
dominates in the littorals and open oceans. Now in its 13th year of 
construction, the Virginia program is demonstrating that this critical 
undersea capability can be delivered affordably and on time. Thanks to 
Congress, these ships will begin construction at a rate of two a year 
in 2011, with two ship deliveries per year beginning in 2017. The Navy 
continues to realize a return from investments in the Virginia cost 
reduction program and construction process improvements through 
enhanced shipbuilder performance on each successive ship. These 
submarines are under budget and ahead of schedule, and their 
performance continues to exceed expectations with every ship delivered. 
Three of the five commissioned ships completed initial deployments 
prior to their Post Shakedown Availabilities, a first for the Navy. I 
am pleased with the accomplishments of the combined Navy-Industry team 
and look forward to even greater success as we ramp up production to 
two submarines next year.
SSGN
    Our Navy has four guided missile submarines that provide high-
volume strike and irregular warfare capabilities in support of 
operations and missions across the broad spectrum of conflict. SSGNs 
are performing well on deployment, and we are learning valuable lessons 
from each mission. Combatant Commanders value the long-range strike 
capability they provide and we are investigating options to sustain 
this capability in the most operationally and cost effective manner, to 
include options for expanding the long-range strike capacity of the 
submarine fleet.
SSBN and OHIO Replacement
    Our Navy supports the nation's nuclear deterrence capability with a 
credible and survivable fleet of 14 Ohio class ballistic missile 
submarines (SSBN). Originally designed for a 30-year service life, this 
class will start retiring in 2027 after more than 42 years of service.
    The United States needs a reliable and survivable sea-based 
strategic deterrent for the foreseeable future. To ensure there is no 
gap in this critical capability, our fiscal year 2011 budget requests 
research and development funds for the Ohio Replacement to support the 
start of construction of the first ship in fiscal year 2019. The Ohio 
Replacement will be a strategic, national asset with the endurance and 
stealth to enable our Navy to provide continuous, survivable strategic 
deterrence into the 2080s. Appropriate R&D investment is essential to 
design a reliable, survivable, and adaptable submarine capable of 
deterring all potential adversaries. We completed our Analysis of 
Alternatives study in 2009, and Milestone A is planned for April 2010. 
The Ohio replacement program will leverage the many successes of the 
Virginia SSN program to achieve acquisition and total ownership cost 
goals. The United States will realize significant program benefits as a 
result of our close partnership with the United Kingdom's Vanguard SSBN 
replacement program, particularly in the design and construction of a 
common missile compartment. Our cooperation with the U.K. mitigates 
technical risk and shares design costs.

                        AMPHIBIOUS WARFARE SHIPS

    Our amphibious warfare ships provide essential capabilities for the 
full range of military operations, including theater security 
cooperation, humanitarian assistance, conventional deterrence, and 
forcible entry as part of major combat operations. With the unique 
capability to move hundreds of personnel and substantial material 
through complementary surface and air capabilities, these ships are key 
to our ability to overcome geographic, political, and infrastructure 
impediments to access. The Commandant of the Marine Corps and I have 
determined that a minimum of 33 amphibious assault ships represents the 
limit of acceptable risk in meeting the 38-ship requirement for 
supporting a forcible entry operation conducted by an assault echelon 
of two Marine Expeditionary Brigades (MEB). Our 33-ship force would be 
comprised of 11 LHA/D amphibious assault ships and a mix of 11 LPD 17 
amphibious transport dock ships and 11 LSD dock landing ships. At this 
capacity, we are accepting risk in the speed of arrival of the combat 
support elements of the MEB. The QDR and our 30-Year Shipbuilding Plan 
account for 29-31 amphibious warfare ships within the FYDP. We plan to 
procure the 11th LPD 17 in 2012, which will allow us to realize a 33-
ship minimum amphibious force in about fiscal year 2016. We continue to 
review options to achieve and sustain the minimum 33 amphibious ship 
assault echelon force.
LPD 17 Class Amphibious Warfare Ship
    The LPD 17 class amphibious warfare ships represent the Navy and 
Marine Corps commitment to an expeditionary Fleet capable of power 
projection, security force assistance, and theater security cooperation 
in diverse operating environments. These ships have a 40-year expected 
service life and will replace four classes of older ships: the LKA, 
LST, LSD 36, and the LPD 4. Two LPD 17 class ships have completed their 
initial deployments, and U.S.S. New York (LPD 21), forged with steel 
from the World Trade Center, delivered in November 2009. We continue to 
apply the lessons learned during construction and initial operation of 
the early ships to those under construction. Quality is improving with 
each ship delivered as we continue to work closely with the shipbuilder 
to address cost, schedule, and performance concerns.
LHA Replacement (LHA(R))
    LHA(R) is the replacement for our aging Tarawa class ships, which 
will reach the end of their already extended service life between 2011-
2015. LHA(R) will provide us flexible, multi-mission amphibious 
capabilities by leveraging the LHD 8 design and increasing aviation 
capacity to better accommodate the Joint Strike Fighter, MV-22, and 
other aircraft that comprise the future Marine Corps Air Combat 
Element. We laid the keel of the lead ship, U.S.S. America (LHA 6), in 
April 2009 and our fiscal year 2011 budget includes one LHA(R) which is 
split-funded in fiscal year 2011 and fiscal year 2012.
Mobile Landing Platform (MLP) and Future Maritime Preposition Force 
        (MPF(F))
    The MPF(F) program was envisioned as a forward-deployed squadron of 
ships capable of at-sea assembly and rapid employment of forces in an 
area of interest during a crisis. Our requirement for amphibious and 
joint forcible entry operations was reevaluated during the QDR and, as 
a result, we have adjusted our approach to augment our three existing 
Maritime Prepositioning Squadrons (MPS) instead of developing an MPF(F) 
squadron. MPF(F) was optimized for high-end, forcible entry operations, 
while the augmented MPS will provide enhanced sea basing capabilities 
across a wide range of contingency operations. Each existing MPS will 
be augmented by one Large Medium-Speed Roll-on/Roll-off (LMSR) cargo 
ship (transferred from the Army), a T-AKE combat logistics ship, and a 
new Mobile Landing Platform (MLP). The MLP will be based on existing 
designs for commercial ocean-going tankers and will meet most of the 
mission requirements envisioned for the original MLP design. The three 
augmented MPS reflect the QDR's emphasis on day-to-day deterrence and 
partner capacity building, while continuing to meet forcible entry 
needs. Our fiscal year 2011 budget request procures one MLP.

                     INFORMATION DOMINANCE PROGRAMS

Unmanned Aircraft Systems (UAS)
    We are investing in unmanned aircraft to meet an increasing 
warfighter demand for Intelligence, Surveillance and Reconnaissance 
(ISR), and we are making technology investments to expand UAS 
operations to other mission areas. The Broad Area Maritime Surveillance 
(BAMS) UAS will enhance our situational awareness and shorten the 
sensor-to-shooter kill chain by providing persistent, multiple-sensor 
capabilities to Fleet and Joint Commanders. The Vertical Take-off and 
Landing Tactical Unmanned Air Vehicle (VTUAV) Fire Scout is on its 
first deployment aboard the U.S.S. McInerney (FFG 8). We are developing 
a medium endurance maritime-based UAS and a Small Tactical Unmanned 
Aerial System (STUAS) that will support a variety of ships, Naval 
Special Warfare and Navy Expeditionary Combat Command units, and Marine 
Corps elements.
    The Navy Unmanned Combat Aircraft System demonstration (UCAS-D) is 
designed to prove carrier suitability of an autonomous, unmanned, low 
observable, carrier-based aircraft. This effort includes maturing 
technologies for aircraft carrier catapult launches and arrested 
landings, as well integration into carrier-controlled airspace. Initial 
flight tests to demonstrate carrier suitability are scheduled to start 
later this year and autonomous aerial refueling demonstrations are 
planned for 2013. We will leverage the lessons learned from operating 
the demonstrator in developing a low-observable unmanned carrier-
launched airborne strike and surveillance system.
Mobile User Objective System (MUOS)
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability that can support the command and 
control requirements of highly mobile and distributed U.S. and 
coalition forces. Satellite communications give deployed forces a 
decisive military advantage and often offer the only communication 
means to support on-going operations. Rapidly expanding joint demand 
for more access at ever-higher data rates requires moving beyond our 
current legacy Ultra High Frequency (UHF) satellite capabilities. The 
Mobile User Objective System (MUOS) will satisfy those demands when 
initial operational capability is reached in fiscal year 2012. I 
request your continued support of MUOS and the critical UHF satellite 
communication capability it will provide to the joint warfighter as the 
aging UHF Follow-On (UFO) constellation degrades.
Next Generation Enterprise Network (NGEN)
    The Navy is continuing its transition from disparate independent 
computer networks to a single secure network environment. We are 
currently evolving our ashore network from the Navy Marine Corps 
Intranet (NMCI), the largest intranet in the world, to the Next 
Generation Enterprise Network (NGEN). NGEN Increment 1 is the follow-on 
to the existing NMCI contract, which expires at the end of fiscal year 
2010. NGEN will sustain the services currently provided by NMCI, while 
increasing government command and control of our network and enabling 
secure, reliable, and adaptable global information exchange. Future 
NGEN increments will expand on services currently provided by NMCI and 
support seamless transition between afloat and ashore environments. A 
continuity of services contract is expected to be awarded this spring 
and NGEN Initial Operating Capability is scheduled for the summer of 
2012.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft, which replaces the E-2C, will 
improve nearly every facet of tactical air operations and add overland 
and littoral surveillance to support theater Integrated Air and Missile 
Defense against air threats in high clutter, complex electro-magnetic 
and jamming environments. The airborne radar on the E-2D, with its 
improved surveillance capability, is a key pillar of the Navy 
Integrated Fire Control concept. The E-2D is scheduled to begin 
operational test and evaluation in 2012. The first Fleet squadron 
transition is planned for 2013, with deployment planned for October 
2014. Our fiscal year 2011 budget requests four E-2D Hawkeye aircraft.

                      REMAIN READY TO FIGHT TODAY

    Our Navy continues to operate at a high tempo. We are filling new 
Combatant Commander requirements for ballistic missile defense, 
electronic attack, intelligence, surveillance, and reconnaissance 
(ISR), combat support, combat service support, and maritime security 
force assistance, in addition to conducting ongoing deployments in 
support of our maritime and national strategies.
    In CENTCOM alone, we have more than 9,000 Sailors at sea, including 
a U.S. Navy aircraft carrier and air wing dedicated to providing 24/7 
air support to U.S. and coalition forces on the ground. Navy Riverine 
forces are on their sixth deployment to Iraq, conducting interdiction 
patrols and training their Iraqi counterparts. Our surface ships in the 
region are providing ballistic missile defense and conducting counter-
terrorism, counter-piracy, maritime security, theater security 
cooperation, and security force assistance operations. On the ground in 
CENTCOM, we have more than 12,000 active and reserve Sailors supporting 
Navy, joint force, and coalition operations. Navy Commanders lead seven 
of the 13 U.S.-led Provincial Reconstruction Teams in Afghanistan. We 
have doubled our construction battalions (SEABEEs) in Afghanistan, 
increasing our capacity to build forward bases for U.S. forces and 
improve critical infrastructure in that country. Our Naval Special 
Warfare Teams continue to be engaged heavily in direct combat 
operations and our Explosive Ordnance Disposal teams continue to 
conduct life-saving counter-Improvised Explosive Device operations on a 
daily basis. As we shift our effort from Iraq to Afghanistan, demand 
for Navy individual augmentees (IAs) has grown. We are providing IAs to 
support the increase of U.S. forces in Afghanistan while our IAs in 
Iraq remain at current levels to support the withdrawal of U.S. combat 
troops, maintain detention facilities and critical infrastructure, and 
assist coalition efforts until they can be turned over to Iraqi forces. 
During my recent trip to CENTCOM, I met with many of our dedicated Navy 
men and women supporting these efforts and I could not be more proud of 
their contributions. Their expert skill, ingenuity, competence, and 
drive are impressive and unmatched.
    Our high tempo will likely continue as combat forces draw down in 
Iraq and Afghanistan. Navy enabling forces will remain in CENTCOM to 
provide protection, ISR, and logistics support to our troops and 
partner forces in the region, while we will continue to maintain a 
forward-deployed presence of about 100 ships around the world to 
prevent conflict, increase interoperability with our allies, enhance 
the maritime security and capacity of our traditional and emerging 
partners, and respond to crises. Global demand for Navy forces remains 
high and continues to rise because of the unequalled and unique ability 
of our naval forces to overcome diplomatic, geographic, and military 
impediments to access while bringing the persistence, flexibility, and 
agility to conduct operations from the sea.
    Reset in stride is how our Navy prepares our Fleet to deploy again. 
Lifecycle maintenance and training between deployments is essential to 
our reset and to the ability of our ships and aircraft to reach their 
expected service lives. Although we are on pace to grow our Fleet for 
the next 10 years, our Fleet reduced in size over the past decade. As a 
result, while we continue to maintain the same number of ships at sea 
assigned to Combatant Commanders, we have a historically low number of 
ships available for at-sea training, exercises, and surge operations. 
Our fiscal year 2011 budget request balances the need to meet 
increasing operational requirements, sustain our Sailors' proficiency, 
and conduct the maintenance required to ensure our ships and aircraft 
reach their full service lives. Highlights follow of initiatives that 
ensure our Navy remains ready to fight today.
Depot Level Maintenance
    Our ships and aircraft are capital assets that operate in 
challenging physical and security environments. Keeping these assets in 
acceptable operating condition is vital to their ability to accomplish 
assigned missions and to reach their expected service lives. Timely 
depot level maintenance, performed in a cycle determined by an 
engineered assessment of expected material durability and scoped by 
actual physical condition, will preserve our existing force structure 
and ensure it can meet assigned tasking. Continued investment in depot 
level maintenance is essential to our efforts to achieve and sustain 
the force structure required to implement the Maritime Strategy.
    Last year, I established the Surface Ship Life Cycle Management 
(SSLCM) Activity to address deficiencies in our ship class maintenance 
plans that could prevent our ships from reaching their full service 
life. SSLCM has established an engineered approach to surface ship 
maintenance that optimizes existing maintenance availability work 
packages and better tracks ship material condition through robust 
inspections and corrosion control tasks. We accelerated our review of 
the requirements for certain ship classes, significantly improving the 
accuracy of our surface ship maintenance requirements in fiscal year 
2011 over prior years. We are committed to a full review of all surface 
ship class maintenance plans, which will take several years. The value 
of investing in an engineered approach to maintenance is evident in our 
submarine force, where we have successfully extended the time between 
scheduled availabilities based on demonstrated material conditions and 
verification of engineering analysis. Because we have invested in this 
engineering and planning effort, we have been able to safely recover 
additional operational availability and reduce the overall depot level 
maintenance requirement for our submarines. This significant step has 
provided some of the resources needed to make additional investments in 
surface ship maintenance.
    Our combined fiscal year 2011 budget funds 99 percent of the 
projected depot ship maintenance requirements necessary to sustain our 
Navy's global presence. Our budget funds aviation depot maintenance to 
provide 100 percent of the airframes for deployed squadrons and 96 
percent of the non-deployed airframes. I request that you fully support 
our baseline and contingency funding requests for operations and 
maintenance to ensure the effectiveness of our force, safety of our 
Sailors, and longevity of our ships and aircraft.
Shore Readiness
    Our shore infrastructure is a fundamental enabler of our 
operational and combat readiness and is essential to the quality of 
life and quality of work for our Sailors, Navy civilians, and their 
families. As I described last year, rising manpower costs and growing 
operational demands on our aging Fleet have led our Navy to take risk 
in shore readiness. This risk increases our maintenance, sustainment, 
restoration, and modernization requirements and continues our reliance 
on old and less efficient energy systems. These factors increase the 
cost of ownership of our shore infrastructure and outpace our efforts 
to reduce costs through facilities improvements and energy upgrades. At 
our current investment levels, our future shore readiness, particularly 
the recapitalization of our facilities infrastructure, is at risk.
    To manage our risk in shore infrastructure, our fiscal year 2011 
budget request prioritizes funding for our most critical needs, 
including Navy and Joint mission readiness, nuclear weapons security 
and safety, and improving our bachelor quarters through sustained 
funding for our Homeport Ashore initiative. To guide investment in 
other areas ashore, we continue to pursue our capabilities-based Shore 
Investment Strategy, which targets our investment in shore 
infrastructure to where it will produce the highest return on 
investment and have the greatest impact on achieving our strategic and 
operational objectives, such as in areas that enable critical 
warfighting capabilities, improve quality of life, and fulfill Joint 
requirements.
    We have made essential progress and improvements in nuclear weapons 
security, child care facilities, and bachelor's quarters. Thank you for 
funding all our requested military construction projects in 2010, as 
well as 19 additional projects and our Reserve program. Your support 
allowed us to address ship, aircraft, systems, infrastructure, and 
training requirements, while enhancing the quality of life and quality 
of service for our Sailors and their families. Your similar support and 
assistance through the American Recovery and Reinvestment Act of 2009 
was also very helpful. As you requested, we identified Military 
Construction projects for Child Development Centers and barracks and 
prioritized them according to operational need and the ability to 
obligate funds quickly. We selected infrastructure and energy projects 
based on mission requirements, quality of life impact, environmental 
planning status, and our ability to execute quickly. Our aggressive 
execution schedule is on track; we have awarded all but one of our 85 
initial projects and construction outlays are ramping up swiftly.
Training Readiness
    Our Fleet Synthetic Training (FST) program provides realistic 
operational training with seamless integration of geographically 
dispersed Navy, Joint, Interagency and Coalition forces. Using virtual 
and constructive training environments has allowed us to reduce our 
energy consumption and greenhouse gas emissions while providing the 
level of sophistication necessary to prepare our Sailors for 
operational and tactical mission proficiency. We continue to evolve FST 
to provide our Sailors with exposure to a multitude of warfare areas. 
Last year, we conducted our first BMD Fleet Synthetic Training event, 
proving the viability and effectiveness of integrated Navy, Joint and 
partner-nation BMD training.
    The proliferation of advanced, stealthy, nuclear and non-nuclear 
submarines continues to challenge our Navy's ability to guarantee the 
access and safety of joint forces. Effective Anti-Submarine Warfare 
(ASW) training with active sonar systems is vital to meeting potential 
threats. The Navy remains a world leader in marine mammal research and 
we will continue our robust investment in this research in fiscal year 
2011 and beyond. Through such efforts, and in full consultation and 
cooperation with other Federal agencies, Navy has developed effective 
measures that protect marine mammals and the ocean environment from 
adverse impacts of mid-frequency active (MFA) sonar while not impeding 
vital Navy training. We continue to work closely with our interagency 
partners to further refine our protective measures as scientific 
knowledge evolves. It is vitally important that any such measures 
ensure the continued flexibility necessary to respond to future, 
potentially unforeseen national security requirements.
    Over the last year, we completed environmental planning for seven 
existing and proposed at-sea training and combat certification areas. 
We expect to complete planning for another six areas by the end of 2010 
as we continue to balance our responsibility to prepare naval forces 
for deployment and combat operations with our responsibility to be good 
stewards of the marine environment.
    Conducting night and day field carrier landing practice (FCLP) 
prior to at-sea carrier qualifications is a critical training 
requirement for our fixed-wing carrier-based pilots, who must develop 
and maintain proficiency in the fundamentals necessary to conduct safe 
carrier-based flight operations. We continue to seek additional 
airfield capacity in the form of an outlying landing field (OLF) that 
will enhance our ability to support FCLP training for fixed-wing, 
carrier pilots operating from Naval Air Station Oceana and Naval 
Station Norfolk. The additional OLF will allow Navy to meet training 
requirements and overcome challenges related to capacity limits, urban 
encroachment, and impacts from adverse weather conditions at existing 
East Coast facilities. In August 2009, the Navy announced that the 
release of the draft environmental impact statement (EIS) for 
construction and operation of an OLF would be delayed. This delay was 
necessary to ensure Joint Strike Fighter noise analysis is included in 
the OLF draft EIS. The Navy is committed to developing, with local, 
state, and Federal leaders, a plan to ensure the OLF provides positive 
benefits to local communities while addressing Navy training 
shortfalls.
Energy and Climate
    Energy reform is a strategic imperative. The Secretary of the Navy 
and I are committed to changing the way we do business to realize an 
energy-secure future. In alignment with the Secretary of the Navy's 
five goals, our priorities are to advance energy security by improving 
combat capability, assuring mobility, ``lightening the load'', and 
greening our footprint. We will achieve these goals through energy 
efficiency improvements, consumption reduction initiatives, and 
adoption of alternative energy and fuels. Reducing our reliance on 
fossil fuels will improve our combat capability by increasing time on 
station, reducing time spent alongside replenishment ships, and 
producing more effective and powerful future weapons. Most of our 
projects remain in the demonstration phase; however, we are making good 
progress in the form of hybrid-electric drive, delivered last year on 
the U.S.S. Makin Island (LHD 8), bio-fuel engines, advanced hull and 
propeller coatings, solid state lighting, and policies that encourage 
Sailors to reduce their consumption through simple changes in behavior.
    Thanks to your support, the American Reinvestment and Recovery Act 
(ARRA) funded Navy energy conservation and renewable energy investment 
in 11 tactical and 42 shore-based projects totaling $455 million. 
Tactical projects included alternative fuel, drive, and power systems, 
while ashore projects included alternative energy (wind, solar and 
geothermal) investments in ten states and the installation of advance 
metering infrastructure in three regions. Our fiscal year 2011 budget 
continues to invest in tactical and ashore energy initiatives, 
requesting $128 million for these efforts.
    In our Maritime Strategy we addressed maritime operations in an era 
of climate change, especially in the ice diminished Arctic. In May 
2009, I established the Navy's Task Force on Climate Change (TFCC) to 
develop policy, investment, and force-structure recommendations 
regarding climate change in the Arctic and globally over the long-term. 
Our focus will be to ensure Navy readiness and capability in a changing 
global environment.
Second East Coast Carrier-capable Port
    Hampton Roads is the only nuclear carrier capable port on the East 
Coast. A catastrophic event in the Hampton Roads Area affecting port 
facilities, shipping channels, supporting maintenance or training 
infrastructure, or the surrounding community has the potential to 
severely limit East Coast Carrier operations, even if the ships 
themselves are not affected. Consistent with today's dispersal of West 
Coast aircraft carriers between California and Washington State, the 
QDR direction to make Naval Station Mayport a nuclear carrier-capable 
homeport addresses the Navy's requirement for a capable facility to 
maintain aircraft carriers in the event that a natural or manmade 
disaster makes the Hampton Roads area inaccessible. While there is an 
upfront cost to upgrade Naval Station Mayport to support our nuclear 
aircraft carriers, Mayport has been a carrier homeport since 1952 and 
is the most cost-effective means to achieve strategic dispersal on the 
East Coast. The national security benefits of this additional homeport 
far outweigh those costs.
United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our armed forces. It directly supports our national 
security interests. Not being a party to this Convention constrains 
efforts to develop enduring maritime partnerships, inhibits efforts to 
expand the Proliferation Security Initiative, and elevates the level of 
risk for our Sailors as they undertake operations to preserve 
navigation rights and freedoms, particularly in areas such as the 
Strait of Hormuz and Arabian Gulf, and the East and South China Seas. 
By becoming a party to the Convention, the United States will be able 
to expand its sovereign rights to the increasingly accessible outer 
continental shelf areas of the resource rich environment of the Arctic, 
as well as in other locations where technological advances are opening 
up previously unobtainable resources. Accession to the Law of the Sea 
Convention remains a priority for our Navy.
   develop and support our sailors, navy civilians and their families
    Our Sailors, Navy civilians, and their families underpin our 
Maritime Strategy and are the foundation of our nation's global force 
for good. We have great ships, aircraft, weapons, and systems, but it 
is our skilled and innovative Sailors who turn these ships, aircraft, 
and technologies into capabilities that can prevent conflict and win 
wars. In January 2010, we released the Navy Total Force Vision for the 
21st century to guide our efforts to attract, recruit, develop, assign, 
and retain a highly-skilled workforce and reaffirm our commitment to 
supporting our uniformed and civilian people wherever they serve and 
live.
    We have transitioned from reducing end strength to stabilizing our 
force through a series of performance-based measures. Our stabilization 
efforts remain focused on maintaining a balanced force in terms of 
seniority, experience, and skills while supporting growth in high-
demand areas such as cyber and special operations. We recognize the 
importance of retaining the talent and experience of our Sailors after 
they complete their active duty obligation so we are actively removing 
barriers associated with the transition between active and reserve 
careers to allow for a continuum of service over a lifetime. Our fiscal 
year 2011 budget requests authorization and funding for 328,700 active 
end strength and 65,500 reserve end strength. We continue to request 
OCO funding for our individual augmentees that are performing non-core 
Navy missions in support of contingency operations in Iraq and 
Afghanistan. OCO funding remains critical to our ability to meet these 
missions without adversely impacting Fleet readiness or Sailor dwell 
time.
    We continue to provide support to our Sailors and their families, 
including those who are wounded, ill and injured, through expanded 
Fleet and Family Support services, Navy Safe Harbor, and our 
Operational Stress Control program. We are addressing aggressively the 
recent rise in suicide rates by implementing new training and outreach 
programs for Fleet commanders, Sailors, and Navy families to increase 
suicide awareness and prevention. We are focused on reducing sexual 
assaults in our Navy through our new Sexual Assault Prevention and 
Response Office and initiatives that emphasize our intolerance for 
sexual assault and related behavior in our Navy. We remain committed to 
helping our Sailors balance work and family commitments through 
initiatives such as 12-month operational deferments for new mothers 
(the most comprehensive policy of all military services), 21 days of 
administrative leave for adoptive parents, 10 days of paternity leave, 
a Career Intermission pilot program, and flexible work options. I 
continue to emphasize diversity outreach and mentorship to ensure we 
attract, leverage, and retain the diverse talent of our nation. 
Diversity among U.S. Naval Academy and Navy Reserve Officer Training 
Corps (NROTC) applicants and graduates continues to grow each year. 
Through our Naval War College and Naval Postgraduate School, we are 
providing Joint Professional Military Education and world-class higher 
education and training to our Sailors. We continue to build our Foreign 
Area Officer program to strengthen existing and emerging international 
partnerships.
    Our fiscal year 2011 budget request represents a balanced approach 
to supporting our Sailors and their families, sustaining the high tempo 
of current operations, and preserving Fleet and family readiness. I 
request the continued support of Congress for our fiscal year 2011 
manpower and personnel initiatives.
Recruiting and Retention
    Our Navy has attracted, recruited and retained a highly-skilled 
workforce over the past several years, and we expect this success to 
continue into fiscal year 2011. Fiscal year 2009 marked the second 
consecutive year Navy achieved its aggregate officer and enlisted 
recruiting goals in both the active and reserve components. At the 
forefront of this effort is our highly trained and professional 
recruiting force, which has postured us to respond to changing trends. 
We continue to attract the highest quality enlisted recruits in our 
history. We are exceeding DOD and Navy standards for the percentage of 
non-prior service enlisted recruits who have earned a high school 
diploma and whose test scores are in the upper mental group category. 
We met the Navy standard of 95 percent of recruits with a high school 
diploma in fiscal year 2009 and are currently at 96 percent this fiscal 
year. We exceeded the Navy standard of 70 percent of recruits in the 
upper mental group category in fiscal year 2009 (77 percent tested into 
this group) and we are currently at 78 percent this fiscal year.
    Navy will remain competitive in the employment market through the 
disciplined use of monetary and non-monetary incentives. Using a 
targeted approach, we will continue our recruiting and retention 
initiatives to attract and retain our best Sailors, especially those 
within high-demand, critical skill areas that remain insulated from 
economic conditions. Judicious use of special and incentive pays 
remains essential to recruiting and retaining these professionals in 
the current economic environment, and will increase in importance as 
the economic recovery continues. Our goal remains to maintain a 
balanced force, in which seniority, experience, and skills are matched 
to requirements.
Diversity
    Our Navy draws its strength and innovation from the diversity of 
our nation. We continue to aggressively expand our diversity. We are 
committed to implementing policies and programs that foster a Navy 
Total Force composition that reflects America's diversity. We have 
increased diverse accessions through targeted recruiting in diverse 
markets, developed relationships with key influencers in the top 
diverse metropolitan markets, and are aligning all Navy assets and 
related organizations to maximize our connection with educators, 
business leaders and government officials to increase our influencer 
base. Recruiting and retaining a diverse workforce, reflective of the 
nation's demographics at all levels of the chain of command, is a 
strategic imperative, critical to mission accomplishment, and remains 
focus area for leaders throughout our Navy.
    We continue to expand our relationships with key influencers and 
science, technology, engineering, and mathematics (STEM)-based affinity 
groups to inform our nation's youth about the unique opportunities 
available in our Navy. To increase our accessibility to diverse 
markets, we established NROTC units at Arizona State University and 
Tuskegee University. Tuskegee University accepted students in the fall 
of 2009, and ASU will accept students in the fall of 2010. Our 
diversity outreach efforts have contributed to our 2013 U.S. Naval 
Academy and NROTC classes being the most diverse student bodies in our 
history. In the years ahead, we will continue to focus our efforts on 
retaining this talent by building and sustaining a continuum of 
mentorship approach that reaches out and engages Sailors throughout 
their career. This approaches includes social networking, strong 
relationships with affinity groups, and various programs offered by our 
Sailors' immediate commands and associated leadership in addition to 
their respective enterprises and communities.
Women on Submarines
    The Secretary of the Navy and I are in the process of changing the 
Navy policy that restricts women from serving aboard our submarines. 
This move will enable our Navy and, specifically, our submarine force 
to leverage the tremendous talent and potential of our female officers 
and enlisted personnel. Initial integration will include female 
officers assigned to ballistic missile (SSBN) and guided missile (SSGN) 
submarines, since officer accommodations on these submarines have more 
available space and appear to require less modification. The plan also 
integrates female supply corps officers onto SSBNs and SSGNs at the 
department head level. We are planning the first female submarine 
officer candidate accessions into the standard nuclear training and 
submarine training pipelines this year, making it possible to assign 
the first women to submarines as early as fiscal year 2012. Integration 
of enlisted females on SSBNs and SSGNs and integration of officer and 
enlisted female personnel on attack submarines (SSNs) will occur later, 
once the extent of necessary modifications is determined. This 
initiative has my personal attention and I will continue to keep you 
informed as we integrate these highly motivated and capable officers 
into our submarine force.
Sailor and Family Continuum of Care
    We remain committed to providing our Sailors and their families a 
comprehensive continuum of care that addresses all aspects of medical, 
physical, psychological, and family readiness. Our fiscal year 2011 
budget request expands this network of services and caregivers to 
ensure that all Sailors and their families receive the highest quality 
healthcare available. Navy Safe Harbor, Navy's Operational Stress 
Control Program, Reserve Psychological Health Outreach Program, Warrior 
Transition Program, and Returning Warrior Workshop are critical 
elements of this continuum.
    Navy Safe Harbor continues to provide non-medical support for all 
seriously wounded, ill, and injured Sailors, Coast Guardsmen, and their 
families through a network of Recovery Care Coordinators and non-
medical Care Managers at 16 locations across the country. Over the past 
year, Safe Harbor's enrollment has grown from 387 to 542. Over 84,000 
Sailors have participated in Operational Stress Control (OSC) training, 
which is providing a comprehensive approach designed to actively 
promote the psychological health of Sailors and their families 
throughout their careers while reducing the traditional stigma 
associated with seeking help. The Warrior Transition Program (WTP) and 
Returning Warrior Workshops (RWW) are essential to post-deployment 
reintegration efforts. WTP, established in Kuwait and expanded via 
Mobile Care Teams to Iraq and Afghanistan, provides a place and time 
for individual augmentees to decompress and transition from life in a 
war zone to resumption of life at home. The RWW identifies problems, 
encourages Sailors to share their experiences, refers family members to 
essential resources, and facilitates the demobilization process.
Stress on the Force
    As we continue to operate at a high operational tempo to meet our 
nation's demands in the Middle East and around the world, the tone of 
the force remains positive. We continue to monitor the health of the 
force by tracking statistics on personal and family-related indicators 
such as stress, financial well-being and command climate, as well as 
Sailor and family satisfaction with the Navy. Recent results indicate 
that Sailors and their families remain satisfied with command morale, 
the quality of leadership, education benefits, healthcare, and 
compensation.
    Suicide affects individuals, commands and families. We continue 
efforts at suicide prevention through a multi-faceted approach of 
communication, training, and command support designed to foster 
resilience and promote psychological health among Sailors. Navy's 
calendar year 2009 suicide rate of 13.8 per 100,000 Sailors represents 
an increase from the previous year rate of 11.6 per 100,000 Sailors. 
Although this is below the national rate of 19.0 per 100,000 
individuals for the same age and gender demographic, any loss of life 
as a result of suicide is unacceptable. We remain committed to creating 
an environment in which stress and other suicide-related factors are 
more openly recognized, discussed, and addressed. We continue to 
develop and enhance programs designed to mitigate suicide risk factors 
and improve the resilience of the force. These programs focus on 
substance abuse prevention, financial management, positive family 
relationships, physical readiness, and family support, with the goal of 
reducing individual stress. We continue to work towards a greater 
understanding of the issues surrounding suicide to ensure that our 
policies, training, interventions, and communication efforts are 
meeting their intended objectives.
    Sexual assault is incompatible with our Navy core values, high 
standards of professionalism, and personal discipline. We have 
reorganized our efforts in this critical area under the Navy Sexual 
Assault Prevention and Response (SAPR) program, which takes a multi-
faceted approach to raise awareness of effective prevention methods, 
victim response and offender accountability. Recent program reviews 
undertaken by the Government Accountability Office, the Defense Task 
Force on Sexual Assault in the Military Services, and the Navy 
Inspector General will help us to identify program gaps and refine our 
program so we can continue to promote a culture that is intolerant of 
sexual assault.
Learning and Development
    Education and training are strategic investments that give us an 
asymmetric advantage over our adversaries. To develop the highly-
skilled, combat-ready force necessary to meet the demands of the 
Maritime Strategy and the Joint Force, we have 15 learning centers 
around the country providing top-notch training to our Sailors and Navy 
civilians. We continue to leverage civilian credentialing programs to 
bolster the professional qualifications of Sailors in all ratings and 
increase Sailor equity in their own professional advancement. We are 
balancing existing education and training requirements with growth in 
important mission areas such as cyber warfare, missile defense, and 
anti-submarine warfare. Cultural, historical, and linguistic expertise 
remain essential to the Navy's global mission, and our budget request 
supports expansion of the Language, Regional Expertise, and Culture 
(LREC) program for NROTC midshipmen, as well as implementation of the 
AF-PAK Hands Program. We recognize the importance of providing our 
people meaningful and relevant education, particularly Joint 
Professional Military Education (JPME), which develops leaders who are 
strategically-minded, capable of critical thinking, and adept in naval 
and joint warfare. Our resident courses at Naval War College, non-
resident courses at Naval Postgraduate School and Fleet Seminar 
program, and distance offerings provide ample opportunity for 
achievement of this vital education. I appreciate the support of 
Congress in the recent post-9/11 GI Bill. We have led DOD in 
implementing this vital education benefit and continue to carefully 
balance our voluntary education investments to further develop our 
force.

                               CONCLUSION

    Our Sailors are performing brilliantly, providing incredible 
service in the maritime, land, air, space, and cyberspace domains 
around the world today. I am optimistic about our future and the global 
leadership opportunities that our Navy provides for our nation. Our 
fiscal year 2011 budget request continues the progress we started in 
fiscal year 2010 to increase Fleet capacity, maintain our warfighting 
readiness, and develop and enhance the Navy Total Force. I ask for your 
strong support of our fiscal year 2011 budget request and my identified 
priorities. Thank you for your unwavering commitment to our Sailors, 
Navy civilians, and their families, and for all you do to make our 
United States Navy an effective and enduring global force for good.

    Chairman Inouye. Now, may I call upon the Commandant of the 
Marine Corps, General Conway.

STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            MARINE CORPS
    General Conway. Mr. Chairman, Senator Cochran, and 
distinguished members of the subcommittee, thank you for the 
opportunity to report to you on the posture of your Marine 
Corps. My pledge, as it has been over the years, is to provide 
you, today, with a candid and honest assessment.
    Having recently returned from a trip to theater, I'm 
pleased to report to you on the magnificent performance of 
marines and sailors in combat. If you count a 4-year enlistment 
as a generation of marines, we are now experiencing our third 
generation of great young patriots since our Nation was 
provoked on 9/11. The first generation broke trail, leading the 
strikes into Afghanistan and Iraq. The second generation 
quelled a once-volatile province of Anbar. Today, there are 
less than 130 marines in Iraq, but our third generation has 
more than 16,000 serving in Afghanistan. Your marines are 
fighting a skilled and determined enemy, but, with the Afghan 
Security Forces, they are once again proving that they are the 
strongest tribe in the Taliban stronghold of Helmand. Let me 
assure you from what the sergeant major and I witnessed 
firsthand, the highest morale in the Corps resides in those 
units posted in Afghanistan.
    My written statement to the subcommittee provides a 
snapshot of the Corps and describes our near-term focus, long-
term priorities, and our vision of the future. That vision 
matches closely the results of the Quadrennial Defense Review. 
The Secretary of Defense seeks to create a U.S. Military more 
closely focused on hybrid threats, yet capable of responding to 
a major-level contingency. That combination essentially 
describes the Marine Corps that we have built today, a Corps we 
call a ``two-fisted fighter,'' able to perform equally well in 
a counterinsurgency or in a high-intensity combined-arms fight.
    Our resource expenditures, moreover, reflect our dual or 
swing capacity. That is to say that 100 percent of our Marine 
Corps equipment can be used in a hybrid conflict or in a major 
fight.
    Equipment procurement is, indeed, our primary concern, as 
we look at the fiscal year 2011 budget and beyond. Our 
requirements for equipment density in Afghanistan and our 
resolve to reestablish our maritime pre-positioned squadrons 
have driven equipment stocks to an all-time low in our 
operating forces at home station. The ability to properly train 
for deployment, and certainly the ability to respond to an 
unexpected contingency, is at significant risk, based on this 
increasing shortfall.
    Congress has promised us resources for reset and 
reconstitution. But, increasingly, we cannot wait for the guns 
to fall silent in Afghanistan for such an effort to begin. We 
ask for your help in this critical area.
    Our military construction accounts in the fiscal year 2011 
budget and the FYDP are sufficient to help maintain a promise 
we have made to our marines, that they will have quality living 
spaces while they're home between deployments. One need only 
visit some of our major bases and stations to realize that we 
waited too long to begin this effort.
    Similarly, we believe that, even in wartime, we must 
continue a heavy emphasis on education of our officers and our 
staff noncommissioned officers. A strong reservoir of strategic 
and operational thinkers is a must on sophisticated joint and 
combined battlefields. Therefore, a quality Marine Corps 
university with facilities to match our already world-class 
student body, faculty, and curriculum is a major priority. We 
trust we will receive your full support on our military 
construction investments that will repay huge dividends in the 
years to come.
    Ladies and gentlemen of the subcommittee, I must admit my 
own surprise that our Marine Corps and their families have 
remained so resilient over these 9 years of conflict. They have 
been incredibly determined, loyal, and courageous in an effort 
to see these two wars to a successful close. Much of the credit 
goes to you, in the Congress, for providing them with the 
finest, in terms of equipment, warrior care, quality of life 
for families, and compensation. The number one question in the 
minds of our troops is always, Is the country behind us? The 
Members of Congress have answered that question in spades, both 
by your apportionment of the Nation's precious resources, but 
also through personal efforts to visit both troops in theater 
and our wounded at Bethesda and Walter Reed.
    As a result of all the above and the natural tendency of 
marines to stick around for a fight, our recruitment and 
retention are at all-time highs. I predict that, for the second 
year in a row, we will close out reenlistment for both the 
first-term and career force halfway through the fiscal year. 
Clearly, such a phenomenon would not be possible if marines and 
their families were not happy in the service of their country.
    One day this long war with terrorists and Islamic 
extremists will be over. Your Marine Corps will cease being a 
second land army and will gladly rejoin our Navy brothers 
aboard amphibious ships in order to project America's global 
presence, demonstrate American goodwill, and, if need be, 
protect America's vital interests.
    Until that day comes, however, your Corps will continue, as 
we say, ``to do windows.'' That is, we will continue to take 
aboard the indomitable youth of America and make them marines, 
with the absolute conviction that, as a result, they will one 
day be better citizens. We will be trained and equally as 
prepared to route Taliban fighters in Marjah as we are to feed 
beleaguered Haitians outside Port-au-Prince. With your 
continued support, and that of our loyal countrymen, we will do 
whatever the Nation asks us to do, and do it exceedingly well.

                           PREPARED STATEMENT

    Thank you, sir, and I look forward to your questions.
    Chairman Inouye. I thank you very much, General.
    [The statement follows:]

             Prepared Statement of General James T. Conway

    Chairman Inouye, Senator Cochran, Members of the Subcommittee, 
thank you for the opportunity to provide a written report for the 
record on the current posture of the Marine Corps. My pledge, as 
always, is to provide you with a candid and honest assessment. On 
behalf of all Marines, their families, and our civilian employees, I 
want to thank you for your concern and continued support.
    This brief statement contains a summary of our near-term focus and 
enduring priorities, an update on your Marine Corps today, a discussion 
of the challenges we see ahead, and our vision of the future. In 
addition to any testimony you wish to receive from me, I have directed 
the Deputy Commandants of the Marine Corps to meet with you as 
individuals and members of your respective subcommittees, and to 
provide you any other information you require. Our liaison officers 
will also deliver copies of 2010 U.S. Marine Corps Concepts and 
Programs to the offices of each member of the committee. This almanac 
and reference book contains detailed descriptions of all our major 
programs and initiatives. We hope you will find it useful.

                           YOUR MARINE CORPS

    We believe that Americans expect their Marines to be ready to 
respond when our country is threatened; to arrive on the scene on short 
notice anywhere in the world via the amphibious ships of the United 
States Navy, as was necessary when a disastrous earthquake recently 
struck Haiti; and to fight and win our Nation's battles. The public 
invests greatly in the Marine Corps. In turn, our commitment is to 
uphold their special trust and confidence and provide them the best 
return on their investment.
    Characteristics.--Your Marine Corps is a young force that provides 
great value to the Nation.
  --The average age of a Marine is 25 years old.
  --Almost half of the enlisted force--84,830 Marines--is between the 
        ranks of private and lance corporal (pay grades E1-E3).\1\
---------------------------------------------------------------------------
    \1\ As of December 23, 2009.
---------------------------------------------------------------------------
  --Almost 70 percent of your Marines are on their first enlistment, 
        and some 30,000 have been in uniform for less than 1 year.\2\
---------------------------------------------------------------------------
    \2\ As of December 1, 2009, the percentage of Marines on their 
first enlistment was 68.6 percent, and the number of Marines with less 
than 1 year on active duty is 29,032.
---------------------------------------------------------------------------
  --The ratio of officers to enlisted Marines is 1:9--the lowest of all 
        the services.\3\
---------------------------------------------------------------------------
    \3\ Authorized endstrength of 202,000 equals 21,000 officers plus 
181,000 enlisted Marines equals 1:9.
---------------------------------------------------------------------------
  --More than 136,000 Marines (67 percent) are in deploying units--what 
        we call the Operating Forces. Nearly 30,000 Marines are forward 
        deployed, forward based, or on training exercises around the 
        world.
  --For 6.5 percent \4\ of the baseline 2010 Defense budget, the Marine 
        Corps provides: 17 percent of the Nation's active ground combat 
        maneuver units; 12 percent of the Nation's fixed wing tactical 
        aircraft; and 19 percent of the Nation's attack helicopters.
---------------------------------------------------------------------------
    \4\ 6.5 percent of DOD budget represents fiscal year 2010 USMC 
Green dollars and Direct Blue (Navy) dollars.
---------------------------------------------------------------------------
    Expeditionary.--The Marine Corps is the Nation's naval 
expeditionary, combined-arms force-in-readiness. To Marines, 
expeditionary connotes fast, austere, and lethal.
  --Expeditionary means rapid deployment by air or sea to respond to 
        crises of temporary duration. For example, within 24 hours of 
        the speech by the President of the United States in December 
        announcing the current strategy in Afghanistan, the lead 
        elements of 1st Battalion, 6th Marines from Camp Lejeune, North 
        Carolina were en route to Afghanistan.
  --Expeditionary means being efficient and effective while operating 
        in an austere environment--a task-organized force that is 
        manned and equipped no larger or heavier than necessary to 
        accomplish the mission.
  --Expeditionary means being prepared for decisive action--to be 
        lethal, if necessary--but also possessing the lesser-included 
        capabilities for security cooperation, humanitarian assistance, 
        or disaster relief.
  --In summary, the term expeditionary to Marines goes to the very 
        heart of our service culture, core values, and warrior ethos. 
        Service as part of an expeditionary force means embracing a 
        Spartan way of life and regular deployments on foreign soil in 
        furtherance of our Nation's interests.\5\
---------------------------------------------------------------------------
    \5\ This is consistent with the official Defense Department 
definition of an expeditionary force: ``An armed force organized to 
accomplish a specific objective in a foreign country.'' Joint Pub 1-02 
Department of Defense Dictionary of Military and Associated Terms 
(Washington, D.C.: 2001, as amended through August 31, 2005), p. 193.
---------------------------------------------------------------------------
    Organization.--The Marine Corps is the only general-purpose force 
in the Department of Defense that is trained and equipped as the 
Nation's first responders.
  --We organize in Marine Air-Ground Task Forces (MAGTFs). Under a 
        single command element, the MAGTF integrates three major 
        subordinate elements: (1) Ground Combat Element, (2) Aviation 
        Combat Element, (3) Logistics Combat Element. Each element of 
        the MAGTF is complementary, and Marine Corps forces are most 
        effective and best employed as MAGTFs within the joint or 
        multinational command structure.
  --MAGTFs are adaptive, general-purpose rapid response forces. They 
        are multi-capable, transitioning seamlessly from fighting 
        conventional and hybrid threats to promoting stability and 
        mitigating conditions that lead to conflict. For example, in 
        2003, after completing a conventional, 350-mile attack over 
        land from Kuwait to Baghdad, I Marine Expeditionary Force--a 
        60,000 Marine-plus MAGTF--was able to transition quickly to 
        security and stability operations.
    Near-Term Focus.--We understand the economic challenges facing our 
country and the hard decisions Congress must make. We thank you for 
your unwavering support. This report discusses the near-term focus of 
the Marine Corps:
  --The current fight in Afghanistan and the responsible drawdown in 
        Iraq.
  --Readiness and reset of equipment.
  --Modernization of the MAGTF.
  --Preparing for the next contingency and the uncertainties of the 
        future.
    Enduring Priorities.--Through the future years defense plan and 
beyond, we are focused on:
  --Providing the Nation a naval expeditionary force fully prepared for 
        employment as a MAGTF across the spectrum of operations.
  --Remaining the most ready when our Nation is least ready.
  --Providing for our Marines and their families.

                          IRAQ AND AFGHANISTAN

    Operation Iraqi Freedom.--Since testimony before your committee 
last year, the Marine Corps has transferred authority for Anbar 
Province to the U.S. Army and is near completion of a responsible 
drawdown from Iraq.
  --From 2003-2009, our force levels in Iraq averaged 25,000 Marines.
  --As of February 19, 2010, there were 159 Marines in Iraq. By spring 
        of this year, our mission in Iraq will be complete and your 
        Marines will redeploy.
    Operation Enduring Freedom.--In Afghanistan, the mission has 
expanded.
  --As of September 23, 2009, there were more Marines in Afghanistan 
        than in Iraq.
  --By March 2010, there will be more than 18,500 Marines in 
        Afghanistan, and by mid-April, that number will grow to a 
        robust MAGTF of 19,400 personnel with equipment, and will be 
        commanded by a Marine two-star general.
  --Your Marines have already had success and have made a difference in 
        some of the toughest regions of Afghanistan, primarily Helmand 
        Province in the South--formerly a Taliban stronghold, and the 
        source of the highest volume of opium production in the world. 
        However, more work remains to be done.
Summary
    Operations in Iraq and Afghanistan have required the Marine Corps 
to fight as a second land army. Although we have been successful in our 
assigned missions in Iraq and Afghanistan, that success has come at the 
price of degraded readiness for our designed missions. The Marine Corps 
will always do whatever the Nation requires. But, as Congress has 
authorized and resourced, the Marine Corps is trained, organized, and 
equipped for our primary mission as a force in readiness.
    The harsh environments and tempo of operations in Iraq and 
Afghanistan through 8 years of combat have accelerated wear and tear on 
our equipment. The enemy's weapon of choice--the improvised explosive 
device or IED--has forced us to increase the weight of our personal 
protective equipment and the armor on our vehicles.
    The distributed nature of operations has shown us that our legacy 
tables of equipment were inadequate. The required type and number of 
ground vehicles, radios, and other major end items of equipment have 
significantly increased. In our infantry battalions, for example, the 
number of tactical vehicles has almost doubled while the number of 
radio sets has grown sevenfold. Our preliminary estimates indicate that 
the cost of restructuring the Marine Corps' tables of equipment would 
be $5 billion over fiscal year 2012 through fiscal year 2015.
    The amount of equipment that has been damaged, destroyed, or has 
reached the end of service life from accelerated use has increased, and 
the cost associated with fixing or replacing this equipment has 
increased significantly.
    Based upon the Marine Corps current analysis, our estimated reset 
cost is $8 billion. The $8 billion consists of $3 billion requested in 
the fiscal year 2011 OCO and an additional long term reset liability of 
$5 billion upon termination of the conflict.
    Equipment on hand at home station to support training has been 
serious degraded. Particularly worrisome is our capacity to respond to 
other contingencies.
    We are institutionalizing the lessons learned in Iraq and 
Afghanistan in training, education, organization, doctrine, and 
capability development. One of the ways we are doing this is through 
the Marine Corps Center for Lessons Learned.
    The current operating environment in Iraq and Afghanistan has led 
to an exponentially increased need for intelligence collection assets 
down to lower levels of command. The Marine Corps Intelligence, 
Surveillance, and Reconnaissance Enterprise (MCISR-E) provides support 
to the MAGTF in this operating environment by organizing all of the 
intelligence disciplines, sensors, and equipment and communication 
architecture into a single capability that is integrated and networked 
across all echelons.

                               READINESS

Personnel Readiness
    Our people--the brave men and women who wear our uniform and the 
spouses, children, and the parents who support them--are our most 
valuable resource. In 2009, your Corps lost 65 Marines to enemy action 
in combat. We also lost 52 Marines who died by suicide--this serious 
issue, which will be discussed later in this report, has my personal 
attention.
    Endstrength.--Current authorized endstrength is 202,100 Marines in 
the active component and 39,600 Marines in the Selected Reserve.
  --During fiscal year 2007, the Marine Corps requested and received 
        authorization to grow 27,000 additional personnel by the end of 
        fiscal year 2011.
  --We completed our growth during fiscal year 2009--2 years ahead of 
        schedule. We attribute this to four factors: quality 
        recruiting, exceptional retention, reduced personnel attrition, 
        and a great young generation of Americans who want to serve 
        their country during wartime.
  --With this personnel increase, we will improve training, upgrade 
        readiness, and enhance the quality of life for all personnel 
        and their families. The goal is to build the equivalent 
        capacity of three Marine Expeditionary Forces--the largest 
        MAGTF and principal Marine Corps warfighting organization.
  --We are continuing to shape the Marine Corps with the right mix of 
        units, grades, and occupational specialties.
            Quality
    Recruiting.--In fiscal year 2009, we exceeded goals in numbers and 
standards for the active component and the Selected Reserve. The active 
component accessed 31,413 personnel, and the Selected Reserve accessed 
9,627 personnel. In fiscal year 2010, our goal is to access 27,500 
enlisted personnel in the active component and commission 1,800 new 
officers.
    Enlistment Standards.--One of the Department of Defense standards 
for new recruits is that at least 90 percent will possess a high school 
diploma. The Marine Corps has chosen to maintain a higher standard; our 
goal is a high school graduation rate of 95 percent. In fiscal year 
2009, for our combined active and reserve components, the high school 
graduation rate of our recruits exceeded 98 percent.
    First Term Reenlistments.--In fiscal year 2009, 8,011 first-term 
Marines reenlisted, meeting 109.2 percent of our goal. This represented 
a retention rate of 33.7 percent, exceeding our traditional retention 
rate of 24 percent. In the first quarter of fiscal year 2010, 5,194 
first-term Marines have already reenlisted--77 percent of the goal for 
the entire year.
    Subsequent Term Reenlistments.--In fiscal year 2009, 7,985 Marines 
who had completed at least two enlistment contracts chose to reenlist 
again. This number represented 107 percent of our goal and a 78.6 
retention rate--the highest in history. In the first quarter of fiscal 
year 2010, 5,685 Marines who had completed at least two enlistment 
contracts chose to reenlist again--82 percent of the goal for the 
entire year.
    Officers.--The quality of officers accessed and retained remains 
high. In one example, the share of Marine-option United States Naval 
Academy candidates in the top third of their graduating class greatly 
exceeded representative levels in 2008. The number of Naval Academy 
graduates who chose to become Marine Corps officers last year was 270--
the highest number in history for the second year in a row.
    In fiscal year 2009, our officer retention rate was 93 percent and 
during fiscal year 2010, we expect officer retention to remain stable.
    Reservists.--The Marine Corps Reserve is a full partner in the 
total force. As of January 2010, there were 39,164 Marines in the 
Selected Reserve and another 55,233 in the Inactive Ready Reserve. 
Marine Forces Reserve includes 183 training centers in 48 states, the 
District of Columbia, and Puerto Rico.
  --The extensive contributions of the Reserve have reduced deployment 
        requirements for the active component, thereby improving the 
        health of the total force. More than 54,000 Marines from the 
        Selected Reserve and the Inactive Ready Reserve have mobilized 
        and deployed in support of Operations Iraqi Freedom, Enduring 
        Freedom, or other operational commitments around the globe.\6\
---------------------------------------------------------------------------
    \6\ As of January 3, 2010.
---------------------------------------------------------------------------
    ``Every Marine into the Fight''.--The majority of your Marines 
joined the Corps after our Nation was already at war. They expect to 
train, deploy, and fight because that is what they believe Marines are 
supposed to do. As such, the 2007 ``Every Marine into the Fight'' 
initiative adjusted personnel assignment policies so Marines serving in 
non-deploying units or the supporting establishment would have the 
opportunity to deploy. At the same time, we monitor carefully the 
frequency and duration that units and individual personnel spend 
deployed.
  --To date, 73 percent of the available Marines have deployed in 
        support of Operations Iraqi Freedom and Enduring Freedom, or 
        other operational commitments around the globe.
  --Individual Deployment Tempo.--We measure individual deployment 
        tempo on a 2-year sliding scale--the number of days deployed 
        out of the previous 730 days. In the last 7 years, we have seen 
        a twentyfold increase in the individual deployment tempo of 
        Marines in the active component. In October 2002, the number of 
        Marines who deployed for at least 120 consecutive days in a 2-
        year period was 4,845. As of January 2010, 100,760 Marines had 
        deployed for at least 120 consecutive days.
  --Unit Operational Tempo.--The metric we use to measure unit 
        operational tempo is the ratio of ``deployment to dwell''--
        months deployed to months at home station. We limit the 
        duration of deployments for units and individual Marines to no 
        more than seven months for battalions and squadrons. Higher 
        headquarters units deploy for 1 year.
  --Our goal is to achieve a 1:2 deployment to dwell ratio in the 
        active component and a 1:5 ratio in the reserve component. Our 
        reserve units are currently operating at a ratio that more 
        closely approximates a ratio of 1:4, while many of our active 
        component units, on average, are nearing the goal of 1:2 (see 
        Table 1).

           TABLE 1.--MAGTF UNIT DEPLOYMENT TO DWELL RATIOS \1\
------------------------------------------------------------------------
                                                          Average Ratio
                                                             (Months
                     MAGTF Element                       Deployed:Months
                                                          Home Station)
------------------------------------------------------------------------
Command Element........................................           1:1.43
Ground Combat Element..................................           1:2.08
Aviation Combat Element................................           1:2.11
Logistics Combat Element...............................           1:1.79
------------------------------------------------------------------------
\1\ As of November 18, 2009.

  --The subordinate units most frequently deployed are Intelligence 
        Battalions, 1:1.01 (Command Element); Infantry Battalions, 
        1:1.78 (Ground Combat Element); VMU Squadrons, 1:1.10, and 
        Attack Helicopter Squadrons, 1:1.28 (Aviation Combat Element); 
        and Explosive Ordnance Disposal Companies 1:1.30 (Logistics 
        Combat Element).
    Suicide Prevention.--The number of Marines who have died by suicide 
in recent years is shocking and unacceptable. This issue has my 
personal attention, and we have multiple programs at work to reverse 
this trend.
  --Causes.--Our studies have shown that regardless of duty station, 
        deployment, or duty status, the primary stressors associated 
        with Marine suicides are problems in romantic relationships, 
        physical health, work-related issues, such as poor performance 
        and job dissatisfaction, and pending legal or administrative 
        action. Multiple stressors are typically present in a suicide. 
        This is consistent with the findings of the other services and 
        civilian agencies.
  --Deployments.--We analyze suicides monthly and annually for combat-
        related trends such as the number of deployments and dwell 
        time. Although it is reasonable to assume that one or more 
        deployments may cause an increase in suicides, to date, we have 
        been unable to establish a direct correlation between 
        deployments and suicides.
    Sexual Assault Prevention and Answer.--Sexual assault is a crime, 
and it tears at the very fabric of our ethos. We continue to train and 
educate all Marines on the warning signs and the situations that lead 
to sexual assault. To our commanders, we have reinforced their 
responsibility to investigate all allegations of sexual assault and 
take the appropriate actions consistent with their findings. Finally, 
we continue to take aggressive strides toward improving our Sexual 
Assault Prevention and Response Program.
    Civilian Employees.--Civilian employees are a vital part of the 
Marine Corps. In fiscal year 2010, civilian Federal employees will 
number more than 25,000. Through initiatives in management and career 
development, the Marine Corps is dedicated to maintaining a civilian 
workforce with the leadership skills and technical competencies 
necessary to meet the challenges of today as well as those of the 
future.
  --Traditionally, civilian employees have served primarily in the 
        supporting establishment. Now, more than ever before, they are 
        deploying with the operating forces and serving in positions 
        traditionally occupied by active duty Marines. For example, we 
        are in the process of hiring more than 260 tactical safety 
        specialists, who will each rotate on deployments with the 
        operating forces. We are also participating in DOD's program to 
        build a deployable Civilian Expeditionary Workforce.
    Families.--While we recruit Marines, we retain families. More than 
45 percent of your Marines are married, and we believe that investing 
in military families is critical to the long-term health of the 
institution. When Marines know that their loved ones at home station 
have access to quality housing, healthcare, child development services, 
and education, they are better prepared to face the rigors of 
deployment and more inclined to stay in uniform when they return home.
  --Family Readiness Programs.--Our baseline budget in fiscal years 
        2010 and 2011 for family programs is $399 million per year. We 
        have reformed our family readiness programs at every level of 
        command at all of our installations. As an example, we have 
        created more than 400 full-time positions for family readiness 
        officers down to the battalion and squadron level.
  --Child Care.--Today, we are currently meeting 64 percent of 
        potential need for child care spaces. To meet the DOD standard 
        of 80 percent of potential need based on the current 
        population, we would require approximately 3,000 additional 
        spaces. With your support, we have programmed an additional 
        2,615 spaces that will open over the next 18-24 months.
  --Families with Special Needs.--With an increase of $11 million for 
        the Exceptional Family Member Program in this year's baseline 
        budget, we have made great strides improving the programs that 
        support special needs family members. Enrollment is now 
        mandatory and more than 8,900 exceptional family members are in 
        the program. The Marine Corps assigns a caseworker to each 
        family, who assists during relocation, deployment, and life 
        events. In addition, the Marine Corps now underwrites the cost 
        of up to 40 hours of respite care per month for families in the 
        program. To date, the Marine Corps has provided more than 
        250,000 hours of respite care.
    Wounded Warriors.--About 9,000 Marines have been injured or fallen 
seriously ill while serving in support of Operations Iraqi Freedom or 
Enduring Freedom. We are deeply committed to their care as well as the 
welfare of their families. Since activation in April 2007, the Wounded 
Warrior Regiment has provided a wide range of non-medical care for the 
injured and ill. The Marine Corps now also has wounded warrior 
battalions at Camp Pendleton and Camp Lejeune.
  --Infrastructure.--The Marine Corps is investing $50 million from the 
        2009 Overseas Contingency Operations supplemental for the 
        construction of resource and recovery centers at Camp Pendleton 
        and Camp Lejeune. These recovery centers will provide spaces 
        for counseling, physical therapy, employment support, financial 
        management, and other training and outreach programs in support 
        of our wounded.
  --Outreach.--With a 24-hour call center for wounded Marines and their 
        families, the Wounded Warrior Regiment has contacted 99.4 
        percent of all Marines (7,654 out of 7,703) who were wounded 
        since the beginning of Operations Iraqi Freedom and Enduring 
        Freedom, in order to determine their health status. We also 
        maintain a toll-free number to the medical center in Landstuhl, 
        Germany for families to contact their loved ones who have been 
        wounded.
  --Recovery Care.--The Marine Corps has 42 recovery care coordinators, 
        who coordinate non-medical services for Marines and their 
        families during recovery, rehabilitation, and transition.
            Mental Health
    Traumatic Brain Injury.--Naval medicine remains at the forefront of 
researching and implementing pioneering techniques to treat traumatic 
brain injury. One technique, Hyperbaric Oxygen Treatment, is showing 
great promise. We anticipate a study to begin this spring that tests 
the efficacy of this revolutionary treatment. The Marine Corps has a 
formal screening protocol for Marines who suffer concussions or who are 
exposed to blast events in theater.
  --Post-Traumatic Stress Disorder (PTSD).--We are attentive to the 
        mental health of our warriors and we are dedicated to ensuring 
        that all Marines and family members who bear the invisible 
        wounds caused by stress receive the best help possible. We 
        developed the Combat Operational Stress Control (COSC) program 
        to prevent, identify, and holistically treat mental injuries 
        caused by combat or other operations.
  --With the increased workload, we do have concerns about the capacity 
        of mental healthcare in military medicine. Operational support 
        and current treatment facility demands continue to stretch our 
        mental health professional communities, even though DOD has 
        taken many steps to increase mental health services. Our 
        shortages of mental health professionals are a reflection of 
        Nation-wide shortages of this specialty. We are actively 
        engaged in discussions about possible solutions.
Equipment Readiness
    We have sourced equipment globally, taking from non-deployed units 
and strategic programs to support our forces in theater. As a result, 
the amount of equipment remaining for non-deployed units to use for 
training and other potential contingencies is seriously deficient.
  --For example, while the overall supply rating of Marine Corps units 
        in Afghanistan is near 100 percent, the supply rating of units 
        at home station is less than 60 percent.
  --Additional equipment is being procured with supplemental funds, but 
        the production rates are too slow to meet our requirements for 
        new equipment orders.
    Equipment Reset.--As mentioned previously, the distributed and 
decentralized nature of operations in Iraq and Afghanistan has shown us 
that our legacy, 20th century tables of equipment are significantly 
inadequate. Moreover, the tempo of operations has accelerated the wear 
and tear on equipment. Also, the diversion of equipment in theater from 
Iraq to Afghanistan has delayed reset actions at our logistics depots 
in the United States.
  --Our preliminary estimates indicate that the cost of restructuring 
        the Marine Corps' tables of equipment would be $5 billion over 
        fiscal year 2012 through fiscal year 2015.
  --In light of the continued high tempo of operations in Afghanistan, 
        and the delay in reset actions due to the diversion of 
        equipment in theater, we estimate the cost of reset for the 
        Marine Corps to be $8 billion ($3 billion requested in the 
        fiscal year 2011 OCO and an additional $5 billion reset 
        liability upon termination of the conflict).
    Aviation Readiness.--All Marine Corps aircraft in support of 
overseas contingency operations are exceeding programmed rates, and are 
thus consuming service life at a rate sometimes three times higher than 
that scheduled for the lifetime of the aircraft. (See Table 2.) This 
will eventually result in compressed time lines between rework and, 
ultimately, earlier retirement of the aircraft than originally 
programmed.
  --It is critical that our aviation modernization programs, discussed 
        in the next section of this report, continue to receive the 
        support of Congress.
  --The majority of our legacy platforms are at the end of their 
        service life and most of the production lines are closed.

           TABLE 2.--FISCAL YEAR 2009 USMC AIRCRAFT UTILIZATION RATES--OVERSEAS CONTINGENCY OPERATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                Programmed
                                                                      Average      Rates    OCO Rates   OCO Life
                              Aircraft                                  Age       (Hours/    (Hours/     Usage
                                                                      (Years)     Month)      Month)
----------------------------------------------------------------------------------------------------------------
AH-1W..............................................................         19        19.5       32.7       1.7x
UH-1N..............................................................         35        21.7       30.0       1.4x
CH-46E.............................................................         41        13.6       31.1       2.3x
CH-53D.............................................................         40        23.8       50.3       2.1x
CH-53E.............................................................         21        19.2       33.6       1.8x
MV-22B.............................................................          3        20.9       29.4       1.4x
AV-8B..............................................................         13        20.9       24.1       1.2x
F/A-18A............................................................         23        25.5       72.5       2.9x
F/A-18C............................................................         16        23.9       65.5       2.7x
EA-6B..............................................................         27        26.4       66.0       2.5x
----------------------------------------------------------------------------------------------------------------
Note: Programmed rates are defined in the Weapon System Planning Document and are based on the projected dates
  an aircraft will be replaced by a new platform or reworked to extend its service life. Programmed rates
  include monthly flight hours and the associated logistical support required for each aircraft.

            Strategic Prepositioning Programs
    Marine Corps prepositioning programs trace their origins back 30 
years, when the Iranian revolution, the Soviet invasion of Afghanistan, 
the Iraqi attack on Iran, and the deepening civil war in Lebanon 
collectively brought to the forefront the limitations of strategic 
airlift to respond to no-notice contingencies. The solution--the 
Secretary of Defense testified in 1980, and Congress agreed--was 
prepositioned combat equipment, ammunition, and supplies afloat on 
commercial vessels underway or docked in strategic locations. The 
Marine Corps developed three squadrons of maritime prepositioned ships 
and, in 1982, began prepositioning equipment and ammunition underground 
in Norway.
    The first real test for these programs was in 1991, during 
Operation Desert Shield. In 2003, in Kuwait, the Marine Corps 
downloaded 11 vessels from all three prepositioned squadrons and moved 
648 principal end items from Norway in preparation for Operation Iraqi 
Freedom. Without this capacity, the Marine Corps would not have been 
able to move half of the entire operating forces--more than 60,000 
fully equipped Marines--halfway around the world for a 350-mile attack 
on Baghdad.
    When completely loaded, Marine Corps prepositioning vessels today 
carry more than 26,000 pieces of major equipment including tanks, 
wheeled tactical vehicles, and howitzers, as well as the necessary 
supplies to support the force.
    When measured against authorized allowances, the percentage of 
major item equipment (Class VII) currently present in the prepositioned 
fleet is 94 percent; the percentage of supplies currently present is in 
excess of 99 percent.\7\
---------------------------------------------------------------------------
    \7\ Data as of February 18, 2010. To clarify any misperceptions, 
these are not the formal readiness percentages the Marine Corps uses in 
separate reports to Joint Chiefs of Staff, the Office of the Secretary 
of Defense, and Congress. The readiness percentages in those reports 
are a measurement against MARES reportable items, a more select range 
of equipment.
---------------------------------------------------------------------------
    In Norway, the current percentage of on-hand major end item 
equipment (Class VII) measured against authorized allowances is 47 
percent; the percentage of on-hand supplies is 78 percent.\8\
---------------------------------------------------------------------------
    \8\ Data as of February 18, 2010.
---------------------------------------------------------------------------
    It is important to note that these programs are not just a 
strategic war reserve. Marine Corps prepositioning programs support 
forward-deployed training exercises and, along with the amphibious 
ships of the U.S. Navy, the steady state requirements of the combatant 
commanders. For example, using the equipment positioned in Norway, the 
Marine Corps provides security force assistance to partner nations in 
U.S. European Command and U.S. Africa Command.
    In summary, Marine Corps prepositioning programs are vital to the 
Nation and they require the continued funding and support of Congress.
Infrastructure
    Bachelor Housing.--Our number one priority in military construction 
is barracks. In years past, due to fiscal constraints, we had focused 
on operational concerns. We now have a program under way that will 
provide adequate bachelor housing for our entire force by 2014. Table 3 
depicts Marine Corps fiscal year 2011 investment in new barracks.

          TABLE 3.--USMC FISCAL YEAR 2011 BARRACKS CONSTRUCTION
                          [Dollars in millions]
------------------------------------------------------------------------
                                                Fiscal Year      New
                   Location                         2011       Barracks
                                                 Investment     Spaces
------------------------------------------------------------------------
Twentynine Palms, CA..........................        $53.2          384
Camp Lejeune, NC..............................        326.6        2,794
Cherry Point, NC..............................         42.5          464
Camp Pendleton, CA............................         79.9          860
MCB Hawaii, HI................................         90.5          214
MCB Quantico, VA..............................         37.8          300
                                               -------------------------
      Total...................................        630.5        5,016
------------------------------------------------------------------------

  --The Marine Corps is committed to funding the replacement of 
        barracks furnishings on a 7-year cycle and to funding the 
        repair and maintenance of existing barracks to improve the 
        quality of life of Marines.
            Summary
    Our equipment shortfalls are serious and the impacts on readiness 
have been significant. Our non-deployed units do not have the required 
amount of equipment they need to train or support other contingencies. 
Moreover, the harsh environments of Iraq and Afghanistan, the tempo of 
operations, and our employment as a second land army since 2004 has 
accelerated wear and tear on our equipment and delayed the reset 
activities necessary to prepare for the next contingency.
    We estimate that the cost of restructuring the Marine Corps' tables 
of equipment from fiscal year 2012 through fiscal year 2015 would be $5 
billion and the cost to reset for the Marine Corps will be $8 billion 
($3 billion requested in fiscal year11 OCO and an additional $5 billion 
reset liability upon termination of the conflict).
    Iraq and Afghanistan have not adversely affected personnel 
readiness or the resiliency of the force. The Marine Corps continues to 
recruit and retain the highest quality people. Your Marines want to 
make a difference; they understand being a Marine means deploying and 
fighting our Nation's battles. Indeed, the Marines with the highest 
morale are those currently in Afghanistan.
    The Marine Corps has achieved its goal of 202,000 active duty 
personnel and has done so with no compromise in quality. However, the 
Marine Corps has not achieved the correct mix of skills and pay grades. 
Continued funding will be needed to balance the force correctly.
    Our personnel growth has outpaced our growth in infrastructure, and 
your continued support is needed to provide the additional barracks, 
messing, and office spaces required.

                       MODERNIZATION OF THE MAGTF

    Our modernization effort is not merely a collection of programs but 
a means of aligning the core capabilities of the MAGTF across the 
spectrum of present and future security challenges. All of our 
procurement programs are designed to support the full range of military 
operations.
    The Individual Marine.--Marines are the heart and soul of your 
Corps. The trained, educated, and physically fit Marine enables the 
Corps to operate in urban areas, mountains, deserts, or jungles. 
However, we are concerned about weight. Depending on the enemy 
situation, and including helmet, body armor, individual weapon, water, 
ammunition, and batteries, the weight of gear for a Marine on foot-
patrol in Afghanistan can average 90 pounds. There is a delicate 
balance between weight and protection, and we continue to pursue the 
latest in technology to provide Marines with scalable protection based 
on the mission and threat.
    Tactical Vehicles.--The Marine Corps currently has a total ground 
tactical vehicle quantity of nearly 47,500. Over the next 10 years, we 
plan to replace about 50 percent of that total.
  --We are planning, programming, and budgeting toward a balanced fleet 
        of vehicles. Our chief considerations are mobility, 
        survivability, payload, transportability, and sustainability. 
        Our goal is a portfolio of vehicles that is able to support 
        amphibious operations, irregular warfare, and operations ashore 
        across the range of military operations. We envision a blend of 
        Expeditionary Fighting Vehicles, Marine Personnel Carriers, 
        Mine Resistant Ambush Protected vehicles (MRAPs), and 
        replacements for our High Mobility Multipurpose Wheeled 
        Vehicles (HMMWVs).
  --The Expeditionary Fighting Vehicle (EFV) is the number one 
        modernization program in the ground combat element of the 
        MAGTF. The requirements of the current and future security 
        environment have driven the research and development of the 
        critical capabilities associated with the EFV. The Marine Corps 
        has not taken a myopic view of the EFV; we are well aware of 
        the fiscal realities and developmental challenges associated 
        with such a revolutionary vehicle. We are, however, convinced 
        that national security demands the capabilities of the EFV and 
        justifies the costs. This vehicle will save lives and enable 
        mission success across an extremely wide, and highly probable, 
        range of operational scenarios.
    Fire Support.--We are modernizing Marine Corps land-based fire 
support through a triad of weapons systems--a new and more capable 155 
mm howitzer, a system of land-based rockets, and a helicopter-
transportable 120 mm mortar. Each of these is extremely accurate. This 
accuracy is critical in counterinsurgency operations and irregular 
warfare because accuracy reduces the instances of civilian casualties 
and collateral damage to local infrastructure.
  --The Lightweight 155 mm Towed Howitzer (M777) weighs about half of 
        the cannon it is replacing and fires projectiles to a range of 
        15-19 miles. Our Marine Expeditionary Brigade in Afghanistan 
        has 15 of these howitzers at three different locations, which 
        have collectively fired more than 600 rounds since April 2009.
  --The High Mobility Artillery Rocket System (M142 HIMARS) provides 
        high-value rocket and missile fire in support of ground forces. 
        Each system carries six rockets or one missile. Like our new 
        lightweight howitzer, HIMARS has proven itself over the past 
        year in Afghanistan, delivering long-range precision fires.
  --The Expeditionary Fire Support System is a rifled 120 mm mortar, 
        internally transportable 110 nautical miles by both the MV-22 
        Osprey and the CH-53E helicopter. This will be the primary 
        indirect fire-support system for helicopter-transported 
        elements of the ground combat element. A platoon equipped with 
        these new mortars recently deployed with the 24th Marine 
        Expeditionary Unit.
    Marine Aviation.--Marine pilots are naval aviators; they are 
trained to fly from the ships of the U.S. Navy or from expeditionary 
airfields ashore in support of Marines on the ground. We are in the 
midst of an unprecedented modernization effort. By 2020, we will have:
  --Transitioned more than 50 percent of our aviation squadrons to new 
        aircraft.
  --Added 5 more operational squadrons and almost 100 more aircraft to 
        our inventory.
  --Completed fielding of the tilt-rotor MV-22 Osprey and the upgraded 
        Huey (UH-1Y) utility helicopter.
  --Updated our entire fleet of aerial refuelers to the KC-130J model.
  --Fielded the upgraded Cobra (AH-1Z) attack helicopter and the Joint 
        Strike Fighter (F-35B).
  --Fielded an entirely new family of Unmanned Aircraft Systems (UAS).
  --Introduced a new model of the heavy-lift CH-53 cargo helicopter.
    The Joint Strike Fighter.--The Marine Corps is on track to activate 
the Department of Defense's first operational Joint Strike Fighter 
squadron in 2012. Although our investment in this program may seem 
high, it is important to note that the Marine Corps has not bought a 
fixed-wing tactical aircraft in 11 years, and that the Joint Strike 
Fighter will ultimately replace three different types of aircraft 
currently in our inventory.
  --The short takeoff and vertical landing (STOVL) variant (F-35B) of 
        the Joint Strike Fighter will be transportable aboard the 
        amphibious ships of the U.S. Navy; it will be able to operate 
        under the same austere conditions as does the AV-8 Harrier; it 
        will be able to carry more bombs and loiter overhead longer 
        than does the F/A-18 Hornet; and it will be a better electronic 
        warfare platform than our legacy EA-6 Prowler.
    The Osprey.--We are very pleased with the performance of the tilt-
rotor MV-22 Osprey. The Osprey provides greater speed, more range, and 
enhanced survivability compared to other rotary wing platforms. It 
flies more than twice as fast and carries three times the payload at 
more than six times the range of the medium-lift helicopter it is 
replacing.
  --Osprey squadrons have completed three successful deployments to 
        Iraq and one aboard ship. One squadron is currently in 
        Afghanistan. We are nearing delivery of our 100th operational 
        aircraft, and at a current build of 30 Ospreys per year, we are 
        replacing our CH-46E medium-lift helicopter squadrons at a rate 
        of two squadrons per year.
    Logistics Command and Control.--Global Combat Service Support 
System--Marine Corps is the cornerstone of our logistics modernization 
strategy.
  --The program is a portfolio of information technology systems that 
        will support logistics command and control, joint logistics 
        interoperability, secure access to information, and overall 
        visibility of logistics data. It will align Marine Corps 
        logistics with real-world challenges, where speed and 
        information have replaced mass and footprint as the foremost 
        attributes of combat operations; it will replace 30-year old 
        legacy supply and maintenance information technology systems; 
        and it will provide the backbone for all logistics information 
        for the MAGTF.

                                 VISION

    The current transnational struggle against violent extremism will 
not end anytime soon. Other threats--conventional and irregular--will 
continue to emerge and the complexity of the future operating 
environment will only increase. As we look to the future, we believe we 
must refocus on our core competencies, especially combined-arms 
training and operations at sea with the United States Navy.
    2010 Quadrennial Defense Review.--We believe the report from the 
Quadrennial Defense Review offers an accurate and informed analysis of 
the challenges in the future security environment, particularly with 
respect to growing complexity of hybrid threats and the spread of 
advanced anti-access capabilities.
  --We concur with the overarching need for a comprehensive and 
        balanced approach to national security--a whole of government 
        approach.
  --We agree with the need for a U.S. military that is balanced in 
        capabilities for irregular warfare and conventional conflict. 
        For the Marine Corps, we have always believed in such a 
        balance. Our equipment and major programs, and our means of 
        employment as an integrated MAGTF, reflect our commitment to be 
        flexible in the face of uncertainty. One hundred percent of our 
        procurement can be employed either in a hybrid conflict or in 
        conventional combat.
  --Finally, while our current focus is rightly on today's fights, we 
        believe it is critical that we do not underestimate the need to 
        maintain the ability to gain access in any contested region of 
        the world.
    Seabasing and the Navy-Marine Corps Team.--With oceans comprising 
about 70 percent of the earth's surface and the world's populations 
located primarily on the coasts, seabasing allows our Nation to conduct 
crucial joint operations from the sea.
  --Seabasing is a capability and a concept. It is the establishment of 
        a mobile port, airfield, and replenishment capability at sea 
        that supports operations ashore. In effect, seabasing moves 
        traditional land-based logistics functions offshore.
  --From the sea, U.S. forces will be able to conduct the full range of 
        military operations, from disaster relief and humanitarian 
        assistance to irregular warfare and major combat operations. 
        Sea-based logistics, sea-based fire support, and the use of the 
        ocean as a medium for tactical and operational maneuver permit 
        U.S. forces to move directly from sea to objectives ashore.
  --There are misperceptions that the United States has not conducted 
        an amphibious operation since Inchon during the Korean War in 
        1950. Since 1982, our Nation has conducted more than 100 
        amphibious operations. For example, the Navy-Marine Corps Team 
        has been on the scene in Bangladesh (1991), the Philippines 
        (1991), Liberia (1996), and East Timor (1999).
    --After 9/11, U.S. amphibious forces, from a seabase, led the first 
            conventional strikes against the Taliban in Afghanistan.
    --In 2004, the 15th Marine Expeditionary Unit was on station in 
            Southeast Asia to support the relief efforts after the 
            Tsunami.
    --In 2005, from a seabase in the Gulf of Mexico, the Navy and 
            Marine Corps supported recovery efforts after Hurricane 
            Katrina.
    --In 2009, off the coast of Somalia, when pirates boarded the 
            Maersk Alabama, the 13th Marine Expeditionary Unit and the 
            U.S.S. Boxer were on station to support the counterpiracy 
            operations.
  --Last month, with Haiti's airfield overwhelmed and their seaport 
        disabled by wreckage following the earthquake, the U.S.S. 
        Bataan Amphibious Ready Group and the 22nd Marine Expeditionary 
        Unit provided a significant and sustainable delivery of food, 
        water, and other supplies without the logistical burden ashore.
Seabasing--Maritime Prepositioning Force (MPF) Enhancements
    Critical to seabasing are the logistics vessels of the Maritime 
Prepositioning Force. As discussed in the Long-Range Plan for Naval 
Vessels, we have restructured our Maritime Prepositioned Force (Future) 
program and will enhance the current capabilities of each of our three 
existing Maritime Preposition Force Squadrons.
    One mobile landing platform (MLP), one Large Medium-Speed Roll-on/
Roll-off (LMSR) ship, and one Lewis and Clark class (T-AKE) cargo ship 
will be added to each squadron of the MPF.
    The MLP will interface with the LMSRs, which are being added to 
each MPF squadron from fiscal year 2009-11, thus providing the 
capability to transfer cargo while at sea and making each MPF squadron 
highly responsive to demands across the full-spectrum of operations.
    In summary, as the security environment grows more complex, so does 
the value of amphibious forces.
    Expeditionary Operations in the Littoral Domain.--The littoral 
domain is where the land and sea meet. This is where seaborne commerce 
originates and where most of the world lives. Littorals include 
straits--strategic chokepoints that offer potential control of the 
world's sea lanes of communication. The Navy-Marine Corps team and the 
vitality of the amphibious fleet is critical to overcoming anti-access 
challenges in locations along the coastlines of the world where there 
are no American military forces or basing agreements.
  --The QDR emphasized the need for U.S. naval forces to be capable of 
        robust forward presence and power projection operations, while 
        adding capability and capacity for working with a wide range of 
        partner navies. Amphibious forces are perfectly suited for 
        engagement and security force assistance missions, as well as 
        humanitarian missions such as are ongoing in Haiti. In short, 
        the strategic rebalancing directed in the QDR places high 
        demands on our amphibious forces.
  --Given the fiscal constraints facing the Department of the Navy, the 
        Secretary of the Navy, Chief of Naval Operations, and I agreed 
        that 33 amphibious ships represents the limit of acceptable 
        risk in meeting the 38-ship requirement we established in a 
        letter to the committee on January 7, 2009.
  --We currently have a 31-ship force in the U.S. amphibious fleet. The 
        Long-Range Plan for Naval Vessels projects a 33 ship amphibious 
        inventory in the near-term.
  --With a robust inventory of amphibious ships the Navy-Marine Corps 
        team will be able to:
    --Better address the growing steady state combatant commander 
            requirement for theater security cooperation, forward 
            presence, and crisis response.
    --Strengthen our Nation's relations with allied and partner 
            countries through peacetime engagement and training 
            exercises.
    --Better ensure our Nation is ready to respond with humanitarian 
            assistance when disaster strikes anywhere around the globe.
    --In the event of major conflict, improve our response time to gain 
            theater access with combat forces without having to rely on 
            basing agreements with foreign governments.
  --Finally, to clarify any misperceptions about the numbers of 
        amphibious ships cited in the 2010 QDR Report, those numbers of 
        ships are neither shipbuilding requirements nor targets; they 
        are simply statements of the amphibious ship numbers across the 
        fiscal year 2011-2015 future years defense program.\9\
---------------------------------------------------------------------------
    \9\ Department of Defense, Quadrennial Defense Review (QDR Report) 
(Washington, DC: Feb. 2010), p. xvi, 46.
---------------------------------------------------------------------------
Training, Education, and Professional Development
    ``Two-Fisted Fighters''.--The QDR Report calls for increased 
counterinsurgency capacity in the general purpose forces of the United 
States.\10\ The Marine Corps has long recognized the special skills 
required to operate with host nation forces and among local 
populations. Evidence of this dates back to the Marine Corps 
publications of Small Wars Operations (1935) and the Small Wars Manual 
(1940), both comprehensive texts on counterinsurgency operations and 
irregular warfare. Today, through standing Marine Corps organizations 
such as the Center for Advanced Operational Culture Learning and the 
Center for Irregular Warfare, and programs such as the International 
Affairs Officers Program, we continue to build capacity in foreign 
language, and regional and cultural skills.\11\
---------------------------------------------------------------------------
    \10\ Department of Defense, Quadrennial Defense Review (QDR Report) 
(Washington, DC: Feb. 2010), pp. 20-26.
    \11\ Each year, the Marine Corps selects officers for the 
International Affairs Officer Program, which consists of two 
professional tracks: Foreign Area Officer (FAO), and Regional Area 
Officer (RAO). The International Affairs Officer Program provides 
graduate-level study and language training for nine geographic areas. 
There are 329 international affairs officers on active duty (262 FAOs, 
67 RAOs). The officers in this program possess advanced knowledge and 
expertise in the language, culture, and political-military affairs of a 
given region. Since 2008, the Marine Corps has doubled the number of 
accessions in the FAO program, and accessions will continue to increase 
through 2015. Moreover, the Marine Corps provides mid-grade officers 
(major--lieutenant colonel) for the Afghanistan-Pakistan (AFPAK) Hands 
Program. Our current requirement is to provide 63 officers--three 
cohorts of 21 officers each.
---------------------------------------------------------------------------
    Leadership Development.--We recognize the need for a diversity of 
skills and specialties, and our standing guidance to promotion, 
command, and special selection boards is to give due consideration to 
personnel with special skills and non-traditional career patterns.
    Marine Corps University.--Annually, a percentage of Marine Corps 
officers from the rank of captain through colonel attend year-long 
resident courses in professional military education at Marine Corps 
University in Quantico. The Marine Corps University is regionally 
accredited to award postgraduate degrees and, in 2009 alone, University 
schools awarded 200 master's degrees.\12\
---------------------------------------------------------------------------
    \12\ The Marine Corps also has a separate, voluntary graduate 
education program, through which officers attend Naval Postgraduate 
School and other secondary institutions to obtain advanced degrees. 
There are 300 officer billets in the Marine Corps that require master's 
degrees. The Marine Corps also maintains an active fellowship program.
---------------------------------------------------------------------------
  --Facilities are an integral part of supporting professional military 
        education. To that end, the Marine Corps fiscal year 2011 
        military construction budget request includes funding for 
        additions in Quantico to the General Alfred M. Gray Research 
        Center and the Staff NCO Academy. These projects will support 
        our plan to upgrade the infrastructure of the Marine Corps 
        University.
    Acquisition Professionals.--The Marine Corps has an active 
acquisition professional program in place to meet the need identified 
in the QDR ``for technically trained personnel--cost estimators, 
systems engineers, and acquisition managers--to conduct effective 
oversight.'' \13\ There are about 520 acquisition billets in the Marine 
Corps--400 are entry and mid-level positions filled by enlisted Marines 
and officers, and 120 are senior-level acquisition professional 
positions filled by field grade officers who oversee our major ground 
and aviation programs. Our acquisition professional officers are 
members of the Defense Acquisition Community; they possess Level II 
certification, four years of acquisition experience, at least 24 
undergraduate credit hours in business.
---------------------------------------------------------------------------
    \13\ DOD, QDR, p. 76.
---------------------------------------------------------------------------
    Future Realignment of Marine Forces in the Pacific.--The 
governments of the United States and Japan have agreed to invest in a 
realignment of forces that will result in Marine Corps forces postured 
in the Pacific for a long-term presence on Japan, Guam, and Hawaii. 
Critical requisites to the implementation of this realignment are:
  --Japanese construction of a replacement for Marine Corps Air Station 
        Futenma that meets both operational and safety requirements.
  --An appropriate force laydown that supports the operational 
        requirements of the Commander, U.S. Pacific Command.
  --Adequate available airlift and sealift within theater to transport 
        Marines to training areas and partner countries.
  --Adequate training areas and ranges in Guam and the Northern Mariana 
        Islands that can maintain readiness as well as support security 
        cooperation with our regional partners.
  --An enduring, sustainable ``live where you work,'' base on Guam that 
        maximizes operational effectiveness, minimizes encroachment, 
        accommodates future development, and provides a quality of life 
        on Guam commensurate with any other U.S. base.
  --Continued political and financial support by the governments of the 
        United States and Japan.
    Refined planning and staff interaction processes within the 
Department of Defense have made significant contributions to our 
efforts to align these requirements. Planned and executed properly, 
this realignment effort will result in an enduring solution that 
provides forward deployed combat ready Marine forces to uphold our 
Nation's commitment to the security and stability of the Pacific 
region.
    Energy and Water Initiatives.--We believe energy and water are two 
of our Nation's most valuable resources. We are focused on improving 
our stewardship at our installations and on the battlefield.
  --Our Installations.--We have already gained efficiencies and 
        achieved savings at all our major installations. We have three 
        major goals:
    --From 2003-2015, reduce energy consumption by 30 percent.
    --Through 2020, reduce water consumption by 2 percent per year.
    --By 2020, increase the use of alternative energy at our 
            installations to 50 percent of the total energy consumed.
  --On the Battlefield.--Operations in Afghanistan have forced us to 
        reevaluate energy and water distribution and usage in 
        expeditionary environments. We believe the future security 
        environment will again require the Marine Corps to operate over 
        long distances in austere environments, and we are actively 
        pursuing a wide range of solutions to:
    --Lighten the combat load of our Marines and Sailors.
    --Reduce our overall footprint in current and future expeditionary 
            operations.
    --Lessen energy consumption and dependence on fossil fuels.
    --Achieve resource self-sufficiency in expeditionary environments.

                               CONCLUSION

    As a naval expeditionary force in the form of an elite air-ground 
team, the Marine Corps is ready and willing to go into harm's way on 
short notice and do what is necessary to make our country safe. America 
expects this of her Marines. In the complex and dangerous security 
environment of the future, the Marine Corps stands ready for the 
challenges ahead. We appreciate the continued support of Congress. 
Thank you again for this opportunity to report on the posture of your 
Marine Corps.

                       PRESIDENT'S BUDGET REQUEST

    Chairman Inouye. I will be submitting questions of a 
technical nature on weapons systems and ships, but I'd like to 
ask some broad questions.
    Mr. Secretary, you spoke very generously on the good things 
that we are providing, but I'm certain you have challenges. I'd 
like to know if you're really satisfied with the budget 
request.
    Mr. Mabus. Mr. Chairman, we are exceptionally satisfied 
with this budget request. We believe that the budget that has 
been submitted will allow us to do all the missions that we 
have been tasked to do. It will allow us to buy the equipment 
that we need for those missions. It will allow us to maintain 
the equipment that we have today, to make sure that it reaches 
the end of its lifecycle.
    The budget request that we have in, over the next 5 years, 
will buy, as the CNO said, an average of 10 ships per year, 
beginning to move our fleet toward the level that we believe it 
needs to be. In aircraft procurement, a little over 1,000 
aircraft over the 5 years to meet those requirements. In terms 
of people, this budget meets the needs for taking care of our 
sailors and marines, both in terms of deployed missions and 
also in terms of their families at home station. It also takes 
care of the research and development needs that we have to 
pursue to make sure that we continue to be at the forefront of 
new technologies and emerging weapon systems.
    So, we believe this is a very good budget. We believe that 
it will allow us to do everything that we need to do, and we 
believe that it was constructed using--making some hard 
choices, but making them in a way that ranked priorities and 
that all our high priorities have been met.
    Chairman Inouye. I'm pleased to listen to your response. It 
makes us feel better.

                               SHIP COUNT

    But, if I may ask the Admiral--I come from a State 
surrounded by the ocean, so Navy has been part of my life. And 
I recall, not too long ago--that about 25, 30 years ago--we 
were speaking of a 600-ship Navy. Now you have a 313 ship-for-
tomorrow's Navy. But, the Navy is all over the globe. In fact, 
just a few weeks ago, I was in Afghanistan, and there I saw 
Navy personnel--sailors and officers--right in the middle of 
Afghanistan, running a hospital, training troops.
    Do we have enough ships? Do we have enough equipment for 
all of these activities all over the world?
    Admiral Roughead. Thank you, Senator.
    And, as you pointed out, the objective that we have for the 
fleet size is of what I call the ``floor'' of 313 ships. Right 
now, we have 286. The shipbuilding program puts us on the 
trajectory to get to that 313 ship floor that is--that 
addresses the many needs that our Navy has around the globe. If 
we meet that floor of 313, I'm comfortable that we will be able 
to address the Nation's requirements.
    That said, that 313 ship floor must be of the proper 
balance to be able to meet the mission requirements, not just 
with the largest capital ships, such as our aircraft carriers, 
but the value that our submarine force provides is 
extraordinarily important. The amphibious ships that support 
our marines in their operations, that can also be used for some 
humanitarian activity, when we're called upon to do so, as we 
have been, seemingly, every year in the last decade. But, it's 
important to get to 313 ships. That will give us the capacity 
we need, but the balance must be right, to give us the 
capabilities that we need.

                                SUICIDES

    Chairman Inouye. The subcommittee's very impressed by your 
recruiting and retention numbers, but I must say, honestly, 
that we were set back a little when we read the numbers on 
suicides. Do you have anything to tell us about that?
    Admiral Roughead. Yes, sir. Suicide is a problem that all 
the services deal with. Indeed, I think society deals with.
    While it's too early, I think, to call it a trend, as a 
result of some of the programs that we have put in place, the 
engagement with leadership over the past few months, starting 
in January, we've seen some very encouraging signs, as suicide 
numbers in the Navy are not replicating what we had last year. 
In January, in our Active Force, we did not have a suicide. 
February--we are down from February of a year ago, and I can 
say the same for this year. But, it is something that requires 
a great deal of attention.
    The Navy's demographic is somewhat different, in that our 
suicides tend to be more senior. But, they have a common 
thread, for the most part: personal problems, personal issues. 
Mix the use of alcohol in with that and a firearm, and you have 
homed in on about 74 percent of our suicides. We are going to 
be relentless in getting at this problem. But, I do see some 
encouraging signs in where we have gone in the last few months 
in the Navy.
    Chairman Inouye. So, the suicide rates are not necessarily 
based upon deployment.
    Admiral Roughead. No, sir. And in our case, they are not 
necessarily driven by deployments. We've been looking for 
various correlations. As I mentioned, our demographic of 
suicides seem--they seem to be more senior, not necessarily 
deployment driven. However, if there is a suicide relative to a 
deployment, it--a higher probability occurs within 6 months of 
return. But, for the most part, ours are not a function of 
deployments. In many instances, we have young men and women who 
take their lives who have not deployed. So, we're looking at 
all the possible drivers and methods to get at this issue.

                 MARINE CORPS RECRUITING AND RETENTION

    Chairman Inouye. Thank you very much, Admiral.
    And, General, if I may. We're very much impressed by the 
activities of the Marine Corps. You're all over the globe.
    General Conway. Yes, sir.
    Chairman Inouye. You're in Haiti, you're in Afghanistan. 
But, yet, you're having no problems with recruiting and 
retaining. What's your secret?
    General Conway. Sir, I think there's a culture there that 
we provide to some very incredible young men and women in our 
country that simply makes them want to become marines.
    I--as I mentioned in my opening statement, the biggest 
problem I have, as the Commandant, is trying to find a way to 
get about 190,000 other marines who want to go to Afghanistan, 
to Afghanistan. And those are the nature of the people that we 
seem to attract.
    We work hard at it. I'll say that. We've got some 
tremendous recruiters in the field. I would in no way discount 
their efforts. We're tied into a very good advertising agency 
in New York City that's been with us now for, I guess, close to 
60 years.
    But, I just have to think, sir, that there's a great young 
strain of Americans out there that see the need to defend their 
country's vital interests, and are more than willing to step up 
to do so.

                   MARINE CORPS RESET/RECONSTITUTION

    Chairman Inouye. I note that, in your resetting and 
reconstituting of the Marine Corps, it's getting bigger, for 
one thing, and having different missions. Are you having 
problems with that change?
    General Conway. Sir, to the extent that we're not staying 
up with our equipment, we are. As I referenced in my opening 
statement, we have what I would call a ``rolling requirement.'' 
In other words, every day that we're in a fight in Afghanistan 
now, we're going to have equipment damaged, equipment that is 
undergoing some tremendous usage rates and those manner of 
things. There's equipment density there that we just have not 
seen before in previous conflict, based upon what we now would 
call our ``distributed operations'' that we're conducting today 
over large areas of landmass.
    Those marines at the point of the spear will have 
everything they need. But, in the process, the bill payers, 
which, for the most part, are our base and station units at 
home, are starting to see some real concerns with regard to the 
readiness rates.
    Congress has been, I think, generous in the past, it's fair 
to say. We were kept at about 75 percent of that requirement 
over the previous years. Today we're only at about 50 percent. 
Congress has told us that, when we are finished with that fight 
in Afghanistan, and, God forbid, any others, that there will be 
a 2- or a 3-year period where we can get healthy again, both 
the Army and the Marine Corps, principally, with regard to our 
equipment sets.
    But, I'll paraphrase my Secretary and say that I think our 
Nation is going to face hard choices at that point, based upon 
the national fiscal picture. And I would advocate, sir, that, 
before that time, starting as soon as possible, that we try to 
get caught up again and essentially do in-stride kinds of reset 
and reconstitution of our equipment sets.
    Chairman Inouye. Well, thank you very much.
    Senator Cochran.

                               TECHNOLOGY

    Senator Cochran. Mr. Chairman, thank you.
    Mr. Secretary, there is a lot of pressure on the budget, 
because of modernization efforts and things that are being 
planned to make our Navy and Marine Corps team more 
sophisticated, with newer component parts and advanced systems 
for both reconnaissance and combat activities that may be 
required of these services. What is the status of some of our 
efforts to take advantage of new technologies, like composites 
and polymer science initiatives, that provide us with more 
modern coatings for ships, and efficient operations? Is this 
something that is a part of our R&D effort that's funded in 
this budget? Or is more money needed to be appropriated for 
these kinds of activities to make us more modern and capable?
    Mr. Mabus. Senator, this--those kinds of activities are 
funded in this budget, and I'll give you some--a few specific 
examples of that.
    One is on energy savings, energy efficiency. We've done a 
lot of work and are continuing to do work on hull coatings and 
hull technologies, and particularly in the polymer area. When 
you combine that with some stern flaps and missions planning 
tools, you can cut down the use of fuel on our ships pretty 
substantially. The DDG 1000 program has a completely composite 
superstructure, for example. We're looking at other ways to use 
those sorts of technologies.
    The move toward polymers, toward different sorts of 
materials that are stronger, more resilient, that can withstand 
different sorts of pressures, is one of the focuses of what we 
are doing. It is--as always, the challenge is to make those 
requirements come into the budget and to--and one of the ways 
we're trying to do that is--as new technologies such as this 
come forward--is to incorporate them into existing designs, 
into existing hull forms, so that we don't have new ship 
classes coming out with the resultant more expensive first and 
second ships in the class.
    But, to finish the answer, things like new advances in 
polymers, and all across the spectrum of science, are something 
that we're focused on. We're asking for a little over $17 
billion in fiscal year 2011 to continue the R&D in all sorts of 
areas, but polymers is certainly one of those.
    Senator Cochran. General Conway, I recently had an 
opportunity to be briefed and see a--some demonstration 
techniques of new bullet-resistant vests and body armor, I 
guess you could call it. It didn't look like old-timey armor. 
You didn't--you couldn't tell by looking at the material that 
it had the capability of resisting injury from fired weapons. 
Is this something the Marine Corps is involved in? And to what 
extent are our troops benefiting from research and development 
of new capabilities for defense of this kind?
    General Conway. Sir, the short answer to your question is 
that we're heavily involved in it. And as an adjunct to, again, 
the Secretary's answer, we are branching out, as it pertains to 
our equipment, to try to accomplish better sets of gear through 
advanced technology. And I'll give you two or three examples.
    We have endeavored to find a helmet, since I've been the 
Commandant, that will stop 7.62 caliber rounds, which is the 
enemy's primary rifle bullet. We're close, but we're not there 
yet. And yet, it is, in many regards, my number one procurement 
priority. It's simply a matter of technology and industry being 
able to put the polymers together, we think, and make it work.
    Now, to your point on protection in vests. We have, now, 
what we call ``small arms protective insert (SAPI) plates.'' 
There's an enhanced SAPI plate, and there's even an X-SAPI out 
there that will stop, supposedly, Chinese ceramic bullets. 
Well, sir, I've never seen a Chinese ceramic bullet, and we're 
not willing to forego the weight that that extra plate would 
create. So, we're looking for lightweight kinds of 
technological advancement that will, ideally, be flexible and 
give us the same level of protection that we have today in 
these fairly heavy and very rigid plates.
    Another area is the joint light tactical vehicle. It was 
going to be light because it was going to have new age armor, 
as opposed to plated steel. And yet, again, for all of the 
expense and resources that we apply against it, industry tells 
us that we're probably still 5 years away from that type of 
development.
    So, sir, we're pushing hard for those things that we think 
will enhance the force, but in some ways, the science is just 
not there.
    Senator Cochran. Well, we don't want to drop the ball here 
on this side of the table, either. If we need additional 
funding or some priority readjustments, we hope you'll 
communicate that with us in the appropriate way.
    General Conway. Thank you, sir.

                    SHIP COUNT/MISSION REQUIREMENTS

    Senator Cochran. Admiral Roughead, you had experienced that 
on the Mississippi gulf coast, I know, when you were commanding 
officer of a ship that was built at Ingalls, when we first got 
to meet you, and we appreciate your distinguished service as 
Chief of Naval Operations.
    Now, what is the status of the readiness of our ship -- the 
obligations and needs of our Navy vessels? Do we have enough 
ships? Is our construction schedule sufficient to enable us to 
carry out our responsibilities around the world?
    Admiral Roughead. Thank you, Senator.
    And I would say that, until we get to the floor of 313 
ships, we're going to be pressing the fleet that we have today 
pretty hard, as we currently are doing. But, the shipbuilding 
program that we have presented to this subcommittee puts us on 
that proper trajectory.
    I would say that there are two elements in there that are 
key to the future. One is the restart of the DDG 51 class 
destroyer. That allows us to address the ballistic missile 
threats that are proliferating around the world, as well as the 
more advanced cruise missiles. The restart of that class of 
ship gives us the capabilities we need, and then it allows us 
to backfit that rather large class. So, now we have the 
capacity that is so very important, and then--and we have the 
capability that's there.
    The other element that's going to be extremely important is 
that we get to a good, quick, clean down-select, so that we can 
begin to produce littoral combat ships in the numbers that we 
need to meet the obligations that we have around the world. 
That ship, whatever design it may be, is going to be a 
workhorse for us, and it will generate the numbers that we 
need.
    I'm also very pleased that this year's budget starts the 
production of two Virginia class submarines a year. Submarines 
remain in great demand. Submarines are a capability that gives 
us a cutting edge in naval warfare, and the Virginia class 
submarine that we're building now is an extraordinary 
submarine.
    But, I would also say there's something more that gets to 
force structure, and that is our operation and maintenance 
account. It's all very interesting to look at how many ships 
we're buying and building a year, but if we do not maintain the 
fleet that we have today, then those numbers will be 
disappearing from the books faster than we expected, and our 
fleet size will begin to drop off. And that's why it's 
important that we properly fund the fleet that we have today, 
with our operation and maintenance accounts.
    I'm a fleet sailor, and I have paid a great deal of 
attention, since becoming the CNO on what does it cost to 
maintain the fleet that we have today, to get the life we need, 
to get the readiness that we need, and not put work on the 
backs of our sailors because we're not properly funding 
shipyard maintenance. And so, this year's budget has a 
significant increase in it. That increase is the cost that we 
need to maintain the fleet that we have today. And that is 
something that I ask for your strong support in, sir.
    Senator Cochran. Well, thank you very much for your 
leadership and your response to our questions.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bond.

                                AVIATION

    Senator Bond. Thank you very much, Mr. Chairman.
    Mr. Secretary, I applaud your statement about demanding on-
time, on-budget acquisition, that you would terminate a program 
that was substandard or with a cost escalation, much as I said 
in my opening statement, quoting the Secretary of Defense. I 
trust that you either watch or read the transcript of the F-35 
hearing held last Thursday. Stated many times by witnesses 
that, best-case scenario, ``if everything goes perfect,'' the 
Navy's JSF will be in initial operating capability, IOC, in 
2016. It was also stated that the Navy Strike Fighter shortfall 
of 100 is no longer accurate, since the JSF restructuring plan. 
And as far as budget--cost escalation, I believe an accurate 
cost accounting would show that the JSF not only has breached 
the initial threshold of Nunn-McCurdy, but will have gone past 
it. If it hasn't, it will be soon. When you're taking 
production dollars to go into continued testing, something is 
very wrong. And knowing these facts, do you think the Navy need 
only purchase F/A-18s on a year-by-year, case-by-case basis, or 
would it better to enter into a multiyear contract which would 
save hundreds of millions of dollars for American taxpayers?
    Mr. Mabus. Thank you, Senator.
    Because of the--what Congress has provided to the Navy in 
fiscal year 2010, in terms of F/A-18s, both E, Fs, and Gs, and 
our budget request, which, counting fiscal year 2010, is for 
124 F/A-18 E, F, and Gs, we received, the last week of 
February, a proposal from the contractor for a multiyear 
procurement. Congress had allowed us to look at a multiyear 
procurement on the F/A-18. That proposal, on its face, met the 
10-percent savings requirement for a multiyear, but it is, 
right now, in--looking at the details to make sure that the 
requirements are met, it's with the Cost Analysis and Program 
Evaluation Office in DOD. Assuming that those thresholds for a 
multiyear procurement are met, we would be very eager to enter 
into a multiyear, and we'll be coming back to Congress to ask 
for permission to do that, assuming those thresholds are met.
    Senator Bond. Thank you very much, Mr. Secretary.
    I think the only requirement that Congress would put on you 
is substantial savings. I don't know--I believe that 10 percent 
is a figure that the Defense Department has come up with; I 
don't think it is a statutory requirement. But, in any event, 
so long as you would see a substantial savings, I would think 
it would be a good investment.
    Admiral, given the conditions of last year and the TACAIR 
shortfall, if you don't continue, with major purchases of the 
F/A-18s, to address the shortfall, what will the shortfall for 
the Navy's carriers be by about 2015 or some period along in 
there? Do you have that information?
    Admiral Roughead. Yes, sir. We're still looking at the 
shortfall of being in that area, around 100. And the reason I 
say that is that, even though we have slipped the JSF in what 
appears to be a calendar slip of 2 years--2014 to 2016--it 
really looks to be about 13 months, because we're going from 
December 2014 to January 2016. That still allows us to deploy 
the Joint Strike Fighter in 2016, as we planned. It deploys 
first on one of our Pacific Fleet carriers. But, we're 
continuing to look at the Joint Strike Fighter production.
    We, in the Navy, have somewhat of an advantage, because 
we're the third service in line to get it. So, a lot of the 
testing that will go forward early on Joint Strike Fighter, 
we'll be benefiting from that. And we're looking at getting the 
IOC in January 2016.
    Senator Bond. It's interesting you say that, because last 
year at Souda Bay, I talked with a master chief petty officer 
who was very familiar with it, and he thought that the JSF will 
never operate off of a carrier, because of the backblast and a 
lack of operating--of area to service the airplane. So, I think 
the testing is continuing, but I think there's a final question 
of whether it will work on shipboard.
    Now, I know that there's been a proposal for service-life 
extension. And are you considering that? I gather it will add 
only about 1,400 hours to an older Hornet, which is at $26--
$18--$12 to $26 million, it would be about one-half of a Super 
Hornet. If you're considering a service life extension program 
(SLEP), isn't a purchase of a new aircraft a better option, 
better bargain for the taxpayers?
    Admiral Roughead. Senator, if I could just touch on the--
comment on the Joint Strike Fighter on the carrier. Our 
carrier--the carrier variant of the Joint Strike Fighter is 
compatible with carrier operations. I think the chief may have 
been talking about the short takeoff and landing aircraft. But, 
our carrier variant is compatible. We may have to make some 
adjustments to the jet-blast deflector that we use in the 
launch of the airplane, but it's compatible.
    With regard to the Service Life Extension Program, as we go 
into the 2012 budget, we're going to be taking a very, very 
close look at the--managing the strike fighters that we have. 
SLEP is where I'm going to be looking, because I can generate 
more strike fighters at less cost for a period of time to do 
that. And that's something that we're going to be getting into 
in the 2012 budget.
    Senator Bond. Well, we appreciate that you're looking at 
that.
    And, Mr. Chairman, I'd like to submit for the record, a 
letter I have written to the Secretary of Defense today which 
addresses these issues that I have raised.
    And I thank you very much.
    Chairman Inouye. So ordered.
    Senator Bond. Thank our witnesses very much.
    [The information follows:]
                                                    March 17, 2010.
The Honorable Robert M. Gates,
Secretary of Defense, The Pentagon,
Washington, D.C. 20301-1000.
    Dear Mr. Secretary: On February 26, 2010, the Department of Defense 
(DOD) wrote to the Senate Appropriations Defense Subcommittee its 
intentions to explore a multi-year procurement agreement for the 
purchase of F/A-18 series aircraft for fiscal years 2010 through 2013. 
I applaud the Department of the Navy for considering a multi-year 
procurement, a prudent move that would prevent the Navy from having 
empty carrier decks, save hundreds of millions in valuable taxpayer 
dollars, and maintain the strength of the United States defense 
industrial base.
    As you know, the F/A-18 Hornets and Super Hornets are the backbone 
of the carrier-based strike fighter aviation fleet. These aircraft are 
providing support for our warfighters through close air support 
missions to ground forces with an unmatched deterrent capability. The 
F/A-18 aircraft continues to be the Navy's only strike fighter with 
advanced air-to-ground and air-to-air operational capability. The 
continued procurement of these aircraft is necessary to continue the 
Navy's warfighting operations.
    The majority of the F/A-18 Super Hornet aircraft have been 
purchased under two, multi-year procurements this past decade. With 
significant savings achieved from long-lead production and higher 
procurement rates, these agreements saved hundreds of millions of 
taxpayer dollars compared to more costly single-year procurements. The 
Navy's own estimate stated that the multi-year procurements from fiscal 
year 2000 through fiscal year 2009 resulted in over $1.8 billion in 
savings. A third multi-year procurement agreement could save hundreds 
of millions more in taxpayer dollars, all of which could be applied to 
other pressing defense requirements.
    A third multi-year procurement for the F/A-18 Super Hornet aircraft 
also would ensure that the defense industrial base for tactical 
aviation is maintained through at least fiscal year 2013. In order for 
the United States military to maintain its current air dominance, the 
skills and experience of the aviation manufacturing sector must be 
protected for as long as possible into the future rather than 
curtailed.
    I strongly urge that you and the Department of the Navy take 
aggressive steps to enter into a multi-year procurement for the F/A-18 
Super Hornet aircraft. I stand ready to assist you in that effort.
            Sincerely,
                                               Christopher S. Bond.

    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                          LITTORAL COMBAT SHIP

    Mr. Secretary, I'm going to get into the littoral combat 
ship that the Admiral alluded to. A lot of us are concerned, 
Mr. Secretary, that the pending request for proposal for the 
next 10 littoral combat ships does not appear to take 
capability and lifecycle costs into consideration. The upfront 
acquisition price of the LCS, I believe, must be balanced 
against total ownership expenditures, and neglecting to 
evaluate these criteria may result in an inaccurate picture of 
the total costs associated with each ship.
    I'm concerned, Mr. Secretary, about fuel efficiency, which 
is a big cost--you mentioned this earlier, over in the Armed 
Services Committee--being a critical factor of competitive cost 
evaluation. The two LCS designs are dramatically different in 
this respect, as you well know.
    Now, it's my understanding--if the request for proposal is 
not amended, it would appear that the acquisition would go 
forward in a direct contradiction to the statement that you 
made before the Senate Armed Services Committee on February 25 
that said, and I'll quote your words, ``I have also committed 
the Navy and Marine Corps to consider energy as a mandatory 
evaluation factor in contracting.'' I'd like to see the request 
for proposal (RFP) amended, if it needs to be, to include an 
evaluation factor that provides for the consideration, as you 
mentioned, of energy consumption costs in the valuation and the 
source selection decision.
    As my letter to you on March 12 of this year stated, I've 
asked the Congressional Budget Office to review and to address 
the total lifecycle costs of the LCS Program. We haven't gotten 
a response yet. Would you consider extending the April 12 
submission date, considering your statement to the Armed 
Services Committee and our request to the Congressional Budget 
Office regarding this? Because, what we want is the best vessel 
for the Navy. Isn't that right? And you have to consider all 
costs.
    Mr. Mabus. Thank you, Senator. Yes, sir, in terms of total 
ownership cost, the entire LCS was designed with that in mind. 
And we believe that the current RFP addresses the need for the 
Navy to get the best ship possible. Either variant, either LCS 
1 or LCS 2, meets all the requirements that the Navy has, in 
terms of operation. And in terms of total ownership cost, if 
you look at everything, from the manning of the vessel, which, 
as you know, is about 40 sailors for the core crew, and the 
other things that go into total ownership cost, if you look 
also at the way these ships are to be used--at the profile the 
speeds that they will be used at while they're at sea--where 
the fuel savings diverge is only at the very upper end of the 
speed of these ships.
    Senator Shelby. But, that could be a lot of money, could it 
not?
    Mr. Mabus. Well, the profile that we've developed for these 
ships is that they would be used very infrequently at such high 
speeds. And so, I think that the current RFP, which stresses 
the cost to purchase the ship so that we can get enough of 
these ships--and both variants, we believe, meet every 
requirement that we have, not only operationally, but also in 
terms of lifecycle costs, going forward.
    Senator Shelby. Mr. Secretary, where, in the request for 
proposal for the year 2010 LCS procurement, does the Navy 
consider the fuel differential in dollars between the two 
competing designs over the expected life of the program? Can 
you furnish this to me and for the subcommittee?
    Mr. Mabus. I'll be happy to furnish you the technical 
aspects of that RFP.
    [The information follows:]

    The request for proposal (RFP) for the littoral combat ship 
(LCS) fiscal year 2010 block buy procurement does not 
specifically consider the fuel differential in dollars between 
the two competing designs.
    The RFP includes an evaluation factor under the technical/
management category for Life Cycle Cost Reduction Initiatives. 
Since the inception of the LCS program, the Navy has focused on 
reducing both acquisition cost and life cycle cost in LCS class 
ships. In this regard, lifecycle cost considerations are 
emphasized in both designs through the Navy's requirements for 
reduced manning, open architecture and missing package 
modularity that have been key design parameters since the 
inception of the program. Total Ownership considers research 
and development costs, investment costs, disposal costs, and 
operating and support costs including maintenance, manning, 
training, fuel, and infrastructure support. Fuel costs are an 
important contributor to the estimated life cycle cost for each 
ship design, but are also highly dependent on the speed-time 
profile assumed for the LCS mission.

    Senator Shelby. That would be very interesting to get, 
because we're interested in the total lifecycle cost. And you 
stand by your words, do you not, before the Armed Services 
Committee?
    Mr. Mabus. Yes, sir.
    Senator Shelby. Okay.
    Mr. Mabus. And not only total lifecycle cost, in terms of 
manufacturing, but also what energy requirements the shipyards 
themselves use. That was the import of my words----
    Senator Shelby. Okay.
    Mr. Mabus [continuing]. Before the Armed Services 
Committee.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Kohl.
    Senator Kohl. Thank you very much, Mr. Chairman.
    Mr. Secretary and Admiral Roughead and General Conway, we 
thank you all for being here today.
    I'd like to congratulate the Navy on the successes the 
Marinette-built littoral combat ship, U.S.S. Freedom, has had 
in the Caribbean. It's already making a great contribution to 
the war on drugs, and you should be very proud; I know 
everybody in Wisconsin is.
    Just to review the previous questioning, Mr. Secretary, 
there are a lot of concerns being raised about the total 
ownership costs of the two competing LCS designs. And that, of 
course, is a fair thing to do, because we all want taxpayer 
dollars to be spent wisely. But, aren't long-term costs already 
a part of the criteria that you will be using to evaluate these 
designs, which does include fuel consumption? I think you 
responded to the previous question that way.
    Mr. Mabus. Yes, sir, that's correct.
    Senator Kohl. As far as fuel efficiency goes, don't you now 
have real data on the first LCS, Freedom, and its fuel 
consumption, not just estimates? Is the ship's fuel consumption 
about what you expected?
    Mr. Mabus. Yes, sir.
    Senator Kohl. Mr. Secretary, one of the concerns, as well, 
has been the experimental nature of the Austal ship design and 
use of aluminum as a building material. Aluminum is not 
traditional for Navy ships; it wears differently, and it melts, 
as we know, at lower temperatures. Compared to steel 
construction, how much experience does the Navy have estimating 
the maintenance costs, over decades, of aluminum ships? How 
much experience do you have evaluating the maintenance 
requirements Trimaran vessels?
    Mr. Mabus. In terms of aluminum, Senator, other ship types 
have been made out of aluminum for many years now. And looking 
at other ships that have been made this way, we have been able, 
we think, to look at what that will--what sort of maintenance 
will be required over time. And it's because of things like 
that that we think that either variant of these--of the LCS 
will meet all our requirements, both in terms, as I said, of 
operations and in terms of lifecycle costs and maintenance, as 
we go forward. We don't foresee any significant issues for 
either variant.
    And as the CNO said, and I want to echo this, it's crucial 
to us to get the cost of these ships down so that we can buy 
the numbers that we need. We, over the 30-year shipbuilding 
plan, propose to buy 55 of these. They have become one of the 
backbones of the fleet. And we're taking this exceptionally 
seriously, and we will pick the best ship for the Navy today 
and the Navy of the future.
    Senator Kohl. Thank you.
    Aren't aluminum ships, Mr. Secretary, more expensive to 
fix, in part because not all shipyards have welders, or enough 
welders, trained to work on aluminum?
    Mr. Mabus. My understanding, Senator, is that welding for 
aluminum and welding for steel are very similar, and that the 
training required to do aluminum could be done in a normal 
course of events.
    Senator Kohl. Finally, I'd like to say, in closing, that 
this is an argument, as we know, about cost, but one of these 
ships, because of its radical design and nontraditional 
material, I believe, makes it riskier and harder to determine 
the long-term costs. It seems, in a very real sense, that we're 
comparing apples and oranges.
    But, I thank you for your testimony. I thank you for your 
frankness and your interest and your concern in making the 
correct decision.
    Thank you, Mr. Chairman.
    Mr. Mabus. Thank you, Senator.

                          WOMEN ON SUBMARINES

    Chairman Inouye. Thank you very much.
    I have one further question.
    I participated in an ancient war many years ago, and in 
that war, the women I saw were nurses, far away from the combat 
zone. But, today we have women in all branches, in all areas, 
and I commend the Department of Defense for that decision. 
However, recently, I've been receiving e-mail and letters on 
the decision to assign women on submarines. May I have your 
thoughts on that, sir? Admiral?
    Admiral Roughead. Yes, sir. I believe that the initiative 
that we have put forth, and have made notification to the 
Congress, that it's our intent to incorporate women into our 
submarine force, is exactly the right thing to do. The young 
women who serve in the Navy today are absolutely extraordinary. 
There is great interest among the young women who serve, in 
joining our submarine force.
    In fact, just this past weekend, I was at a function, and a 
young woman came up and thanked the leadership for moving 
forward, and that she was putting in her papers to join.
    We have a very good plan to incorporate women into our 
submarine force, starting with our ballistic missile submarines 
and our guided missile submarines, the SSBNs and the SSGNs. The 
young women will begin in the officer ranks, attend nuclear 
power school, submarine school, and the plan has the first 
women coming aboard in 2011.
    The skill, the competence, the drive, the focus, and the 
dedication of the young women who serve today, I believe that 
this will enhance the capabilities of the force, and I look 
forward to being able to have this implemented before the end 
of 2011.
    Chairman Inouye. I thank you very much, and I congratulate 
you on your decision.
    Admiral Roughead. Thank you, sir.
    Chairman Inouye. Any further questions?

                     ADDITIONAL COMMITTEE QUESTIONS

    If not, Secretary Mabus, Admiral Roughead, General Conway, 
the subcommittee thanks you for your testimony today, and we 
thank you for your service to our country. And if we may, 
through you, thank the men and women in uniform who are willing 
to stand in harm's way in behalf of us.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye

    Question. This year, the Navy began a major development effort on a 
new ballistic missile submarine to replace the aging Ohio-class. Nearly 
$6 billion is committed to designing the submarine over the next 5 
years, and the cost of each submarine is expected to be $7 billion.
    Secretary Mabus, the Navy's 30 Year Shipbuilding Plan projects an 
average of $15.9 billion in shipbuilding costs over the next three 
decades. What steps are being taken to insure that the new ballistic 
missile submarine will be affordable?
    Answer. Fiscal year 2011 funding continues the major U.S. 
investment in the Ohio-class replacement submarine started in fiscal 
year 2010. The key to an affordable future sea-based strategic 
deterrence fleet is the proper level of investment now in early design 
work and up-front critical research and development.
    Current efforts leverage a United Kingdom (U.K.) investment of $288 
million (fiscal year 2008-fiscal year 2010), and synchronize with the 
U.K. efforts to develop a Common Missile Compartment (CMC). Cooperation 
with the U.K. mitigates technical risk and contributes to reducing 
acquisition cost.
    The Ohio Replacement Program will also leverage design and 
construction lessons learned and ongoing cost reduction initiatives 
from the Virginia Class Submarine Program.
    The Navy is managing the shipbuilding portfolio as a business unit 
and is looking for ways to better leverage its buying power, such as:
  --Leverage cost savings and value creation on basis of broader 
        business arrangements across contracts and shipyards.
  --Evaluate each ship class and identify cost reduction opportunities 
        while balancing warfighting requirements, costs, and industrial 
        base realities.
  --Incorporate open architecture for hardware and software systems and 
        increase the use of systems modularity.
  --Emphasize repeat builds of ships, commonality, cross-program buys, 
        and design re-use to drive down costs.
  --Use contract incentives, such as multi-year procurements, fixed 
        price contracts, and other mechanisms to increase competition 
        at the vendor level.
    Question. Secretary Mabus, as you know, the Subcommittee has 
supported the Navy's decision to end procurement of the DDG 1000 
program and restart the DDG 51 program. I understand that in addition 
to restarting the DDG 51 program, the Navy now proposes to terminate 
the next generation cruiser in order to build an improved version of 
the DDG 51, the so-called Flight III.
    What are the industrial-base consequences of canceling the cruiser 
and instead building improved DDG-51's?
    Answer. The President's budget for fiscal year 2011 includes eight 
DDG 51 class ships, to be procured between 2011 and 2015. This 
shipbuilding plan, combined with the continued technology development 
of the Air and Missile Defense Radar (AMDR), offsets the industrial 
base consequences of canceling the next generation cruiser CG(X) and 
ensures stability for the industrial base in procuring future Navy 
surface combatants. CG(X) was envisioned to fulfill a critical role in 
Integrated Air and Missile Defense (IAMD). However, due to the ship's 
projected high cost and the immaturity of its combat systems technology 
and still evolving joint Ballistic Missile Defense (BMD) architecture, 
the Navy determined that it is not feasible to continue to pursue a 
new-design CG(X) procurement program at this time. The increased 
demands for additional capability and capacity in IAMD make it critical 
to pursue the technology development and combat system design for 
application on a future combatant.
    Question. Secretary Mabus, you listed alternative energy as one of 
your top priorities upon taking office. This Committee has added more 
than $54 million over the past 3 years to Navy alternative energy 
initiatives and similar amounts to the other Services as well. This 
does not even begin to count the many dozens of alternative energy and 
energy efficiency earmarks the Congress has approved in the same 
period, or the substantial amounts of alternative energy funding 
contained in the stimulus bill.
    Could you please describe to the Committee your top energy 
initiatives, and how the fiscal year 2011 budget supports your plan?
    Answer. In October 2009, I established five energy goals within the 
Department of Navy (DON) that would aggressively reduce the amount of 
foreign oil consumed by DON:
  --1. Acquisition Process Reform.--Evaluation factors when awarding 
        contracts for platforms, weapons systems, and facilities will 
        include lifecycle energy costs, fully-burdened cost of fuel, 
        and contractors' energy footprint;
  --2. Sail the ``Great Green Fleet''.--Demonstrate a Green Strike 
        Group in local operations by 2012 and sail it in 2016. The 
        Strike Group will be made up of nuclear vessels, surface 
        combatant ships using biofuels and hybrid electric propulsion 
        systems, and aircraft flying on biofuels;
  --3. Reduce Petroleum Use in Non-Tactical Vehicles.--By 2015, reduce 
        petroleum use by 50 percent in commercial fleet through use of 
        flex fuel vehicles, hybrid electric vehicles, and neighborhood 
        electric vehicles;
  --4. Increase Alternative Energy use Ashore.--By 2020, produce at 
        least 50 percent of shore-based requirements from alternative 
        resources and 50 percent of all Naval installations will be Net 
        Zero energy consumers;
  --5. Increase Alternative Energy Use Department Wide.--By 2020, 50 
        percent of total energy consumption will come from alternative 
        resources.
    The President's fiscal year 2011 budget request includes an 
additional $174 million to support these goals. The following describes 
this investment in detail:
Research, Development, Testing and Evaluation--$40.9 million
    $7 million supports the Naval variable cycle engine technology 
program, which is focused on optimizing aviation engine performance at 
all operational conditions. This energy efficiency effort supports 
goals 2 and 5.
    $13.6 million for the Hybrid Electric Drive. The operating 
efficiency/fuel savings for DDG 51 class ships will be achieved by 
employing fewer gas turbines for propulsion and ship service power 
generation while also loading gas turbines to their optimal operating 
condition. The Hybrid Electric Drive supports goal 2.
    $20.3 million will fund various energy conservation programs in 
support of goals 2 and 5:
    --$1 million to establish an Incentivized-Energy Conservation (I-
            ENCON) for aviation programs.
    --$1.2 million to support a fleet scheduler plan in the Naval Ship 
            Incentivized-Energy Conservation (I-ENCON).
    --$8 million to enhance F414 Engine Efficiency.
    --$3 million supports Aircraft Energy Efficiency Conservation R&D, 
            including:
      -- T-56 turbine, compressor, and inlet housing upgrades;
      -- Development and testing of F/A-18 E/F flight management 
            system.
    --$2 million supports the F/A-18 Bring Back Weight initiative to 
            certify F/A-18E/F & E/A-18G aircraft structures to increase 
            carrier bring back weight.
    --$2.9 million supports high energy efficient HVAC systems.
    --$2.2 million supports improvements to the LCAC hovercraft.
    In addition to the $40.9 million outlined above, the Office of 
Naval Research will invest $136 million in fiscal year 2011 for power 
and energy programs that directly and indirectly support my energy 
initiatives, including a PB 2011 energy initiative focused primarily on 
alternative energy and biofuels. This investment will support goals 2, 
3, 4, and 5.
Procurement--$4.2 million
    $2.1 million for Navy variant Environmental Control Units (ECUs) to 
provide improved generator capabilities (to reduce log tail in 
theater).
    $2.1 million for Onboard Vehicle Power capability to use vehicles' 
internal combustion engine to provide power for communication and 
auxiliary systems, situational awareness devices, environmental 
control, and other electric powered accessories.
    These efforts support goals 3 and 5.
Operation and Maintenance--$96 million
    Will fund advanced metering efforts, facilities energy efficiency 
upgrades, and continue energy audits, all in support of goals 4 and 5.
National Defense Sealift Fund--$3.3 million
    Includes Military Sealift Command's initiatives to include Energy 
Audits and evaluation of other technology currently being used by the 
shipping industry to more efficiently plan routes, monitor energy 
usage, realize cost savings for fuel burned reaching ships in theater. 
These efforts support goals 2, 4, and 5.
Military Construction--$30 million
    Three $10 million solar arrays will be constructed at MCRD San 
Diego, California; MCB Camp Pendleton, California; and MCB Camp 
Lejeune, North Carolina. These projects support goals 4 and 5.
    Question. Secretary Mabus, are there enough engineers and tradesmen 
trained in ``green collar jobs'' to support your goals for increasing 
energy efficiency and research into alternative power sources?
    Answer. Yes, I do believe there will be enough engineers and 
tradesmen trained in ``green collar jobs'' to support the ambitious 
goals I have announced within the Department of the Navy. Our Navy 
engineers and architects have years of experience incorporating 
sustainable principles such as the Leadership in Energy and 
Environmental Design (LEED) Green Building Rating System. As this new 
economy emerges, the Department of Labor is providing over $500 million 
in grants, as part of the American Recovery and Reinvestment Act 
initiative, to fund workforce development projects that promote 
economic growth by preparing workers for careers in the energy 
efficiency and renewable energy industries. Additionally at the 
Department of Veterans Affairs, a new program called Veterans Green 
Jobs (VGJ) is teaching returning veterans to become leaders in creating 
a more secure and sustainable future for the United States.
    All across the United States universities, community colleges, and 
vocational technical institutions, are developing curriculum to address 
this new and exciting field. This emphasis on Green Collar Jobs is 
being embraced in both the public and private sector. Businesses see an 
improvement in their bottom line, through energy cost savings and by 
going green, which causes a ripple effect throughout the supply system. 
By working together, and with the Department of the Navy taking the 
lead, the United States will move away from dependence on fossil fuels 
and move toward a more secure energy future.
    Question. Secretary Mabus, last year the Congress approved multi-
year procurement authority for the F/A-18 aircraft. What is Navy doing 
to follow up on that course of action?
    Answer. The Navy is actively working with the prime contractor and 
OSD to determine if sufficient savings are available through a multi-
year acquisition contract.
    As described in the February 26, 2010, letter from Deputy Secretary 
of Defense to the committees, within the last few months, the 
Department's procurement profile for the F/A-18 increased by 35 
aircraft and extended the final year of procurement from 2012 to 2013. 
The prime contractor provided a viable offer committing to a multi-year 
procurement on February 22, 2010. The Director, Cost Analysis and 
Program Evaluation (CAPE), is currently conducting a cost analysis of 
the potential savings of a multi-year versus single year procurement, 
as required by statute.
    If sufficient savings are identified, the Secretary of the Defense 
will certify to Congress the amount of savings and notify Congress of 
its intent to enter into a multi-year procurement (MYP). In addition, 
Navy is working with the committee staffs for legislative relief to 
fiscal year 2010 MYP language in National Defense Authorization Act and 
Defense Appropriations Bills.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

    Question. Secretary Mabus, there has been some advocacy for 
additional funding outside the normal shipbuilding budget to fund a new 
ballistic missile submarine fleet. If the Navy does not receive 
additional funding for the project in the coming years, do you foresee 
the $80 billion or more cost of the program forcing big shipbuilding 
cuts and triggering industry consolidations?
    Answer. Recapitalizing the SSBN force with funding from the SCN 
core budget will impact the Navy shipbuilding programs (fiscal year 
2019-fiscal year 2033). In total, the Department of the Navy's annual 
SCN and NDSF budgets average approximately $15.9 billion per year 
(fiscal year 2010 dollars) throughout the period of the fiscal year 
2011 Annual Long-Range Plan for Construction of Naval Vessels.
    Because of the expected costs for these important national assets, 
annual SCN budgets during the mid-term planning period (fiscal year 
2021-fiscal year 2030) will average about $17.9 billion (fiscal year 
2010 dollars) per year, or about $2 billion more than the steady-state 
30-year average. Even at this funding level, the total number of ships 
built per year will inevitably fall because of the percentage of the 
shipbuilding account which must be allocated for the procurement of the 
SSBN.
    As a result of the limited shipbuilding and the rapid retirement of 
ships built in the 1980s, after peaking at 320 ships in fiscal year 
2024, the overall size of the battle force is forecast to gradually 
fall, reaching 288 ships in fiscal year 2032.
    In the far-term planning period (fiscal year 2031-fiscal year 
2040), average SCN budgets return to about $15.3 billion (fiscal year 
2010 dollars) average per year. After the final order for Ohio class 
replacement in fiscal year 2033, the average inventory per year begins 
to rebound from a low of 288 ships in fiscal year 2032 to 301 ships in 
fiscal year 2040.
    The need to fund SSBN recapitalization will result in some risk to 
the Navy's shipbuilding plan. Given the expected challenges of the mid 
and far term periods, significant consideration must be given to 
ascertain the way ahead for the Navy. DON will have to consider 
operational demands that could change force structure requirements as 
well as inherent technology requirements of future platforms and the 
effect they have on platform cost. Additionally, we will need to 
complete an analysis of force structure requirements over the next 
decade as we get a better understanding of what threats and obstacles 
lie in front of us to determine what the complexion of the 2040 force 
ought to look like and the efficacy of the planned force in meeting 
those challenges.
    The Navy recognizes that stabilizing ship procurement to help 
sustain minimum employment levels and skill retention promotes a 
healthy U.S. shipbuilding industrial base.
    The Navy also recognizes that building the required force structure 
will largely depend on controlling shipbuilding costs (including combat 
systems) within an affordable range. The Navy is committed to 
maintaining stability in requirements, funding and profiles in an 
effort to control costs. This will require the combined efforts of the 
Navy and the shipbuilding and combat systems industries. Working in 
conjunction with Congress, the Navy will procure and sustain the force 
structure necessary to deliver the capabilities required of United 
States naval forces.
                                 ______
                                 
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Chairman Daniel K. Inouye

    Question. Admiral Roughead, in December, the Congressional Research 
Service reported that the Department of the Navy will have a shortfall 
of 243 strike fighters in 2018. The Navy today is projecting a 
shortfall of about 100 aircraft toward the end of the decade. That 100-
aircraft shortfall assessment was made prior to the recent grounding of 
104 F/A-18s due to structural cracks. Could you address the steps that 
the Navy is taking to reduce the shortfall and the risks associated 
with that plan?
    Answer. The Navy is today projecting a shortfall of about 100 
strike fighters in the 2018 timeframe. Anticipating a shortfall, the 
DON continues to identify further opportunities to reduce its impact. 
The strike fighter shortfall can be mitigated through the application 
of the near and long term management actions. Examples are--the Marine 
Corps modifying it's F-35 transition plan by transitioning some Hornet 
squadrons earlier and leveraging the service life remaining in the AV-
8B fleet, the Navy accelerating the transition of five legacy F/A-18C 
squadrons to F/A-18 E/F and transitioning two additional F/A-18C 
squadrons to F/A-18E/F using the remaining attrition F/A-18E/F reserve 
aircraft, and reducing the Navy Unit Deployment Program (UDP) and USMC 
Expeditionary F/A-18A+/C/D squadrons from 12 to 10 aircraft per 
squadron. Although global demand may challenge implementation of some 
of these actions in the near term, changes in the operational 
environment in the future may allow additional flexibility in their 
implementation. As we go forward, we are considering all options to 
manage our inventory and balance risk, including SLEP to some number of 
F/A-18 (A-D) aircraft to extend their service life to 10,000 flight 
hours and optimizing depot efficiencies. SLEP analysis continues and 
will be addressed in the fiscal year 12 budget process.
    The Department of the Navy continues to rigorously manage the 
service life and warfighting effectiveness of each of our legacy 
Hornets, Harriers, and Super Hornets to ensure the maximum contribution 
to the nation's security for the taxpayer dollars invested.
    Question. This year, the Navy began a major development effort on a 
new ballistic missile submarine to replace the aging Ohio-class. Nearly 
$6 billion is committed to designing the submarine over the next 5 
years, and the cost of each submarine is expected to be $7 billion.
    Admiral Roughead, the Navy is working with Strategic Command to 
refine key decisions about SSBN-X. What have we learned about the 
needed capabilities of the submarine as a result of those reviews?
    Answer. The Ohio replacement will be a strategic, national asset 
whose endurance and stealth will enable the Navy and Nation to provide 
continuous, survivable strategic deterrence into the 2080s. Our Initial 
Capabilities Document (ICD) for our Ohio replacement identified several 
key attributes the submarine must have, including improved stealth, 
survivability, reliability, endurance, tailorability, and adaptability. 
To ensure there is no gap in our future strategic deterrent capability, 
the design process for the Ohio replacement started in fiscal year 2010 
to ensure sufficiently developed technologies and a mature design are 
in place to support lead ship authorization in fiscal year 2019.
    Question. Admiral Roughead, the Navy has historically assumed some 
risk in ship depot maintenance, while balancing resources and 
requirements across the Department's readiness portfolio. For the past 
8 years, the Navy has requested an average of 96 percent of the 
projected ship depot maintenance costs in any given year. However, in 
fiscal year 2011, the request level has jumped to 99 percent. 
Considering the limited resources available in all readiness accounts, 
please explain the Navy's decision to make ship depot maintenance a 
priority in fiscal year 2011, and whether the Navy will continue to 
fund it at the higher level in the future.
    Answer. Continued investment in depot level maintenance is 
essential in achieving and sustaining the force structure required to 
meet our global security interests. Our ships are capital assets that 
operate in challenging physical and security environments. Almost 
three-quarters of our current Fleet will still be in service in 2020. 
As a result of increased technical assessment, we have raised the 
priority of ship's depot maintenance, keeping the Fleet in satisfactory 
operating condition to preserve our ability to accomplish assigned 
missions and for the ships and aircraft to reach expected service 
lives.
    In May 2009, Navy established the Surface Ship Life Cycle 
Maintenance (SSLCM) Activity to provide timely depot-level maintenance 
determined by an engineered assessment of expected material durability 
and scoped by actual, not estimated, physical condition. The SSLCM 
Activity's engineering assessments of maintenance requirements for DDG 
51 and LSD 41/49 provided the technical foundation for our decision to 
increase maintenance funding in our fiscal year 2011 budget request. 
The SSLCM Activity is in the process of completing engineering 
assessment of maintenance requirements for the remainder of surface 
ship classes in the near term.
    Question. Admiral Roughead, what kind of actions is the Navy 
undertaking to reduce the reliance on supplemental funding for ship and 
aircraft depot maintenance?
    Answer. The Navy is currently engaged with the Office of the 
Secretary of Defense, Cost Assessment and Program Evaluation (OSD CAPE) 
to assess Navy's base and overseas contingency operations (OCO) funding 
needs as they relate to future requirements. Findings from this effort 
will serve as the basis for establishing a more refined apportionment 
between baseline and OCO funding requests for ship and aircraft depot 
maintenance.
    Question. Admiral Roughead, as you know, the Subcommittee has 
supported the Navy's decision to end procurement of the DDG 1000 
program and restart the DDG 51 program. I understand that in addition 
to restarting the DDG 51 program, the Navy now proposes to terminate 
the next generation cruiser in order to build an improved version of 
the DDG 51, the so-called Flight III.
    Could you give us an update on the status of the DDG 51 restart, 
explain why building an improved version of the DDG 51 is an adequate 
substitute for the cruiser, and why it is the right ship for the fleet 
in the future?
    Answer. We are well underway with restarting DDG 51 production and 
the restart is on schedule and on budget. A total of nine DDG 51 
restart hulls will be procured from fiscal year 2010 through fiscal 
year 2015, alternating between one per year and two per year beginning 
in fiscal year 2010. Our fiscal year 2011 budget requests funding for 
the construction of two ships: DDG 114 and 115. We are also in the 
process of conducting a full and open competition for the Main 
Reduction Gears (MRG) to be installed on DDG 113 and follow on ships. 
Source selection is in progress, and the contract award is projected 
for Spring 2010. The MRGs are being procured using a firm, fixed-price 
contract and will be provided to the shipbuilders as Government 
Furnished Equipment.
    Our DDG 51 restart ships (Flight IIA) will be the first constructed 
with Integrated Air and Missile Defense (IAMD), providing much-needed 
Ballistic Missile Defense (BMD) capacity to the Fleet, and they will 
incorporate the hull, mechanical, and electrical alterations associated 
with our mature DDG modernization program. We will spiral DDG 51 
production to incorporate future IAMD capabilities.
    In consultation with the Office of the Secretary of Defense, Navy 
conducted a Radar/Hull Study for future surface combatants that 
analyzed the total ship system solution necessary to meet our IAMD 
requirements while balancing affordability and capacity in our surface 
Fleet. The study concluded that the most cost-effective, total-ship 
solution to Fleet air and missile defense requirements over the near- 
to mid-term is a DDG 51 hull with a new Air and Missile Defense Radar 
(AMDR), coupled to the Aegis Advanced Capability Build (ACB) combat 
system. This combination of ship, sensor, and combat system will 
provide our Fleet with the capabilities needed for future mission 
success with less risk and cost than a new start cruiser program. The 
first of these ships, designated as DDG 51 Flight IIIs, will be 
procured in fiscal year 2016.
    Question. Admiral Roughead, what are the potential operational 
impacts to the fleet of building improved DDG 51's instead of the next-
generation cruiser?
    Answer. Restart of the DDG 51 class, and the spiraling of air and 
missile defense capabilities into the DDG 51 Flight III, will deliver 
required Integrated Air and Missile Defense (IAMD) capability and 
capacity into the Fleet sooner, at a more affordable cost, and with 
less risk than pursuing a new start cruiser program at this time.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. Admiral Roughead, the Navy has cancelled plans to replace 
EP-3 airborne reconnaissance aircraft. This decision raises the 
question about the replacement strategy for the Navy's Special Projects 
Aircraft. How long does the Navy intend to maintain and operate the EP-
3 and Special Projects Aircraft, and considering the work these 
aircraft do, have you considered continued investment to improve the 
capabilities of these aircraft until a replacement airframe is 
selected?
    Answer. Navy continues to sustain the operations and maintenance of 
our EP-3 and Special Project Aircraft. We are evaluating several 
options for our future airborne SIGINT capability, including 
accelerating the Initial Operating Capability (IOC) of the Broad Area 
Maritime Surveillance (BAMS) Spiral 3, which is SIGINT-equipped; 
equipping a Medium Range Ship-Based UAV with SIGINT payloads with an 
IOC in about 2016-2017; and outfitting a modest number of manned 
platforms initially with remote SIGINT sensors.
    Question. Admiral Roughead, the Navy is beginning design work on a 
new submarine to replace the aging Ohio-class ballistic missile 
submarine fleet. The cost estimate to design and build 12 submarines 
under this program is staggering, $80 billion or more. This creates a 
concern as to whether the Navy can afford these new submarines without 
curtailing or giving up other shipbuilding efforts. Under the current 
shipbuilding plan and funding profile, what is your assessment of the 
impact this costly program will have on the industrial base and overall 
ship force structure level?
    Answer. The battle force inventory presented in our 30-year 
shipbuilding plan provides the global reach, persistent presence, and 
strategic, operational, and tactical effects required of our naval 
forces within reasonable levels of funding. On balance, the force 
structure represented by our 30-year shipbuilding plan maintains our 
ability to project power across the spectrum of challenges we are 
likely to face throughout the time period of the report, albeit with 
prudent risk where appropriate. One of the plan's three basic precepts 
is the importance of maintaining an adequate national shipbuilding 
design and industrial base necessary to build and sustain tomorrow's 
Navy. The shipbuilding plan aims to maintain that base.
    The SSBN(X) procurement will begin to constrain our shipbuilding 
plan in the latter part of this decade because recapitalization of our 
SSBNs will occur at the same time our SSN 688 submarines, CG 47 class 
guided missile cruisers, DDG 51 class guided missile destroyers, and 
LSD 41/49 class dock landing ships reach end-of-service-life. During 
the years in which the new submarine is being procured, the procurement 
of other ship types will be reduced, resulting in force level and 
industrial base impacts. Even under these constraints, our shipbuilding 
plan still achieves a peak battle force inventory of 320 ships in 
fiscal year 2024 and averages about 303 ships between fiscal year 2020 
and fiscal year 2040.
                                 ______
                                 
             Questions Submitted to General James T. Conway
            Questions Submitted by Chairman Daniel K. Inouye

    Question. General Conway, in December 2009, a key deadline passed 
without a decision by the Japanese Government regarding the realignment 
of U.S. forces on Japan and the movement of Marines to Guam. This move 
includes the closure of Futenma and the expanded land return to the 
people of Okinawa. The Government of Japan is now saying they will have 
a decision in May, but some are concerned that this decision may be 
delayed until after the July election. Can you please share with us the 
impact of further delays in a decision on the future force structure 
and the overall political relationship between Japan and the United 
States?
    Answer. It would be imprudent to alter the force laydown, to 
include moving any forces to Guam, until the Futenma issue is 
adequately resolved. The realignments of U.S. forces on Japan and the 
relocation to Guam are capabilities issues, not basing issues, and we 
have a responsibility to provide ready and able forces in support of 
the Combatant Commander. We need to look at future force laydown in the 
Pacific in total, and central to this are aviation capabilities on 
Okinawa.
    The Marine Corps requires that an aviation capability must remain 
on Okinawa to support the rest of the Marine Air Ground Task Force 
there. We currently have that capability at Futenma. If a replacement 
facility were delayed, untenable or unresolved for whatever reason, we 
would maintain our current force structure and continue to operate out 
of Futenma.
    In the context of the overall political relationship, we understand 
that the U.S.-Japan negotiated agreements were a comprehensive set of 
realignment initiatives designed to meet the strategic needs for both 
allies. We understand that the Government of Japan is taking a hard 
look at options however, we are confident that they realize the 
strategic value of having Marines on Okinawa for their own defense and 
for security in the region.
    Question. General Conway, please lay out the current plan to 
realign 8,000 Marines and their dependents to Guam. What are your 
biggest concerns with the plans?
    Answer. Based on the Agreed Implementation Plan, the units 
relocating to Guam will be the headquarters elements of the III Marine 
Expeditionary Force, including 1st Marine Air Wing, 3rd Marine 
Division, and 3rd Marine Logistics Group.
    With a move of this size and scope, there are inherent concerns. We 
must ensure that our distribution of forces in the Pacific will provide 
an enduring USMC presence in the region with ready and able forces, 
while ensuring the quality of life for our Marines and their families.
    We must balance our commitment to Japan to reduce our force 
structure in Okinawa, while ensuring that our force laydown in the 
Pacific remains responsive to the Nation's and the combatant 
commander's needs. A balanced Marine Air-Ground Task Force capability 
in the Pacific--on Okinawa, on Guam, and on Hawaii--is an essential 
ingredient in our ongoing analysis.
    We must ensure we have the right force laydown. Through the 
Quadrennial Defense Review, the Marine Corps analyzed refinements to 
the AIP that enhance operational capabilities. The AIP laydown was 
based on a 2006 force structure that had approximately 28,000 Marines 
and Sailors assigned to III MEF. Since 2006 the Marine Corps has been 
authorized to grow to 202,000 Marines With todays force structure, that 
number would be closer to 31,000. On Okinawa, the corresponding units 
under the AIP would account for nearly 11,000 Marines, exceeding the 
personnel strength provided for in the current agreement. We are 
examining alternatives that remain within the 10,000 Marine cap on 
Okinawa.
    Question. The Expeditionary Fighting Vehicle has been in 
development for more than a decade, and many questions have been asked 
about its ability to protect Marines from roadside bombs. If the 
program can overcome its development challenges, it has been proposed 
that after the EFV travels from the sea to take a beach, additional 
armor could be then be added to afford greater protection to its crew 
before they continue inland.
    General Conway, what is your response to those who might question 
this strategy as having to manage the tradeoffs of speed in amphibious 
operations against the protection of Marines?
    Answer. Each of the Services is organized differently to achieve 
different missions. The Navy, Army, and Air Force are organized to 
dominate their respective domains (sea, land, and air) while the Marine 
Corps--a rapid-response, general-purpose air-ground task force--
operates across all domains. In the case of the Expeditionary Fighting 
Vehicle (EFV) and amphibious operations, a balance of speed and force 
protection is essential during movement from ship to shore, and 
subsequent movement on land. The increased range, speed, mobility, and 
firepower of the EFV generates a high degree of force protection and 
allows our forces to maintain the initiative while keeping the enemy 
off balance.
    If the situation becomes static, like in Iraq or Afghanistan, the 
application of modular armor for the EFV would offer greater force 
protection for our troops against the most likely threat. There would 
likely be some trade-off under that configuration with regards to speed 
and mobility--but the added protection brings the vehicle to MRAP-like 
survivability. Moreover, our lessons learned over the past several 
years have shown us speed is not necessarily a plus where the enemy can 
plot--then lay Improvised Explosive Devices against--movement patterns.
    In summary, we are committed to providing our Marines the best 
vehicle possible to meet all mission requirements while providing the 
greatest levels of force protection. We will do all that while acting 
as responsible stewards of the nation's precious resources.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. General Conway, when requirements for amphibious ships 
are determined and validated, is consideration given to the demand 
signal from geographic Combatant Commanders for amphibious ship 
capabilities and support. If so, could you share with the subcommittee 
what the aggregate demand from Combatant Commanders is for amphibious 
ships?
    Answer. The Department took into consideration what had been 
historically sourced in order to meet Combatant Commanders (CCDRs) 
missions when the CNO and CMC developed the requirement for amphibious 
ships. However, the primary driver for the Navy's requirement was 
Marine Expeditionary Brigade (MEB) Assault Echelon lift, and 38 ships 
fiscally constrained to 33 ship force that supports a 2.0 MEB lift. 
Assessment of CCDR steady state demand and demand registered in the 
Global Force Management and Joint Capabilities Requirements Manager 
since fiscal year 2008 requires not less than an inventory of 50 
amphibious ships to meet the stated needs of the CCDRs.
    Aggregate CCDR demand for amphibious ships in fiscal year 2010 was 
for 4.3 ARG/MEUs and 3.8 independently deploying amphibious ships. 
Sourcing that demand, using OPNAV rotation rates, would require a force 
structure of 58 ships.
    Question. General Conway, based on current major contingency plans 
what is the requirement for amphibious ships, and how can these plans 
be conducted with the current number of amphibious ships? What is your 
personal opinion concerning the amount of risk being accepted in 
maintaining only 29 to 31 amphibious ships to support warfighting plans 
for which the Marine Corps has been tasked to be prepared?
    Answer. The requirement for 38 amphibious ships to conduct 2.0 MEB 
forcible entry operations has been fully analyzed and agreed to, in 
writing, within the Department of the Navy. Given the fiscal 
constraints facing the Department of the Navy, the Secretary of the 
Navy, Chief of Naval Operations, and I agreed that 33 amphibious ships 
in the assault echelon represents the limit of acceptable risk in 
meeting the 38-ship requirement we established in a letter to your 
committee on January 7, 2009. This 33-ship force accepts risk in the 
arrival of combat and combat service support elements of the MEB, and 
represents a trade off to preserve the Sea Shield.
    The 29-31 ship inventories during the future years defense plan 
(FYDP) does present risk in our Nation's ability to overcome anti-
access challenges in locations along the ``arc of instability,'' where 
there are no American military forces or basing agreements. Moreover, 
with the current inventory of 31 amphibious ships, we are unable to 
meet all of the steady state combatant commander demands for theater 
security cooperation, forward presence, and crisis response.
    The Long-Range Plan for Naval Vessels projects an effort to build 
toward the 38 amphibious ship requirement. However, the closest the 
plan comes to achieving the requirement is 36 amphibious ships in 
fiscal year 2026.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will stand in recess 
until March 24--Wednesday--at which time we will receive 
testimony from the National Guard and Reserves.
    The subcommittee is in recess.
    [Whereupon, at 11:35 a.m., Wednesday, March 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
